APPENDIX

1a
APPENDIX A
PRECEDENTIAL

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 18-2621
FEDERAL TRADE COMMISSION,
Appellant,
v.
ABBVIE INC; ABBOTT LABORATORIES; UNIMED
PHARMACEUTICALS, LLC; BESINS HEALTHCARE, INC.;
*TEVA PHARMACEUTICALS USA, INC
(*Dismissed Pursuant to Court’s 3/12/19 Order.)
No. 18-2748
FEDERAL TRADE COMMISSION,
v.
ABBVIE INC; ABBOTT LABORATORIES; UNIMED
PHARMACEUTICALS, LLC; BESINS HEALTHCARE, INC.;
* TEVA PHARMACEUTICALS USA, INC.
Abbvie Inc; Abbott Laboratories; Unimed
Pharmaceuticals, LLC
Appellants
(*Dismissed Pursuant to Court’s 3/12/19 Order.)

2a
No. 18-2758
FEDERAL TRADE COMMISSION,
v.
ABBVIE INC; ABBOTT LABORATORIES; UNIMED
PHARMACEUTICALS, LLC; BESINS HEALTHCARE, INC.;
* TEVA PHARMACEUTICALS USA, INC.
Besins Healthcare, Inc.,
Appellant
(*Dismissed Pursuant to Court’s 3/12/19 Order.)
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. No. 2-14-cv-05151)
District Judge: Honorable Harvey Bartle, III
Argued on January 15, 2020
(Filed September 30, 2020)
OPINION OF THE COURT
Before: HARDIMAN, PORTER and PHIPPS, Circuit
Judges.
HARDIMAN, Circuit Judge.
*

*

*

This appeal involves a patented drug called AndroGel. A blockbuster testosterone replacement therapy that generated billions of dollars in sales, AndroGel

3a
caught the attention of the Federal Trade Commission.
The FTC sued the owners of an AndroGel patent—
AbbVie, Inc., Abbott Laboratories, Unimed Pharmaceuticals LLC, and Besins Healthcare, Inc.—under
Section 13(b) of the Federal Trade Commission Act in
the United States District Court for the Eastern District of Pennsylvania. The FTC alleged that Defendants filed sham patent infringement suits against Teva
Pharmaceuticals USA, Inc. and Perrigo Company, and
that AbbVie, Abbott, and Unimed entered into an anticompetitive reverse-payment agreement with Teva.
The FTC accused Defendants of trying to monopolize
and restrain trade over AndroGel.
The District Court dismissed the FTC’s claims to
the extent they relied on a reverse-payment theory but
found Defendants liable for monopolization on the
sham-litigation theory. The Court ordered Defendants
to disgorge $448 million in ill-gotten profits but denied
the FTC’s request for an injunction. The parties crossappeal.
We hold the District Court erred by rejecting the
reverse-payment theory and in concluding Defendants’
litigation against Teva was a sham. The Court did not
err, however, in concluding the Perrigo litigation was a
sham and that Defendants had monopoly power in the
relevant market. Yet the FTC has not shown the monopolization entitles it to any remedy. The Court did
not abuse its discretion in denying injunctive relief; and
the Court erred by ordering disgorgement because that
remedy is unavailable under Section 13(b) of the FTC
Act. Accordingly, we will reinstate the FTC’s dismissed claims and remand for further proceedings consistent with this opinion. We will also affirm in part
and reverse in part the Court’s order adjudging Defendants liable for monopolization. Finally, we will af-

4a
firm the Court’s order denying injunctive relief and reverse the Court’s order requiring Defendants to disgorge $448 million.
I.

FACTUAL BACKGROUND

A. FDA Approval under the Hatch-Waxman Act
The Food, Drug, and Cosmetic Act (the FDC Act),
21 U.S.C. § 301 et seq., empowers the Food and Drug
Administration (FDA) to regulate the manufacture and
sale of drugs in the United States. Before a pharmaceutical company can market a drug, it must obtain
FDA approval. Id. § 355(a). Under the FDC Act, as
amended by the Drug Price Competition and Patent
Term Restoration Act of 1984 (the Hatch-Waxman
Act), 21 U.S.C. § 355 and 35 U.S.C. § 271, a company
can apply for FDA approval in one of three ways:
1.

Section 505(b)(1) New Drug Application
(NDA). This is a “full-length” application.
FTC v. AbbVie Inc., 329 F. Supp. 3d 98, 107
(E.D. Pa. 2018). The “gauntlet of procedures”
associated with it is “long, comprehensive, and
costly.” In re Wellbutrin XL Antitrust Litig.
Indirect Purchaser Class, 868 F.3d 132, 143 (3d
Cir. 2017) (citation omitted). It includes “full
reports of investigations” into whether the
drug is safe and effective, a “full list of … [the
drug’s] components,” a “full description of the
methods used in … the manufacture, processing, and packing” of the drug, samples of
the drug, and specimens of the labeling the
company proposes to use. 21 U.S.C. § 355(b)(1).
A company must also list any relevant patents.
See Wellbutrin, 868 F.3d at 144 (citation omitted). We refer to drugs approved through this
process as “brand-name” drugs.

5a
2.

Section 505(j) Abbreviated New Drug Application (ANDA). This streamlined application is
appropriate for a company seeking to market a
generic version of a brand-name drug. The
company need not produce its own safety and
efficacy data. 21 U.S.C. § 355(j)(2)(A)(vi). But
it must show that the generic drug is “the
same” as the brand-name drug in certain relevant respects. Id. § 355(j)(2)(A). It also must
“assure the FDA that its proposed generic
drug will not infringe the brand’s patents.”
Caraco Pharm. Labs., Ltd. v. Novo Nordisk
A/S, 566 U.S. 399, 406 (2012). It can do so by
certifying that the manufacture, use, or sale of
the generic will not infringe patents relating to
the brand-name drug, or that those patents are
invalid. 21 U.S.C. § 355 (j)(2)(A)(vii)(IV). This
certification is known as a “paragraph IV notice.” AbbVie, 329 F. Supp. 3d at 108.
The first company to seek FDA approval in
this way enjoys “a period of 180 days of exclusivity,” during which “no other generic can
compete with the brand-name drug.” FTC v.
Actavis, Inc., 570 U.S. 136, 143-44 (2013) (citing
21 U.S.C. § 355 (j)(5)(B)(iv)). “[T]his 180-day
period … can prove valuable, possibly worth
several hundred million dollars.” Id. at 144 (internal quotation marks and citation omitted).
One exception is that during the 180-day exclusivity period, the brand-name company can
produce a generic version of its own drug or license a third party to do so. See Mylan
Pharm., Inc. v. FDA, 454 F.3d 270, 276-77 (4th
Cir. 2006). These “authorized generics” can decrease the value an applicant receives from the

6a
180-day exclusivity period to the extent they
share the generic drug market and depress
prices. See id. at 273.
3. Section 505(b)(2) New Drug Application (hybrid NDA). This application is appropriate for a company seeking to modify another
company’s brand-name drug. For example, a
company might seek FDA approval of “a new
indication or new dosage form.” 21 C.F.R.
§ 314.54(a). This application is like an ANDA
because the company need not produce all safety and efficacy data about the drug and because
it must assure the FDA that its generic drug
will not infringe the brand’s patents. See 21
U.S.C. § 355(b)(2)(A)(iv). But it differs from an
ANDA because the company must produce
some data, including whatever “information [is]
needed to support the modification(s).” 21
C.F.R. § 314.54(a).
The latter two pathways “speed the introduction of
low-cost generic drugs to market” and promote competition in the pharmaceutical industry. Actavis, 570 U.S.
at 142 (internal citation omitted).
B. Patent disputes under the Hatch-Waxman Act
The Hatch-Waxman Act also has provisions that
encourage the quick resolution of patent disputes. See
Wellbutrin, 868 F.3d at 144. A paragraph IV notice
“automatically counts as patent infringement.” Id.
(quoting Actavis, 570 U.S. at 143 (citing 35 U.S.C.
§ 271(e)(2)(A))). After receiving this notice, a patentee
has 45 days to decide whether to sue. 21 U.S.C.
§ 355(j)(5)(B)(iii).

7a
To help a patentee make that decision, the company
seeking approval of a generic drug often allows the patentee’s outside counsel to review the company’s application in secret. If the patentee sues within the time
limit, the FDA cannot approve the company’s application for a generic drug until one of three things happens: (1) a court holds that the patent is invalid or has
not been infringed; (2) the patent expires; or (3) 30
months elapse, as measured from the date the patentee
received the paragraph IV notice.
21 U.S.C.
§ 355(j)(5)(B)(iii).
The automatic, 30-month stay creates tension with
the Hatch-Waxman Act’s procompetitive goals. Simply
by suing, a patentee can delay the introduction of lowcost generic drugs to market and impede competition in
the pharmaceutical industry. Cf. Actavis, 570 U.S. at
142.
C. Therapeutic equivalence ratings
After the FDA approves a company’s generic drug,
the company can seek a therapeutic equivalence (TE)
rating. “Products that are determined to be therapeutically equivalent [to the brand] are assigned an ‘A’ or
‘AB’ rating. Generic products for which therapeutic
equivalence cannot be determined are assigned a ‘B’ or
‘BX’ rating.” AbbVie, 329 F. Supp. 3d at 107. Generic
drug companies usually prefer A or AB ratings because
every state’s law “either permit[s] or require[s] pharmacists to dispense a therapeutically equivalent, lowercost generic drug in place of a brand drug.” Mylan
Pharm. Inc. v. Warner Chilcott Pub. Ltd., 838 F.3d 421,
428 (3d Cir. 2016) (internal quotation marks and citations omitted).

8a
D. Hypogonadism and testosterone replacement
therapies
Hypogonadism is a clinical syndrome resulting
from low testosterone in the human body. See AbbVie,
329 F. Supp. 3d at 108. It affects an estimated 2-6 percent of the adult male population in the United States
and causes “decreases in energy and libido, erectile
dysfunction, and changes in body composition.” Id.
Doctors treat hypogonadism with testosterone replacement therapies (TRTs). TRTs include injectables,
topical/transdermals (TTRTs), and other therapies.
Companies first marketed injectables in the 1950s. Because generic injectables have been available for decades, they are the least expensive. They involve dissolving testosterone in a liquid and injecting it into the
patient’s body every one to three weeks. Some patients administer injections to themselves at home,
while others receive injections at their doctor’s office or
a specialized testosterone clinic. By contrast, TTRTs
first appeared in the 1990s and are more expensive.
They deliver testosterone to the patient’s body through
a patch or gel applied to the patient’s skin. Gels are applied daily.
TRTs have different benefits and drawbacks.
Some patients dislike injectables because the injection
is painful, or because the “peak in testosterone level”
after the injection causes “swings in mood, libido, and
energy.” Id. at 109. Many of these patients prefer
TTRTs because they release testosterone steadily.
Other patients dislike TTRT gels. Common complaints
include skin irritation and the inconvenience of having
to apply the gel daily. And patients sometimes transfer
the testosterone gel to others inadvertently through
skin-to-skin contact. Finally, some patients dislike

9a
TTRT patches, which can irritate the skin and are visible to other people, depending on where the patch is
applied.
E. AndroGel
In the 1990s, Laboratoires Besins International
S.A.S. (LBI)—a corporate affiliate of Besins’s parent
company—developed the TTRT gel that became AndroGel. In 1995, LBI licensed to Unimed certain intellectual property relating to the gel, and Unimed assumed responsibility for marketing the gel in the United States. In exchange, Unimed agreed to pay LBI a
royalty on the gel’s net sales. Unimed secured FDA
approval for the gel in 2000. That same year, Unimed
and Besins filed a joint U.S. patent application, and, in
2003, U.S. Patent No. 6,503,894 (the ’894 patent) issued.
Today, Besins and AbbVie co-own the ’894 patent.
AbbVie acquired Unimed’s interest in the patent as follows: in 1999, Unimed was acquired by Solvay; in 2010,
Solvay was acquired by Abbott; in 2013, Abbott separated into two companies—Abbott and AbbVie—with
AbbVie assuming all of Abbott’s propriety pharmaceutical business, including its interest in AndroGel.
Solvay brought AndroGel to market in 2000. At
the time, AndroGel was available only in a sachet form
at 1% strength. From 2004-2013, Solvay and its successors marketed AndroGel in a metered-dose pump form.
And in 2011, Abbott started marketing AndroGel at
1.62% strength. Sales of AndroGel 1.62% grew more
slowly than anticipated, but by June 2012, they comprised most of AndroGel’s total sales.
AndroGel has been a huge commercial success. Its
annual net sales sometimes surpassed a billion dollars
and remained strong even after generic versions of An-

10a
droGel entered the market in 2015. From 2009-2015, it
generated a high profit margin of about 65 percent.
F. The ’894 patent’s prosecution history
TTRT gels use “penetration enhancers” to accelerate the delivery of testosterone through a patient’s
skin. AndroGel’s penetration enhancer is isopropyl
myristate.
Unimed and Besins’s joint patent application was
U.S. Patent Application Serial No. 09/651,777. As originally drafted, claim 1 of the patent application claimed
all penetration enhancers:
A pharmaceutical composition useful for the
percutaneous delivery of an active pharmaceutical ingredient, comprising:
(a) a C1-C4 alcohol;
(b) a penetration enhancer;
(c) the active pharmaceutical ingredient; and
(d) water.
App. 909 (emphasis added). The penetration enhancers
then in existence numbered in the tens of millions.
In June 2001, the patent examiner rejected this
claim as obvious over two prior art references—Mak in
view of Allen. Mak disclosed the penetration enhancer
oleic acid used in a transdermal testosterone gel. Allen
disclosed isopropyl myristate, isopropyl palmitate, and
three other penetration enhancers used in a nitroglycerin cream. The examiner explained that “since all
composition components herein are known to be useful
for the percutaneous delivery of pharmaceuticals, it is
considered prima facie obvious to combine them into a

11a
single composition useful for the very same purpose.”
App. 1014-16.
In October 2001, Unimed and Besins amended the
patent application’s claim 1 to recite at least one of 24
penetration enhancers, including isopropyl myristate
and isostearic acid. Isopropyl palmitate was not among
the 24. Unimed and Besins also added several new
claims. Claim 47 recited “a penetration enhancer selected from the group consisting of isopropyl myristate
and lauryl alcohol.” App. 1022. And claims 61 and 62
recited only isopropyl myristate as a penetration enhancer.
Unimed and Besins sought “reconsideration and
withdrawal of the [obviousness] rejections and allowance of the[se] claims.” App. 1039. In support, they
cited AndroGel’s commercial success. See id.; see generally Graham v. John Deere Co. of Kansas City, 383
U.S. 1, 17 (1966) (holding commercial success is a “secondary consideration” suggesting nonobviousness).
They also argued “[t]he mere fact that references can
be combined or modified does not render the resultant
combination obvious unless the prior art also suggests
the desirability of the combination.” App. 1030–31 (citations omitted). For three reasons, they said, the prior art did not suggest combining Mak and Allen. First,
Mak “[taught] away from using the presently claimed
penetration enhancers by focusing on the superiority of
oleic acid.” App. 1032. Second, the claimed penetration
enhancers had an “unexpected and unique pharmacokinetic and phamacodynamic profile.” Id. And third,
“the prior art recognize[d] the chemical and physiologic/functional differences of penetration enhancers, including the differences between oleic acid and the
claimed enhancers, such as isopropyl myristate.” App.
1037-38.

12a
Attorneys for Unimed and Besins then met with
the examiner for an interview. The examiner opined
that “claims 61-62 are … allowable over the prior art.”
App. 1084. She also noted that the attorneys “argued
claim 47 is novel [and] nonobvious over the prior art
because the prior art does not teach the composition
with particular concentrations [of isopropyl myristate
and lauryl alcohol].” Id.
In December 2001 and February 2002, Unimed and
Besins twice more amended the patent application.
They cancelled claims 1 and 62, amended claim 47 to
cover only a composition comprising isopropyl
myristate, and modified the concentration ranges for
isopropyl myristate in claim 61. With each amendment,
they sought “reconsideration and withdrawal of the
[obviousness] rejections and allowance of the[se]
claims.” App. 1095, 1129.
The examiner issued a notice of allowability. She
wrote that “[t]he claimed pharmaceutical composition
consisting essentially of the particular ingredients
herein in the specific amounts, is not seen to be taught
or fairly suggested by the prior art.” App. 1152. She
clarified that she considered the amendments “all together,” and they sufficed to “remove the prior art rejection … over [Mak in view of Allen].” Id.
In January 2003, the ’894 patent issued. It expired
on August 30, 2020.
G. AndroGel’s competitors
When Solvay brought AndroGel to market in 2000,
its only competitors were injectables and two TTRT
patches (i.e., Testoderm and Androderm). Since then,
companies have marketed four other TTRT gels (i.e.,
Testim, Axiron, Fortesta, and Vogelxo). Companies

13a
have also developed other TRTs, including Striant (a
buccal tablet applied twice daily to a patient’s gums),
Testopel (a pellet surgically inserted into a patient’s
body every three to six months), and Natesto (a nasal
spray administered three times a day).
H. The lawsuits against Teva and Perrigo
In December 2008, Perrigo filed two ANDAs for a
generic 1% testosterone gel in sachet and pump forms,
and in June 2009 it served paragraph IV notices on
Unimed and Besins. It asserted that because its gel
used the penetration enhancer isostearic acid instead of
isopropyl myristate, the gel would not literally infringe
the ’894 patent. It also argued the gel would not infringe the patent under the doctrine of equivalents,
which provides that “[t]he scope of a patent … embraces all equivalents to the claims described.” Festo Corp.
v. Shoketsu Kinzoku Kogyo Kabushiki Co. (“Festo
VIII”), 535 U.S. 722, 732 (2002). Perrigo explained the
’894 patent’s prosecution history would estop Unimed
and Besins from claiming equivalency between isostearic acid and isopropyl myristate, because they originally claimed isostearic acid before excluding it in response to a rejection. This limitation on the doctrine of
equivalents is known as prosecution history estoppel.
Id. at 733-34.
Solvay, Unimed, and Besins retained outside counsel to review Perrigo’s ANDAs. In July 2009, Solvay
and Unimed issued a press release stating that they
had carefully evaluated the ANDAs and decided not to
sue Perrigo, in part because Perrigo’s gel “contains a
different formulation than the formulation protected by
the AndroGel patent.” AbbVie, 329 F. Supp. 3d at 111.
Besins also decided not to sue.

14a
That same year, the FDA learned that patients
were accidentally transferring TTRT gels to children
through skin-to-skin contact. AndroGel’s new owner
Abbott petitioned the FDA to require Perrigo to resubmit its 2009 ANDAs as hybrid NDAs. See 21
C.F.R. § 10.30 (FDA citizen petition form). That would
require Perrigo to investigate whether isostearic acid
poses a higher risk of accidental transfer than isopropyl
myristate. Abbott also asked the FDA to require Perrigo to serve new paragraph IV notices on Abbott and
Besins, thereby reopening the 45-day window for them
to decide whether to sue. The FDA granted Abbott’s
petition in relevant part.
In January 2011, Teva filed a hybrid NDA for a generic 1% testosterone gel in sachet and pump forms,
and in March 2011 it served paragraph IV notices on
Abbott, Solvay, Unimed, and Besins. Teva asserted its
gel would not literally infringe the ’894 patent because
it used isopropyl palmitate instead of isopropyl
myristate. It also explained that the ’894 patent’s prosecution history would estop Abbott and Besins from
claiming infringement on the ground that isopropyl
palmitate is equivalent to isopropyl myristate. Abbott
and Besins retained outside counsel to review Teva’s
hybrid NDA.
On April 29, 2011, Abbott, Unimed, and Besins
sued Teva for patent infringement in the United States
District Court for the District of Delaware. They argued that isopropyl myristate and isopropyl palmitate
were equivalent. The lawsuit triggered the HatchWaxman Act’s automatic, 30-month stay on FDA approval for Teva’s gel. Teva responded that prosecution
history estoppel applied because Unimed and Besins’s
October 2001 amendment—which narrowed the application’s claim 1 from all penetration enhancers to a list

15a
of 24—surrendered isopropyl palmitate.
Abbott,
Unimed, and Besins disagreed. They cited an exception to prosecution history estoppel—known as “tangentiality”—that applies if “the rationale underlying
the amendment [bore] no more than a tangential relation to the equivalent in question.” Festo VIII, 535
U.S. at 740. Abbott, Unimed, and Besins argued the
October 2001 amendment sought to overcome Mak’s
use of oleic acid and was thus tangential to isopropyl
palmitate, which Allen disclosed. The Court set trial
for May 2012.
In July 2011, Perrigo filed a hybrid NDA for generic 1% testosterone gel, and in September 2001, it served
new paragraph IV notices on Abbott, Unimed, and Besins. It again asserted its gel would not infringe the
’894 patent. And it added that “a lawsuit asserting the
’894 patent against Perrigo would be objectively baseless and a sham, brought in bad faith for the improper
purpose of, inter alia, delaying Perrigo’s NDA approval.” AbbVie, 329 F. Supp. 3d at 114. A bad faith motive
for suing would be “particularly apparent,” Perrigo
said, in light of Solvay’s July 2009 press release. Id.
Abbott, Unimed, and Besins retained outside counsel to
review Perrigo’s hybrid NDA.
In August 2011, Abbott petitioned the FDA not to
grant therapeutic equivalence ratings to hybrid NDAs
referencing AndroGel. Alternatively, it asked the FDA
to assign such products BX ratings.
On October 31, 2011, Abbott, Unimed, and Besins
sued Perrigo in the United States District Court for the
District of New Jersey. That lawsuit triggered the
Hatch-Waxman Act’s automatic, 30-month stay on
FDA approval for Perrigo’s gel.

16a
Four in-house patent attorneys in AbbVie’s intellectual property group and AbbVie’s general counsel
decided to sue Teva and Perrigo. Those attorneys had
“extensive experience in patent law and with AbbVie.”
See id. at 113. However, “[n]o business persons at
AbbVie were involved in the decision to sue.” Id. As
for Besins, its in-house counsel Thomas MacAllister decided to sue. MacAllister is an experienced intellectual
property attorney and a former patent examiner.
I.

The settlements with Perrigo and Teva

In December 2011, Abbott and Perrigo settled.
They agreed to dismiss all claims and counterclaims
with prejudice; Abbott agreed to pay Perrigo $2 million
as reasonable litigation expenses; and Abbott agreed to
license Perrigo to market its generic 1% testosterone
gel on either January 1, 2015 or when another generic
version came to market, whichever was sooner. (The
last provision is known as an acceleration clause). Perrigo unsuccessfully pushed for an earlier market entry
date in settlement negotiations. Its assistant general
counsel Andrew Solomon later said he predicted the
acceleration clause would provide Perrigo with an earlier entry date, because he saw “a very good probability
Teva could prevail” against Abbott and Besins at trial
in the other lawsuit. AbbVie, 329 F. Supp. 3d at 115.
He also said he advised Perrigo that it had a 75 percent
chance of success, had the litigation proceeded to trial.
He explained this figure meant Perrigo felt “very, very
strongly about [its] chances for success, recognizing
that there is [an] inherent uncertainty … any time a
case gets in front of an arbiter.” App. 4071.
Abbott and Teva also settled in December 2011,
soon after the court set a trial date. Abbott agreed to
license Teva to market its generic 1% testosterone gel

17a
on December 27, 2014—almost six years before the ’894
patent expired. Teva pushed unsuccessfully for an earlier market-entry date in settlement negotiations.
On the same day Abbott and Teva settled the infringement suit, they also made a deal involving a popular brand-name cholesterol drug named TriCor. A previous settlement between Abbott and Teva had set
Teva’s entry in the TriCor market for July 2012. And
because Teva was the first generic challenger to TriCor, Teva was entitled to 180 days of marketing exclusivity. Teva was struggling to capitalize on the exclusivity period, though, because it could not secure FDA
approval. In the December 2011 deal, Abbott agreed to
grant Teva a license to sell a generic version of TriCor,
which Abbott would supply to Teva at Teva’s option,
for a four-year term beginning in November 2012. This
supply agreement provided for Teva to pay Abbott the
costs of production, an additional percentage of that
cost, and a royalty.
According to the FTC, the December 2011 settlement agreement and TriCor deal were an illegal reverse payment. A reverse payment occurs when a patentee, as plaintiff, pays an alleged infringer, as defendant, to end a lawsuit. See Wellbutrin, 868 F.3d at 142
n.3 (citing Actavis, 570 U.S. at 140-41). Such agreements can be anticompetitive if they allow a brandname company to split its monopoly profits with a generic company in exchange for the generic agreeing to
delay market entry. As applied here, the FTC alleges
Abbott calculated that it would sacrifice about $100 million in TriCor sales, but that was a small fraction of the
billions of dollars in AndroGel revenue it protected by
deferring competition in the TTRT market for three
years. Deferring competition also gave Abbott time to
shift sales to Androgel 1.62%, for which there were no

18a
generic competitors. As for Teva, it “concluded that it
would be better off by sharing in AbbVie[’s] monopoly
profits from the sale of AndroGel than by competing.”
App. 4418.
Teva’s settlement triggered the acceleration clause
in Perrigo’s settlement agreement, so Perrigo’s licensed entry date became December 27, 2014.
J.

Teva and Perrigo’s generic versions of AndroGel

In February 2012, the FDA approved Teva’s hybrid NDA for the sachet form of its generic 1% testosterone gel. Teva withdrew the pump form from its application after the FDA identified a safety concern with
the packaging. But the FDA allowed Teva to resubmit
the pump form as a post-approval amendment.
In January 2013, the FDA approved Perrigo’s hybrid NDA for generic 1% testosterone gel. It then considered the gel’s therapeutic equivalence rating. Perrigo sent the FDA three letters to expedite the FDA’s
consideration. AbbVie petitioned the FDA to issue
Perrigo’s product a BX rating.
In March 2014, Perrigo sued the FDA, accusing it
of unreasonable delay. The FDA responded that “Perrigo has itself obviated the need for a prompt decision
by reaching an agreement with [Abbott] not to market
until December 2014.” AbbVie, 329 F. Supp. 3d at 116.
It said it expected to rate Perrigo’s gel “by July 31,
2014—some five months before Perrigo’s planned
product launch.” Id. On July 23, 2014, the FDA issued
the gel an AB rating, and Perrigo dismissed its lawsuit
against the FDA. See id. at 116, 116 n.9. Perrigo
brought its gel to market on December 27, 2014, its licensed entry date.

19a
Also on July 23, 2014, the FDA issued Teva’s gel a
BX rating. Teva never marketed the product.
II. PROCEDURAL HISTORY
The FTC sued AbbVie, Abbott, Unimed, Besins,
and Teva under Section 13(b) of the FTC Act in the
United States District Court for the Eastern District of
Pennsylvania. 15 U.S.C. § 53(b). We refer to AbbVie,
Abbott, Unimed, and Solvay as “AbbVie” for simplicity.
In Count I of the complaint, the FTC alleged
AbbVie and Besins willfully maintained a monopoly
through a course of anticompetitive conduct, including
sham patent litigation against Teva and Perrigo. In
Count II, the FTC alleged AbbVie restrained trade by
entering into an anticompetitive reverse-payment
agreement with Teva. The FTC requested that the
Court enjoin AbbVie and Besins “from engaging in similar and related conduct in the future,” and that the
Court “grant such other equitable [monetary] relief as
[it] finds necessary, including restitution or disgorgement.” App. 4454.
AbbVie and Besins moved to dismiss “Count I to
the extent it [wa]s premised on the” alleged reverse
payments, under Rule 12(b)(6) of the Federal Rules of
Civil Procedure. Dkt. 2:14-cv-05151, ECF No. 38 at 1.
AbbVie also moved to dismiss Count II in its entirety,
as it was based only on the reverse-payment theory.
The District Court granted both motions.
The FTC moved for reconsideration after our decision in King Drug Co. of Florence, Inc. v. SmithKline
Beecham Corp., 791 F.3d 388 (3d Cir. 2015). But the
District Court distinguished King Drug and denied the
motion.

20a
The FTC then moved for partial summary judgment on the sham-litigation theory supporting Count I.
AbbVie and Besins sought summary judgment as well.
The sham-litigation theory required the FTC to
prove (1) that AbbVie had monopoly power in the relevant market and (2) that AbbVie willfully acquired or
maintained that power through sham litigation. See
Mylan, 838 F.3d at 433. Sham litigation has two
prongs. “First, the lawsuit must be objectively baseless in the sense that no reasonable litigant could realistically expect success on the merits.” Prof ’l Real Estate Invs., Inc. v. Columbia Pictures Indus., Inc.
(“PRE”), 508 U.S. 49, 60 (1993). And second, the lawsuit must conceal an attempt to interfere directly with
the business relationships of a competitor through the
use of the governmental process as an anticompetitive
weapon. See id. at 60–61. The FTC sought summary
judgment only on the objective baselessness prong.
The District Court granted the FTC partial summary judgment and denied AbbVie and Besins’s motions. The Court held a sixteen-day bench trial on sham
litigation’s subjective prong and monopoly power, and
it found for the FTC on both. See AbbVie, 329 F. Supp.
3d at 146. The Court awarded “equitable monetary relief in favor of the FTC and against [AbbVie and Besins] in the amount of $448 million, which represent[ed]
disgorgement of [their] ill-gotten profits.” Id. It declined to enter an injunction. The FTC, AbbVie, and
Besins now appeal.
The FTC argues the District Court erred in dismissing its claims to the extent they relied on a reverse-payment theory; abused its discretion in calculating the amount of disgorgement; and abused its discretion in denying the FTC injunctive relief.

21a
AbbVie and Besins argue the District Court erred
in concluding the infringement suits against Teva and
Perrigo met either prong of the sham-litigation standard, and that AbbVie had monopoly power in the relevant market. They also argue the Court erred in ordering disgorgement because Section 13(b) of the FTC Act
does not authorize disgorgement, the disgorgement is a
penalty rather than an equitable remedy, and the FTC
failed to prove statutory preconditions for injunctive
relief. Finally, they argue the Court abused its discretion in calculating the amount of disgorgement
III. JURISDICTION
The District Court had jurisdiction under 28 U.S.C.
§ 1331. The parties to this appeal agree that we have
jurisdiction. Yet we have a “continuing obligation to …
raise the issue of subject matter jurisdiction if it is in
question.” Bracken v. Matgouranis, 296 F.3d 160, 162
(3d Cir. 2002) (citations omitted).
Our jurisdiction under 28 U.S.C. § 1291 extends to
“appeals from all final decisions of the district courts of
the United States.” But there is an exception. The
United States Court of Appeals for the Federal Circuit
has “exclusive jurisdiction … of an appeal from a final
decision of a district court of the United States … in
any civil action arising under … any Act of Congress
relating to patents.” 28 U.S.C. § 1295(a)(1) (emphasis
added).
A civil action “aris[es] under” federal patent law if
“a well-pleaded complaint” shows either that “federal
patent law creates the cause of action,” or “the plaintiff’s right to relief necessarily depends on resolution of
a substantial question of federal patent law, in that patent law is a necessary element of one of the wellpleaded claims.” Christianson v. Colt Indus. Operating

22a
Corp., 486 U.S. 800, 809 (1988) (emphasis added). In
this appeal, the former basis for the Federal Circuit’s
jurisdiction does not apply because “[f]ederal … antitrust law, not federal patent law, creates [the FTC’s]
claims.” In re Lipitor Antitrust Litig., 855 F.3d 126,
145 (3d Cir. 2017) (emphasis omitted). So “[t]his case …
turns on the [latter basis]” for the Federal Circuit’s exclusive jurisdiction. Id.
The latter basis applies only if two requirements
are met. First, federal patent law must be a “necessary” element of one of the plaintiff’s well-pleaded
claims. Here, the word “necessary” takes its strict, logical meaning: “a claim supported by alternative theories in the complaint may not form the basis for [the
Federal Circuit’s exclusive jurisdiction] unless patent
law is essential to each of those theories.” Christianson, 486 U.S. at 810 (emphasis added). And the patentlaw issues must be “substantial.” Id. at 809.
The Supreme Court has yet to interpret the substantiality requirement in a case involving 28 U.S.C.
§ 1295(a)(1) in its current form. But it has addressed
the requirement in cases involving 28 U.S.C. § 1338(a),
which is analogous because it gives district courts exclusive jurisdiction over “any civil action arising under
any Act of Congress relating to patents.” (emphasis
added). In Gunn v. Minton, 568 U.S. 251 (2013), the
Court held a state legal malpractice claim arising out of
a patent infringement proceeding did not present a
“substantial” federal issue vesting federal district
courts with exclusive jurisdiction. Id. at 261. The
Court first clarified that whether a question is “substantial” turns not on the “importance of the issue to
the plaintiff’s case and to the parties,” but instead on
“the importance of the issue to the federal system as a
whole.” Id. at 260. Applying that standard, it empha-

23a
sized that because the legal malpractice claim was
“backward-looking” and the issue it raised was “hypothetical,” the state court could not change the patent’s
invalidity as determined by the prior federal patent litigation. Id. at 261. Nor could the state court undermine the uniformity of federal patent law going forward, because federal courts “are of course not bound
by state court … patent rulings” and “state courts can
be expected to hew closely to the pertinent federal
precedents.” Id. at 261-62 (citations omitted). Moreover, any preclusive effect the state court’s ruling might
have “would be limited to the parties and patents that
had been before the state court.” Id. at 263. Finally,
the mere possibility that the state court might misunderstand patent law and incorrectly resolve a state
claim was not “enough to trigger the federal courts’ exclusive patent jurisdiction.” Id.
This appeal meets neither of the requirements for
the latter basis of the Federal Circuit’s exclusive jurisdiction. Thus, the Federal Circuit does not have exclusive jurisdiction here. First, federal patent law is not a
“necessary” element of one of the FTC’s well-pleaded
claims. In its complaint, the FTC “challenges a course
of anticompetitive conduct,” which the complaint defines to include AbbVie and Besins’s “sham patent infringement litigation” and “[AbbVie’s] … illegal [reverse-payment] agreement.” App. 4416. The complaint
then asserts two counts. Count II (Restraint of Trade)
claims AbbVie violated federal antitrust law by entering into an anticompetitive reverse-payment agreement with Teva. App. 4453–54. We have held that “reverse-payment antitrust claims do not present a question of patent law.” Lipitor, 855 F.3d at 146 (citing Actavis, 570 U.S. at 158 (“[T]he size of the unexplained
reverse payment can provide a workable surrogate for

24a
a patent’s weakness, all without forcing a court to conduct a detailed exploration of the validity of the patent
itself.”) (citation omitted)). Thus, patent law is not a
necessary element of Count II.
The same reasoning applies to Count I (Monopolization). It first “reallege[s] and incorporate[s] by reference” all of the complaint’s allegations. App. 4453. It
then asserts that AbbVie and Besins willfully maintained a monopoly “through a course of anticompetitive
conduct, including filing sham patent litigation against
Teva and Perrigo.” Id. By its terms, Count I challenges a “course of anticompetitive conduct,” which the
complaint earlier defines to include not only sham litigation, but also the reverse-payment agreement. Because reverse-payment theories do not present a question of patent law, patent law is not a necessary element of Count I either.
Our reasoning is consistent with the Supreme
Court’s decision in Christianson and our decision in
Lipitor. In both cases, the presence of “non-patent-law
theories of liability supporting the … plaintiffs’ monopolization claims vest[ed] jurisdiction over their appeals”
in the regional circuit, “not the Federal Circuit.” Lipitor, 855 F.3d at 146 (citing Christianson, 486 U.S. at
812).
The parties’ conduct before the District Court also
supports our interpretation. AbbVie and Besins moved
to dismiss “Count I to the extent it [wa]s premised on
the” alleged reverse payments. Dkt. 2:14-cv-05151,
ECF No. 38 at 1. The District Court granted that motion. Because Count I is premised, at least in part, on
this non-patent-law theory, the Federal Circuit does
not have exclusive jurisdiction over this action.

25a
It is true that the FTC pleads in Count I that the
course of conduct “includ[es]” sham patent litigation.
App. 4453. And a sham-litigation theory does present
patent-law questions because it requires us to review
the objective reasonableness of AbbVie and Besins’s
patent-infringement litigation against Teva and Perrigo. See PRE, 508 U.S. at 60. But that fact does not undermine our jurisdiction because the sham-litigation
theory is one of two theories supporting Count I. And
the other theory—the reverse-payment theory—does
not present a question of patent law. See Christianson,
486 U.S. at 810.
We also note that the FTC has not contended that
Besins and Teva entered into an independent reversepayment agreement. Thus, it might be argued the
FTC’s right to relief as against Besins necessarily depends on resolution of patent-law questions.1 We disagree because the FTC’s complaint may be read to allege that Besins participated in AbbVie’s settlement
with Teva. The complaint notes “[t]he sham lawsuits
did not eliminate the threat of Teva’s and Perrigo’s
products to AbbVie Defendants and Besins’s monopoly.” App. 4441. It then asserts “AbbVie … and Besins
… turned to other ways to preserve their monopoly,”
including AbbVie’s settlement with Teva. App. 4442.
As mentioned above, the parties’ conduct before the
District Court supports our reading because both
AbbVie and Besins moved to dismiss “Count I to the
extent it [wa]s premised on the” alleged reverse payments.

1

Judge Phipps would have accepted this argument and held
we have jurisdiction because the patent-law issues the FTC’s
sham-litigation theory presents are not substantial.

26a
Thus, patent law is not a “necessary” element of
one of the FTC’s well-pleaded claims, so the latter basis
for the Federal Circuit’s exclusive jurisdiction does not
apply.
Second, the patent-law issues that the FTC’s shamlitigation theory presents are not “substantial,” in the
sense that they are important to the “federal system as
a whole.” Gunn, 568 U.S. at 260. So even if federal patent law were a “necessary” element of one of the
FTC’s well-pleaded claims, the latter basis for the Federal Circuit’s exclusive jurisdiction still would not apply. Like the state legal malpractice claim in Gunn, the
sham-litigation theory here is purely backward looking:
just as the state court’s adjudication of the legal malpractice claim could not change the result of the prior
federal patent litigation, our adjudication of the FTC’s
sham-litigation theory cannot change the settlement
that resulted from AbbVie and Besins’s infringement
suits against Teva and Perrigo. See id. at 261.2
Nor would adjudicating the sham-litigation theory
undermine the uniformity of federal patent law. See id.
at 261-62. The reasons for this are general and case
specific. Generally, much like the state court’s decision
in Gunn could not bind federal courts, the parts of our
2

It might be argued the patent-law issues Gunn presented
are less substantial than the ones we face here because the patent
litigation in Gunn led to the patent’s invalidation, see id. at 255,
whereas the ’894 patent has not been invalidated. Indeed, while
the ’894 patent expired on August 30, 2020, AbbVie and Besins
may sue for infringement for up to six years after that date. See 35
U.S.C. § 286. We think this distinction is immaterial under Gunn,
which emphasized that the state-court adjudication of the legal
malpractice claim would not change the result of the prior federal
patent litigation, rather than emphasizing the result itself. See 568
U.S. at 261.

27a
decision in this appeal that interpret patent law cannot
bind the Federal Circuit or district courts outside the
Third Circuit. See id. And like the state court in Gunn,
we must hew closely to the Federal Circuit’s precedents. See id. If the patent-law issues we decide arise
frequently, they “will soon be resolved within [the Federal Circuit], laying to rest any contrary … precedent.”
Id. at 262. Otherwise, they are “unlikely to implicate
substantial federal interests.” Id.
There are two additional, case-specific reasons that
adjudicating the sham-litigation theory would not undermine the uniformity of federal patent law. First,
litigation is a sham only if it is objectively baseless,
meaning “no reasonable litigant could realistically expect success on the merits.” PRE, 508 U.S. at 60. Our
application of this standard poses no threat to the uniformity of federal patent law. Consider our choices in
this appeal: AbbVie and Besins’s lawsuits were or
were not shams. If the former, it must be true that the
patent law we apply is so clear that AbbVie and Besins
were unreasonable in suing Teva or Perrigo for infringement and expecting to succeed. Such a holding
would effectively adjudicate the merits of an infringement claim but at no cost to uniformity. And the latter
holding would mean only that AbbVie and Besins were
not unreasonable in expecting success in their infringement suits. That conclusion would not undermine
uniformity because it would not adjudicate the merits
of the infringement claims.
Moreover, whether AbbVie and Besins’s infringement lawsuits were shams depends on whether the
tangentiality exception to prosecution history estoppel
applies. But the Federal Circuit has cautioned against
applying analogical reasoning in determining tangentiality. See Eli Lilly & Co. v. Hospira, Inc., 933 F.3d

28a
1320, 1332 n.5 (Fed. Cir. 2019) (“[W]e find the analogies
to other cases less helpful than a direct consideration of
the specific record of this case and what it shows about
the reason for amendment and the relation of that reason to the asserted equivalent.”). Because the Federal
Circuit limits reliance on its own precedents in determining tangentiality, it follows that our decision in this
appeal will have limited effect on the uniformity of patent law. Even setting Eli Lilly aside, however, the
rarity of the patent-law issues these appeals present
counsels in favor of our jurisdiction: the issues are not
ones whose resolution will control numerous other cases. See Gunn, 568 U.S. at 262 (quoting Empire
Healthchoice Assurance, Inc. v. McVeigh, 547 U.S. 677,
700 (2006)).
Finally, here, as in Gunn, the preclusive effect of
our ruling “would be limited to the parties and patents”
before us. See 568 U.S. at 263. And the mere possibility that we might misunderstand patent law is not dispositive. See id. So the patent-law issues that the
FTC’s sham-litigation theory presents are not “substantial.” Even if federal patent law were a “necessary” element of one of the FTC’s well-pleaded claims,
the latter basis for the Federal Circuit’s exclusive jurisdiction still would not apply.
Before concluding, we note a prudential consideration supporting our jurisdiction: “[u]nder the Federal
Circuit’s choice-of-law rules, it would apply Third Circuit antitrust jurisprudence … when reviewing whether [the FTC] states[s a] plausible claim[] for relief under” a reverse-payment theory. Lipitor, 855 F.3d at
148 (citing Nobelpharma AB v. Implant Innovations,
Inc., 141 F.3d 1059, 1068 (Fed. Cir. 1998) (the Federal
Circuit “appl[ies] the law of the appropriate regional
circuit to issues involving other elements of antitrust

29a
law such as relevant market, market power, damages,
etc., as those issues are not unique to patent law”)).
The Federal Circuit would also apply our precedent
when reviewing the District Court’s judgment on the
sham-litigation theory, except when the judgment
raised issues unique to patent law. See id. Needless to
say, we are as capable of applying our own law as the
Federal Circuit. And it makes eminent sense for this
Court to develop our own law in this area.
In summary, neither basis for the Federal Circuit’s
exclusive jurisdiction applies: federal patent law does
not create the FTC’s cause of action, and the FTC’s
right to relief does not necessarily depend on resolution
of a substantial question of federal patent law. So this
civil action does not “aris[e] under” federal patent law
within the meaning of 28 U.S.C. § 1295(a)(1). We have
jurisdiction under 28 U.S.C. § 1291.
IV. LIABILITY
Having assured ourselves of our jurisdiction, we
turn to the merits of these cross-appeals. We hold the
District Court erred by rejecting the reverse-payment
theory and in concluding AbbVie and Besins’s litigation
against Teva was a sham. The Court did not err, however, in concluding the Perrigo litigation was a sham
and that AbbVie and Besins had monopoly power in the
relevant market.
A. The District Court erred by rejecting the
reverse-payment theory.
We review the District Court’s dismissal order de
novo. Phillips v. Cnty. of Allegheny, 515 F.3d 224, 230
(3d Cir. 2008) (citation omitted). We must “accept all
factual allegations as true, construe the complaint in
the light most favorable to the plaintiff, and determine

30a
whether, under any reasonable reading of the complaint, the plaintiff may be entitled to relief.” Id. at 231
(internal citation and quotation marks omitted). A
plaintiff relying on a reverse-payment theory must “allege facts sufficient to support the legal conclusion that
the settlement at issue involves a large and unjustified
reverse payment under Actavis.” In re Lipitor Antitrust Litig., 868 F.3d 231, 252 (3d Cir. 2017) (citation
omitted).
1.

Actavis

A reverse payment occurs when a patentee pays an
alleged infringer to end a lawsuit. See Wellbutrin, 868
F.3d at 142 n.3 (citing Actavis, 570 U.S. at 140-41). A
typical reverse payment happens this way: “Company
A sues Company B for patent infringement. The two
companies settle under terms that require (1) Company
B, the claimed infringer, not to produce the patented
product until the patent’s term expires, and (2) Company A, the patentee, to pay B many millions of dollars.”
Actavis, 570 U.S. at 140.
Reverse payments can be anticompetitive in violation of the antitrust laws. Absent the reverse payment
in the previous example, Company B might have prevailed by proving Company A’s patent invalid. Even if
the patent were valid, Company B might prevail by
showing it did not infringe. In either case, generic
drugs would have entered the market before Company
A’s patent was set to expire, and consumers would
have benefited from lower drug prices.
In Actavis, the Supreme Court held reverse payments “can sometimes unreasonably diminish competition in violation of the antitrust laws.” Id. at 141. That
case, like this one, involved AndroGel. See id. at 144.
Solvay sued Actavis, Inc., a company seeking to market

31a
a generic version of the gel. See id. at 145. Solvay and
Actavis settled under the following terms: (1) “Actavis
agreed that it would not bring its generic to market until … 65 months before Solvay’s patent expired (unless
someone else marketed a generic sooner)”; (2) “Actavis
also agreed to promote AndroGel to urologists”; and (3)
“Solvay agreed to pay … an estimated $19-$30 million
annually, for nine years, to Actavis.” Id. “The companies described these payments as compensation for
other services [Actavis] promised to perform.” Id. at
145. The FTC was unpersuaded. It sued Solvay and
Actavis, contending the services had little value and
the payments actually compensated the generics for
delaying their market entry. See id.
The district court dismissed the FTC’s complaint,
and the United States Court of Appeals for the Eleventh Circuit affirmed. See id. at 145-46. Both courts
applied the “scope of the patent” test, which provides
that “absent sham litigation or fraud in obtaining the
patent, a reverse payment settlement is immune from
antitrust attack so long as its anticompetitive effects
fall within the scope of the exclusionary potential of the
patent.” Id. at 146 (citation omitted). This “categorical
rule … relied on the premise that, because a patentee
possesses a lawful right to keep others out of its market, the patentee may also enter into settlement
agreements excluding potential patent challengers
from entering that market.” Lipitor, 868 F.3d at 250
(citing Actavis, 570 U.S. at 146). The Eleventh Circuit
was also concerned that antitrust review of reverse
payments would undermine the general policy in favor
of settlements and “require the parties to litigate the
validity of the patent in order to demonstrate what
would have happened to competition in the absence of
the settlement.” Actavis, 570 U.S. at 153.

32a
The Supreme Court reversed. It first rejected the
scope of the patent test. The infringement suit Solvay
and Actavis settled “put the patent’s validity at issue,
as well as its actual preclusive scope.” Actavis, 570
U.S. at 147. And the parties’ settlement was both “unusual” and potentially anticompetitive, because the
FTC alleged Solvay “agreed to pay [Actavis] many millions of dollars to stay out of its market, even though
[Actavis] did not have any claim that [Solvay] was liable … for damages.” Id. at 147-48. These factors persuaded the Court it would be “incongruous to determine antitrust legality by measuring the settlement’s
anticompetitive effects solely against patent law policy,
rather than measuring them against procompetitive
antitrust policies as well.” Id. at 148.
The Court then held that for five reasons, the district court erred by dismissing the FTC’s complaint.
See id. at 153. First, reverse payments can be anticompetitive because they allow a brand-name company to
split its monopoly profits with a generic company willing to delay market entry. See id. at 153-56. Second,
reverse payments’ “anticompetitive consequences will
at least sometimes prove unjustified.” Id. at 156. A defendant might show that “traditional settlement considerations, such as avoided litigation costs or fair value
for services” justified the reverse payment. Id. Alternatively, antitrust review could reveal “a patentee is
using its monopoly profits to avoid the risk of patent
invalidation or a finding of noninfringement,” in which
case the payment is not justified. Id. Third and fourth,
the “size of [an] unexplained reverse payment can provide a workable surrogate for a patent’s weakness” and
a patentee’s market power, “all without forcing a court
to conduct a detailed exploration of the patent itself.”
Id. at 157-58 (citation omitted). Fifth, subjecting re-

33a
verse payments to antitrust review does not violate the
general legal policy in favor of settlements, because
companies can settle in other ways. See id. at 158. For
example, a brand-name company may “allow[] the generic manufacturer to enter the patentee’s market prior to the patent’s expiration, without the patentee paying the challenger to stay out prior to that point.” Id.
Thus, the Court concluded, “a reverse payment, where
large and unjustified,” can violate the antitrust laws.
Id. at 158-60 (emphasis added).
2.

King Drug and Lipitor

Since the Supreme Court decided Actavis, we have
applied its teachings on three occasions. See King
Drug, 791 F.3d at 393; Lipitor, 868 F.3d at 239; Wellbutrin, 868 F.3d at 158. The parties to this appeal rely
on King Drug and Lipitor.
In King Drug, we reinstated a complaint challenging a settlement agreement in which the alleged reverse payment took a form other than cash. See 791
F.3d at 393. There, direct purchasers of the brandname drug Lamictal sued its producer (GlaxoSmithKline (GSK)) and generic applicant (Teva) over
their settlement of Teva’s challenge to the validity and
enforceability of GSK’s patents on Lamictal’s active ingredient (lamotrigine). See id. Teva agreed to “end its
challenge to GSK’s patent in exchange for early entry
into the $50 million annual lamotrigine chewables market and GSK’s commitment not to produce its own, ‘authorized generic’ version of Lamictal tablets for the
market alleged to be worth $2 billion annually.” Id. at
393-94. The purchasers claimed this “no-AG agreement” was a reverse payment under Actavis because it
“was designed to induce Teva to abandon the patent
fight and thereby agree to eliminate the risk of compe-

34a
tition in the $2 billion lamotrigine tablet market.” Id. at
394.
Reversing the district court, we held the no-AG
agreement was actionable under Actavis. See id. The
district court had reasoned that “when the Supreme
Court said ‘payment’ it meant a payment of money.”
Id. at 405 (quotation marks and citation omitted). We
doubted “the Court intended to draw such a formal
line.” Id. at 405-06. We explained that even though
GSK did not pay Teva cash under the agreement, it was
“likely to present the same types of problems as reverse payments of cash.” Id. at 404. The no-AG
agreement could have been worth millions of dollars, if
not hundreds of millions of dollars, to Teva. See id.
Conversely, GSK’s commitment not to produce an authorized generic transferred to Teva “the profits [GSK]
would have made from its authorized generic.” Id. at
405. Thus, the agreement may have been “something
more than just an agreed-upon early entry”—it may
have been “pay-for-delay.” Id.
We also rejected the defendants’ counterargument
that the purchasers’ “allegations [were] far too speculative to satisfy their burden of plausibly alleging that
the settlement was anticompetitive.” Id. at 409 (quotations and citation omitted). Specifically, the defendants
argued the purchasers needed to plead that without the
reverse payment: GSK and Teva would have negotiated an alternative, more competitive agreement; continued litigation ending in settlement would have yielded
a more competitive result; and Teva would have
launched its generics. See id.
We held the purchasers stated a claim. They alleged: GSK agreed not to launch an authorized generic
during Teva’s 180-day exclusivity period; the agree-

35a
ment was worth “many millions of dollars of additional
revenue”; GSK would otherwise be incentivized to
launch an authorized generic; Teva likely would have
launched alongside GSK; and GSK’s patent was likely
to be invalidated. See id. at 409-10. “And although [the
purchasers] concede[d] that Teva entered the lamotrigine chewables market about 37 months early … the
chewables market, allegedly worth only $50 million annually, was orders of magnitude smaller than the alleged $2 billion tablet market the agreement [was] said
to have protected.” Id. at 410. Because the purchasers
had plausibly alleged that “any procompetitive aspects
of the chewables arrangement were outweighed by the
anticompetitive harm from the no-AG agreement,” they
were entitled to discovery. Id.
We also rejected the district court’s alternative
holding that “the settlement … would survive Actavis
scrutiny and [was] reasonable.” Id. at 410-11. The purchasers were entitled to discovery because they plausibly alleged the settlement was anticompetitive. See id.
at 411. And “[i]f genuine issues of material fact remain[ed] after discovery, the rule-of-reason analysis
[would be] for the finder of fact, not the court as a matter of law.” Id.
Next, in Lipitor, we addressed consolidated appeals
concerning two drugs: Lipitor and Effexor XR. See
868 F.3d at 239. In the Lipitor litigation, we reinstated
a complaint alleging a generic applicant delayed entry
into the market in exchange for the brand-name producer settling a damages claim for much less than the
claim was really worth. See id. at 253–54. There, the
plaintiffs were a putative class of direct purchasers, a
putative class of end payors, and several individual retailers. See id. at 241. They sued Lipitor’s brand-name
producer (Pfizer Inc.) and its generic applicant

36a
(Ranbaxy Inc.) over a “near-global” litigation settlement addressing “scores of patent litigations [between
Pfizer and Ranbaxy] around the world.” Id. at 244.
One part of that settlement resolved Ranbaxy’s challenge to the validity and enforceability of Pfizer’s patents on Lipitor. See id. at 242. It provided Ranbaxy
would delay its entry, “thus extending Pfizer’s exclusivity in the Lipitor market” past the expiration of its
patents. Id. at 244-45. Another part of the settlement
resolved Pfizer’s claim against Ranbaxy for allegedly
infringing Pfizer’s patents on Accupril, a different drug.
Id. at 243-44. Before settling, Pfizer had reason to believe its claim was worth hundreds of millions of dollars: Accupril’s annual sales were “over $500 million”;
Ranbaxy’s generic entry “decimated” those sales; Pfizer sought treble damages for willful infringement; and
the district court granted Pfizer a preliminary injunction and Pfizer posted a $200 million bond. Id. Pfizer
had also “expressed confidence that it would succeed in
obtaining a substantial monetary judgment from
Ranbaxy.” Id. at 244. Nevertheless, Pfizer agreed to
settle this claim for a mere $1 million. See id.
Reversing the district court, we held these two,
otherwise-unrelated parts of the global settlement
agreement were actionable under Actavis. See id. at
248, 253. The court had required the plaintiffs to plead
a “reliable” monetary estimate of the dropped Accupril
claims so it could determine whether the reverse payment was large and unjustified. See id. at 254. We rejected that requirement, explaining it “heightened [the]
pleading standard contrary to Bell Atlantic v.
Twombly, [550 U.S. 544 (2007)], and Ashcroft v. Iqbal,
[556 U.S. 662 (2009)].” Id. Moreover, we said neither
Actavis nor King Drug “demanded [that] level of detail.” Id. at 254.

37a
In fact, the plaintiffs’ allegations “easily match[ed],
if not exceed[ed], the level of specificity and detail of
those in Actavis and King Drug.” Id. at 253, 255. As
relevant here, the plaintiffs alleged:
Ranbaxy launched a generic version of Pfizer’s
brand drug Accupril “at risk” [of infringement]
… ; Pfizer had annual Accupril sales over $500
million prior to Ranbaxy’s launch … ; Pfizer
brought suit and sought to enjoin Ranbaxy’s
generic sales … ; the District Court granted
the injunction halting Ranbaxy’s sales of generic Accupril, which the Federal Circuit affirmed
… ; Pfizer posted ‘a $200 million bond in conjunction with’ the injunction and informed the
Court that Ranbaxy’s generic sales ‘decimated’
its Accupril sales … ; Pfizer’s suit was likely to
be successful … ; and Pfizer itself made statements about Ranbaxy’s exposure ….
Id. at 253. The plaintiffs also alleged the release of the
Accupril claims was unjustified because the “potential
liability in Accupril ‘far exceeded’ any of Pfizer’s saved
litigation costs or any services provided by Ranbaxy.”
Id. Thus, we held the plaintiffs “sufficiently allege[d]
that Pfizer agreed to release the Accupril claims
against Ranbaxy, which were likely to succeed and
worth hundreds of millions of dollars, in exchange for
Ranbaxy’s delay in the release of its generic version of
Lipitor.” Id.
The defendants countered that the plaintiffs did not
address other parts of the global litigation settlement
that might well have justified the alleged reverse payment. But because the defendants had the burden of
justifying a reverse payment, Actavis did not “require
antitrust plaintiffs to come up with possible explana-

38a
tions for the reverse payment and then rebut those explanations.” Id. at 256. The defendants also countered
that because Ranbaxy paid Pfizer $1 million, it was a
commonplace settlement to which Actavis does not apply. Id. at 257. We said this argument “[could not] be
squared with Actavis” because “[i]f parties could shield
their settlements from antitrust review by simply including a token payment by the purportedly infringing
generic manufacturer, then otherwise unlawful reverse
payment settlement agreements attempting to eliminate the risk of competition would escape review.” Id.
at 258.
Similarly, in the Effexor XR litigation, we reinstated a complaint alleging a generic applicant delayed entry into the Effexor market in exchange for the brandname producer’s agreement not to market an authorized generic—even though the generic agreed to pay
some royalties to the brand. See id. at 254, 247. There,
the plaintiffs were a putative class of end payors, two
third-party payors, and several retailers. See id. at 246.
They sued Effexor’s generic applicant (Teva) and
brand-name producer (Wyeth, Inc.) over their settlement of Teva’s challenge to the validity and enforceability of Wyeth’s patents on Effexor. See id. at 247.
Under the settlement, Teva and Wyeth agreed to vacate a district court ruling construing the patent claims
unfavorably to Wyeth. See id. They further agreed
that Teva could market the extended-release version of
its generic nearly seven years before Wyeth’s patent
expired, and its instant-release version at some point
before the patent expired. See id. In exchange, Wyeth
agreed it would not market authorized generics during
Teva’s 180-day exclusivity period. See id. In return,
Teva agreed to pay Wyeth royalties. See id.

39a
Reversing the district court, we held the no-AG
agreement was actionable under Actavis. Given the
similarities between King Drug and the Effexor litigation, we will not repeat the Effexor plaintiffs’ allegations here. See id. at 258-59. We mention the Effexor
litigation only to highlight two counterarguments the
defendants made. First, the defendants argued “the
reverse payment was not large because the complaints
failed to sufficiently allege that Wyeth would have released an authorized generic but for its settlement
agreement with Teva.” Id. They explained that “Wyeth has rarely introduced authorized generics in response to the entry of a generic into one of their branded drugs’ markets.” Id. at 260. We rejected this argument because the mere fact that “Wyeth does not typically introduce authorized generics into the market” did
not “render[] [the plaintiffs’] allegations about the value
of the no-AG agreement implausible.” Id. at 260-61.
Second, the defendants argued the royalties Teva
agreed to pay Wyeth justified the reverse payment.
See id. We responded that “[a]lthough the royalty licensing provisions will perhaps be a valid defense, they
require factual assessments, economic calculations, and
expert analysis that are inappropriate at the pleading
stage.” Id. at 261. In sum, we said, “Effexor plaintiffs
need not have valued the no-AG agreement beyond
their allegations summarized above … Nor were they
required to counter potential defenses at the pleading
stage.” Id. at 262 (citation omitted).
3.

Application

Two principles emerge from King Drug and Lipitor. First, a reverse payment’s legality depends mainly
on its economic substance, not its form. The alleged reverse payment in Actavis was made in cash. Yet the
alleged reverse payments in King Drug and Lipitor in-

40a
cluded two no-AG agreements and the settlement of a
valuable damages claim. The reverse payment in Actavis was part of a single settlement agreement addressing one drug (AndroGel). Yet the reverse payment in the Lipitor litigation spanned two parts of a
“near-global” litigation settlement addressing two different drugs (Lipitor and Accupril); and in King Drug,
the challenged settlement addressed a drug in two different forms (chewable and tablet). Finally, the settlement in Actavis did not provide for cash to flow from
the generic entrant to the brand-name producer. Yet
the settlements in Lipitor provided for Ranbaxy to pay
Pfizer $1 million and for Teva to pay Wyeth royalties.
However meaningful these formalisms may be in
other areas of the law, they are disfavored in antitrust.
The purpose of antitrust law is “to protect consumers
from arrangements that prevent competition in the
marketplace.” King Drug, 791 F.3d at 406 (citations
omitted). Because of that unique purpose, “economic
realities rather than a formalistic approach must govern.” United States v. Dentsply, Inc., 399 F.3d 181, 189
(3d Cir. 2005). Accordingly, in King Drug and Lipitor,
we read Actavis practically; we read it to apply to potentially anticompetitive reverse payments regardless
of their form.
The second principle emerging from King Drug and
Lipitor is that the law of pleading applies to reversepayment theories. To survive a motion to dismiss, a
plaintiff must “allege facts sufficient to support the legal conclusion that the settlement at issue involves a
large and unjustified reverse payment under Actavis.”
Lipitor, 868 F.3d at 252 (citation omitted). A plaintiff
can meet this pleading standard without describing in
perfect detail the world without the reverse payment,
calculating reliably the payment’s exact size, or pre-

41a
empting every possible explanation for it. Moreover, a
district court must accept a plaintiff’s well-pleaded allegations as true. If a plaintiff plausibly alleges that an
agreement’s anticompetitive effects outweigh its procompetitive virtues, the district court must accept that
allegation and allow the plaintiff to take discovery. If
genuine issues of material fact remain, the rule-ofreason analysis is for the factfinder, not the court.
Applying these precedents here, the District Court
erred by dismissing the FTC’s claims to the extent they
relied on a reverse payment theory. The FTC plausibly
alleged an anticompetitive reverse payment. It alleged
AbbVie and Besins filed sham lawsuits against Teva
and Perrigo in order to trigger the automatic, 30-month
stay of FDA approval on its generic version of AndroGel. App. 4440 ¶ 99. But those suits “did not eliminate
the threat of Teva’s … products to [AbbVie] and Besins’s monopoly,” because AbbVie and Teva both expected Teva would win the infringement suit against it
and would introduce its generic in 2012—before 30
months had passed. App. 4441 ¶¶ 107-09. So “[AbbVie]
and Besins … turned to other ways to preserve their
monopoly.” App. 4442 ¶ 111. Specifically, AbbVie “approached Teva to discuss a potential settlement” that
would give “[AbbVie] time to shift sales to its reformulated product, AndroGel 1.62%.” Id. ¶ 112. Teva
agreed to “drop its patent challenge and refrain from
competing with [AndroGel] until December 2014.”
App. 4443 ¶ 115. In exchange, it asked AbbVie to sell it
a “supply of … TriCor.” Id. ¶ 113. AbbVie agreed. It
authorized Teva to sell a generic version of TriCor,
which AbbVie would supply to Teva at Teva’s option,
for a four-year term beginning in November 2012. Id.
¶ 117. The supply agreement provided for Teva to pay

42a
AbbVie the costs of production, an additional percentage of that cost, and a royalty. See id.
The payment was plausibly “large.” The FTC alleges the supply of TriCor was “extremely valuable” to
Teva. App. 4444 ¶ 120. A previous settlement between
AbbVie and Teva had set Teva’s entry in the TriCor
market for July 2012. App. 4442 ¶ 114. And because
Teva was the first generic challenger to TriCor, Teva
was entitled to 180 days of marketing exclusivity. See
id. Teva was struggling to capitalize on the exclusivity
period, though, because it could not secure FDA approval for its generic drug. See id. The TriCor deal enabled Teva “to secure generic TriCor revenues in 2012
and its first mover advantage.” App. 4444–45 ¶¶ 121,
124. Teva expected its “net sales of authorized generic
TriCor sales would be nearly $175 million over a fouryear period.” App. 4444 ¶ 120. In fact, Teva’s actual
sales were much higher. Id. They “far exceed[ed]” the
litigation costs that AbbVie, Besins, or Teva saved by
settling. App. 4445 ¶ 122. And they exceeded what
Teva had projected it was likely to earn by winning the
infringement suit and marketing its generic version of
AndroGel. Id. ¶ 123.
The payment was also plausibly “unjustified.” The
FTC alleges the TriCor deal “cannot be explained as an
independent business deal from Abbott’s perspective.”
App. 4445 ¶ 125. AbbVie “had no incentive to increase
… generic competition from Teva on another of its
blockbuster products.” App. 4443 ¶ 115. And the TriCor deal was “highly unusual” in other respects. App.
4445 ¶ 126. For example, it did not condition Teva’s
launch on the launch of an independent generic. App.
4445-46 ¶ 126. It actually accelerated generic entry, because “Teva’s launch triggered provisions in [AbbVie’s]
agreements with other generic TriCor ANDA filers al-

43a
lowing them to launch their own generic[ versions].”
App. 4446-47 ¶ 129. Moreover, the royalty terms were
“significantly worse for [AbbVie]” than is usual in authorized-generic agreements, including contemporaneous agreements that AbbVie entered. App. 4447 ¶ 130.
AbbVie expected to lose roughly $100 million in TriCor
revenues as a result of the deal, and its “modest income
from the … deal did not come close to making up this
significant loss of revenue.” Id. ¶ 132.
Finally, it is plausible that the anticompetitive effects of AbbVie’s settlement with Teva outweighed any
procompetitive virtues of the TriCor deal. The FTC
alleges AbbVie calculated that it would sacrifice $100
million in TriCor sales, but that was a small fraction of
the billions of dollars in AndroGel revenue it protected
by deferring competition in the TTRT market for three
years. See id.; cf. King Drug, 791 F.3d at 410 (purchasers were entitled to discovery because they plausibly
alleged that “any procompetitive aspects of the chewables arrangement were outweighed by the anticompetitive harm from the no-AG agreement”).
These allegations, if true, would “support the legal
conclusion that the settlement at issue involves a large
and unjustified reverse payment.” Lipitor, 868 F.3d at
252. So the District Court erred by dismissing the
FTC’s claims to the extent they relied on a reversepayment theory.
The District Court ruled that “when two agreements are involved … the court must determine separately whether each promotes competition.” AbbVie,
107 F. Supp. 3d at 437 (citing Pac. Bell Tel. Co. v.
Linkline Commc’ns, Inc., 555 U.S. 438 (2009)). The
Court then reasoned AbbVie’s settlement with Teva
promoted competition and was distinguishable from the

44a
settlement in Actavis. In Actavis, the patentee paid
the alleged infringer. But here, the Court said, AbbVie
and Besins “did not make any payment, reverse or otherwise, to … Teva.” Id. at 436. Instead, they “simply
allow[ed] Teva to enter the AndroGel market almost
six years prior to the expiration of the ’894 patent.” Id.
It further stated that because “Actavis specifically
states that such an agreement does not run afoul of the
antitrust laws,” the settlement was procompetitive and
unactionable. Id. (citation omitted).
The District Court next reasoned the TriCor deal
promoted competition because “[i]t allow[ed] Teva to
enter the cholesterol drug market with a generic product to compete with Abbott’s product and thus advantage[d] the purchasers of cholesterol drugs.” Id.
The Court stressed that while “something of large value passed from [AbbVie] to Teva, it was not a reverse
payment under Actavis” because AbbVie was “not
making any payments to Teva.” Id. Rather, Teva was
“paying [AbbVie] for the supply of TriCor.” Id. And
even though the FTC alleged AbbVie was “charging a
price that is well below what is customary in such situations,” it did not allege AbbVie “agreed to sell TriCor
… for less than its cost.” Id. Thus, the Court held the
deal was procompetitive. Id.
The District Court’s reasoning is unpersuasive.
The Court cited Linkline for the proposition that if a
settlement involves two agreements, a court must determine separately whether each promotes competition. But Linkline held “two antitrust theories cannot
be combined to form a new theory of antitrust liability.” ZF Meritor, LLC v. Eaton Corp., 696 F.3d 254,
280 (3d Cir. 2012) (emphasis added) (citing Linkline,
555 U.S. at 457). The FTC’s complaint does not allege
such a combination, so Linkline does not apply.

45a
Nor do our precedents support the rule that “when
two agreements are involved … [a] court must determine separately whether each promotes competition.”
AbbVie, 107 F. Supp. 3d at 437 (citation omitted). That
rule violates two principles from our precedents. It elevates form over substance because companies could
avoid liability for anticompetitive reverse payments
simply by structuring them as two separate agreements—one in which the generic company agrees to
delay entry until patent expiration, and the other in
which the brand-name company agrees to split monopoly profits. In effect, Actavis would become a penalty
for bad corporate lawyering instead of anticompetitive
conduct. The rule also contradicts pleading law. Here,
the FTC plausibly alleged that AbbVie’s settlement
with Teva and the TriCor deal were linked. The Court
had to accept that allegation as true. See Phillips, 515
F.3d at 230-31.
We are also unpersuaded by the District Court’s
economic analyses of the TriCor deal and AbbVie’s settlement with Teva. As to the TriCor deal, the Court
acknowledged that “something of large value passed
from [AbbVie] to Teva.” AbbVie, 107 F. Supp. 3d at
436. Yet it said that transfer could not be a reverse
payment under Actavis because AbbVie was not “making any payments to Teva.” Id. This reasoning cannot
be reconciled with King Drug, where we held a plaintiff
may base a reverse-payment theory on any “unexplained large transfer of value from the patent holder
to the alleged infringer.” King Drug, 791 F.3d at 403
(emphasis added).
Moreover, the Court emphasized that Teva paid
AbbVie for the supply of TriCor. But in Lipitor, we
held that parties cannot “shield their settlements from
antitrust review by simply including a token payment

46a
by the purportedly infringing generic manufacturer.”
868 F.3d at 258. Although Teva’s payments “will perhaps be a valid defense, they require factual assessments, economic calculations, and expert analysis that
are inappropriate at the pleading stage.” Id. at 261.
Finally, the Court intimated the result might be different if the FTC had alleged AbbVie agreed to sell TriCor below-cost. But the FTC did not have to allege the
TriCor deal would appear as a loss on AbbVie’s balance
sheets; it needed only to allege that through the deal,
AbbVie unjustifiably transferred to Teva an opportunity, and the profits associated with the opportunity were
large. See King Drug, 791 F.3d at 405 (GSK’s commitment not to produce an authorized generic transferred
to Teva “the profits [GSK] would have made from its
authorized generic”) (emphasis added). So without expressing an opinion whether the District Court correctly concluded the TriCor deal was procompetitive, we
think it analyzed incorrectly the deal’s economic substance.
As to AbbVie’s settlement with Teva, the District
Court erred in concluding it was procompetitive as a
matter of law. Granted, the District Court was right
that under Actavis, “an agreement does not run afoul of
the antitrust laws” if it simply allows a generic company to enter a market before patent expiration. AbbVie,
107 F. Supp. 3d at 436 (citing Actavis, 570 U.S. at 158
(“[Parties] may, as in other industries, settle in other
ways, for example, by allowing the generic manufacturer to enter the patentee’s market prior to the patent’s
expiration, without the patentee paying the challenger
to stay out prior to that point.”) (emphasis added)).
And it was reasonable for the Court to think this exception reflects the Supreme Court’s view that such
agreements are so often procompetitive they should be

47a
legal per se. Still, the exception applies only if a patentee does not “pay[] the challenger to stay out [before
patent expiration],” and the District Court erred in
concluding this condition was met here. Actavis, 570
U.S. at 158. The Court said AbbVie “did not make any
payment, reverse or otherwise, to … Teva.” AbbVie,
107 F. Supp. 3d at 436. But that finding rested on the
Court’s erroneous ruling that it had to analyze the settlement separately from the TriCor deal, which even
the Court acknowledged involved a transfer of value
from AbbVie to Teva. Because the FTC plausibly alleged the TriCor deal was a reverse payment, the settlement may have been “something more than just an
agreed-upon early entry”—it may have been “pay-fordelay.” King Drug, 791 F.3d at 405. And pay-for-delay
is anticompetitive even if the delay does not continue
past patent expiration. It was this same anticompetitive potential that led the Supreme Court to reject the
scope of the patent test in Actavis. See 570 U.S. at 14748.
For these reasons, the District Court erred by dismissing the FTC’s claims to the extent they relied on a
reverse-payment theory.
B. The District Court erred in concluding AbbVie
and Besins’s litigation against Teva was a
sham; it did not err in concluding the Perrigo
litigation was a sham.
1.

Noerr-Pennington immunity

Under the Noerr-Pennington doctrine, “[t]hose
who petition [the] government for redress are generally immune from antitrust liability.” PRE, 508 U.S. at
56. That includes the right to sue in federal court. Cal.
Motor Transp. Co. v. Trucking Unlimited, 404 U.S.
508, 510, 515 (1972) (holding “the right to petition ex-

48a
tends to all departments of the Government,” including
the courts).
Noerr-Pennington immunity is not absolute. Wellbutrin, 868 F.3d at 148. An exception arises if a lawsuit
is “a mere sham to cover what is actually nothing more
than an attempt to interfere directly with the business
relationships of a competitor.” E. R.R. Presidents Conference v. Noerr Motor Freight, Inc., 365 U.S. 127, 144
(1961). In PRE, the Supreme Court held this exception
has two prongs:
First, the lawsuit must be objectively baseless
in the sense that no reasonable litigant could
realistically expect success on the merits. If an
objective litigant could conclude that the suit is
reasonably calculated to elicit a favorable outcome, the suit is immunized under Noerr, and
an antitrust claim premised on the sham exception must fail. Only if challenged litigation is
objectively meritless may a court examine the
litigant’s subjective motivation. Under this
second part of our definition of sham, the court
should focus on whether the baseless lawsuit
conceals an attempt to interfere directly with
the business relationships of a competitor
through the use of the governmental process—
as opposed to the outcome of that process—as
an anticompetitive weapon. This two-tiered
process requires the plaintiff to disprove the
challenged lawsuit’s legal viability before the
court will entertain evidence of the suit’s economic viability.
508 U.S. at 60-61 (internal quotation marks, citations,
alteration, and footnote omitted). Under the objective
baselessness prong, a “probable cause determination

49a
irrefutably demonstrates” a defendant’s immunity. Id.
at 63. Probable cause is a “reasonable belief that there
is a chance that a claim may be held valid upon adjudication.” Id. at 62-63 (internal quotation marks, citations, and alterations omitted); see also id. at 65 (defendant was immune because “[a]ny reasonable [litigant] in [its] position could have believed that it had
some chance of winning”). In determining reasonableness, a court should consider the state of the law at the
time of a defendant’s suit. See id. at 65; see also Wellbutrin, 868 F.3d at 150. Generally, the more “unsettled” the law is, the more reasonable is a belief that a
claim will be held valid. PRE, 508 U.S. at 64-65 (probable cause supports a claim if it is “arguably ‘warranted
by existing law’ ” ) (quoting FED. R. CIV. P. 11). Even if
the law was settled against the defendant, however,
that is not dispositive. Then, a court should ask whether the defendant’s claim “at the very least was based on
an objectively ‘good faith argument for the extension,
modification, or reversal of existing law.’ ” Id. at 65
(quoting FED. R. CIV. P. 11).
Under the subjective motivation prong, a plaintiff
must show the defendant “brought baseless claims in
an attempt to thwart competition (i.e., in bad faith).”
Octane Fitness, LLC v. ICON Health & Fitness, Inc.,
572 U.S. 545, 556 (2014). Some factors relating to a defendant’s “economic motivations” in bringing suit include whether the defendant was “indifferent to the
outcome on the merits of the … suit, whether any damages for infringement would be too low to justify … investment in the suit, or whether [the defendant] had
decided to sue primarily for the benefit of collateral injuries inflicted through the use of legal process.” PRE,
508 U.S. at 65-66 (citation omitted).

50a
Generally, a plaintiff seeking to show the sham litigation exception faces “an uphill battle.” Wellbutrin,
868 F.3d at 147. And in some respects, the hill is steeper “in the context of an ANDA case.” Id. at 149. “Since
the submission of an ANDA is, by statutory definition,
an infringing act, an infringement suit filed in response
to an ANDA with a paragraph IV certification could
only be objectively baseless if no reasonable person
could disagree with the assertions of noninfringement
or invalidity in the certification.” Id. (citation omitted).
Moreover, the number of lawsuits a brand-name drug
manufacturer files will sometimes reveal little about its
subjective motivation for suing, because the HatchWaxman Act “incentivizes [brands] to promptly file patent infringement suits by rewarding them with a stay
of up to 30 months if they do so.” Id. at 157–58 (citing
21 U.S.C. § 355(j)(5)(B)(iii)). For that reason, we have
declined to apply a related exception to NoerrPennington immunity—serial petitioning—in the
Hatch-Waxman context. Id. (citing Hanover 3201 Realty, LLC v. Village Supermarkets, Inc., 806 F.3d 162
(3d Cir. 2015)).
Yet in other respects, the ANDA context may help
a plaintiff. The automatic, 30-month stay is a collateral
injury the defendant’s mere use of legal process invariably inflicts. And though the stay ends if a court holds
the defendant’s patent is invalid or has not been infringed, it does not otherwise depend on a suit’s outcome. Thus, a plaintiff may be able to show a defendant
was indifferent to the outcome of its infringement suit,
and the automatic, 30-month stay was an anticompetitive weapon the defendant tried to wield.
In sum, applying the sham-litigation standard is a
delicate task. The defendant’s First Amendment right
“to petition the Government for a redress of grievanc-

51a
es” is at stake. U.S. Const. amend. I. So too is congressional policy, as expressed in both the Hatch-Waxman
Act and the antitrust laws. We must not “penalize a
brand-name manufacturer whose ‘litigiousness was a
product of Hatch-Waxman.’ ” Wellbutrin, 868 F.3d. at
158 (citing Kaiser Found. Health Plan, Inc. v. Abbott
Labs, Inc., 552 F.3d 1033, 1047 (9th Cir. 2009)). “Doing
so would punish behavior that Congress sought to encourage.” Id. (citation omitted). At the same time, we
must not immunize a brand-name manufacturer who
uses the Hatch-Waxman Act’s automatic, 30-month
stay to thwart competition. Doing so would excuse behavior that Congress proscribed in the antitrust laws.
2.

Objective Baselessness

The District Court granted the FTC summary
judgment on sham litigation’s objective baselessness
prong. We review that judgment de novo. See Morgan
v. Covington Twp., 648 F.3d 172, 177 (3d Cir. 2011).
a.

Patent law’s doctrine of equivalents, prosecution history estoppel, and tangentiality

Under the doctrine of equivalents, “[t]he scope of a
patent is not limited to its literal terms but instead embraces all equivalents to the claims described.” Festo
VIII, 535 U.S. at 732. There are at least two reasons
for this doctrine. First, because “the nature of language makes it impossible to capture the essence of a
thing in a patent application,” it is unrealistic to expect
a patentee to “capture every nuance of [his or her] invention or describe with complete precision the range
of its novelty.” Id. at 731. Second, “[i]f patents were
always interpreted by their literal terms,” rival inventors might “defeat the patent” simply by making “unimportant and insubstantial” changes. Id. This would

52a
diminish the scientific and artistic progress that the patent system seeks to foster. See id.
Although the doctrine of equivalents counters the
threat that literal interpretation of patents poses to
scientific and artistic progress, it creates another problem. One function of patents is to notify would-be inventors about the scope of the patentee’s property
right. See id. (“A patent holder should know what he
owns, and the public should know what he does not.”).
Notice allows inventors to innovate without fear that
the patentee will sue them for infringement. See id. at
732. But because the doctrine of equivalents untethers
a patentee’s property right from a patent’s literal
terms, it tends to undermine notice. See id. So the doctrine risks dampening inventors’ innovative spirit.
Thus, patent law must balance “the needs of patentees for adequate protection of their inventions” on
the one hand, and “the needs of would-be competitors
for adequate notice of the scope of that protection” on
the other. Festo Corp. v. Shoketsu Kinzoku Kogyo Kabushiki Co. (“Festo IX”), 344 F.3d 1359, 1385 (Fed. Cir.
2003) (Newman, J., concurring in part, dissenting in
part).
Recognizing the need for balance, the Supreme
Court has limited the doctrine of equivalents. One limitation—known as prosecution history estoppel—applies
when “the patentee originally claimed the subject matter alleged to infringe but then narrowed the claim in
response to a rejection.” Festo VIII, 535 U.S. at 733.
The patentee “may not argue that the surrendered territory comprised unforeseen subject matter that should
be deemed equivalent to the literal claims of the issued
patent.” Id. at 733-34.

53a
Prosecution history estoppel “ensures that the doctrine of equivalents remains tied to its underlying purpose.” Id. at 734. “The doctrine of equivalents is premised on language’s inability to capture the essence of
innovation.” Id. But that premise is unsound if a patent’s prosecution history shows that the patentee
“turned his attention to the subject matter in question,
knew the words for both the broader and narrower
claim, and affirmatively chose the latter.” Id. at 734-35.
In that case, the patentee’s competitors could reasonably infer the patentee’s property right extended only so
far as the narrower claim.
Courts use a three-part test to determine whether
prosecution history estoppel applies:
1.

The first question in a prosecution history estoppel
inquiry is whether an amendment filed in the Patent and Trademark Office (PTO) has narrowed the
literal scope of a claim. … If the amendment was
not narrowing, then prosecution history estoppel
does not apply.

2.

If the accused infringer establishes that the
amendment was a narrowing one, then the second
question is whether the reason for that amendment
was a substantial one relating to patentability. …
When the prosecution history record reveals no
reason for the narrowing amendment, [the Supreme Court’s decision in] Warner-Jenkinson [Co.
v. Hilton Davis Chem. Co., 520 U.S. 17 (1997)] presumes that the patentee had a substantial reason
relating to patentability; consequently, the patentee must show that the reason for the amendment
was not one relating to patentability if it is to rebut
that presumption. … In this regard, … a patentee’s rebuttal of the Warner-Jenkinson presumption

54a
is restricted to the evidence in the prosecution history record. … If the patentee successfully establishes that the amendment was not for a reason of
patentability, then prosecution history estoppel
does not apply.
3.

If, however, the court determines that a narrowing
amendment has been made for a substantial reason
relating to patentability … then the third question
in a prosecution history estoppel analysis addresses
the scope of the subject matter surrendered by the
narrowing amendment. … At that point Festo VIII
imposes the presumption that the patentee has
surrendered all territory between the original
claim limitation and the amended claim limitation.
… The patentee may rebut that presumption of total surrender by demonstrating that it did not surrender the particular equivalent in question … Finally, if the patentee fails to rebut the Festo presumption, then prosecution history estoppel bars
the patentee from relying on the doctrine of equivalents for the accused element. If the patentee successfully rebuts the presumption, then prosecution
history estoppel does not apply and the question
whether the accused element is in fact equivalent
to the limitation at issue is reached on the merits.

Festo IX, 344 F.3d at 1366-67 (internal citations omitted) (emphasis added). To rebut the presumption of
total surrender, a patentee “must show that at the time
of the amendment one skilled in the art could not reasonably be expected to have drafted a claim that would
have literally encompassed the alleged equivalent.”
Festo VIII, 535 U.S. at 741.
One way a patentee can meet this high standard is
by showing “the rationale underlying the narrowing

55a
amendment [bore] no more than a tangential relation to
the equivalent in question.” Festo IX, 344 F.3d at 1369
(internal citation omitted). This is the tangentiality exception to prosecution history estoppel. In determining
whether an amendment was tangential to an equivalent, a court does not consider the patentee’s subjective
motivation for narrowing his claims. That approach
would overlook “the public notice function of a patent
and its prosecution history.” Id. (citations omitted).
Instead, the court considers the “objectively apparent”
motivation as suggested by the prosecution history. Id.
Although the tangentiality exception generally cannot
be reduced to hard-and-fast rules, see id. at 1368, one
rule is clear: “an amendment made to avoid prior art
that contains the equivalent in question is not tangential,” id. at 1369 (citation omitted).
Like prosecution history estoppel, the tangentiality
exception balances the needs of patentees and would-be
competitors. It also ensures the doctrine of equivalents
remains tied to its underlying purpose. If the rationale
for an amendment is tangential to the alleged equivalent, “one skilled in the art could not reasonably be expected to have drafted a claim that would have literally
encompassed the alleged equivalent.” Festo VIII, 535
U.S. at 741. Thus, a patentee’s competitors could not
infer the patentee “turned his attention to the subject
matter in question, knew the words for both the broader and narrower claim, and affirmatively chose the latter.” Id. at 734-35. By the same token, however, the
tangentiality exception does not apply if the rationale
for an amendment is to avoid prior art that contains the
alleged equivalent. Then the prior art itself teaches the
patentee how to draft a claim that literally encompasses the equivalent. And because the patentee
turned his attention to the prior art in order to avoid it,

56a
the patentee’s competitors could infer the patentee affirmatively chose the narrower claim.
b. The District Court erred in concluding
AbbVie and Besins’s suit against Teva was
objectively baseless.
Teva’s paragraph IV notice asserted that because
its gel used the penetration enhancer isopropyl palmitate instead of isopropyl myristate, the gel did not literally infringe the ’894 patent. It also argued the ’894
patent’s prosecution history estopped AbbVie and Besins from claiming infringement on the ground that isopropyl palmitate is equivalent to isopropyl myristate.
On appeal, AbbVie and Besins concede the October
2001 amendment—which narrowed the patent application’s claim 1 from all penetration enhancers to a list of
24 not including isopropyl palmitate—was narrowing
and was made for a substantial reason related to patentability. See Festo IX, 344 F.3d at 1366 (citation
omitted). Thus, we presume AbbVie and Besins “surrendered all territory between the original claim limitation and the amended claim limitation,” which includes
isopropyl palmitate. Id. at 1367 (citing Festo VIII, 535
U.S. at 740). To rebut this presumption, AbbVie and
Besins would have had to show that “at the time of the
[October 2001] amendment one skilled in the art could
not reasonably be expected to have drafted a claim that
would have literally encompassed [isopropyl palmitate].” Festo VIII, 535 U.S. at 741. AbbVie and Besins
argue they could make this showing. They contend the
reason for the October 2001 amendment was to overcome Mak’s use of oleic acid—not Allen’s disclosure of
isopropyl palmitate or other penetration enhancers. So,
they claim, the rationale for the amendment was tan-

57a
gential to isopropyl palmitate. See Festo IX, 344 F.3d
at 1369 (internal citation omitted).
The FTC has not shown that no reasonable litigant
in AbbVie and Besins’s position would believe it had a
chance of winning. See PRE, 508 U.S. at 65. AbbVie
and Besins’s argument has support in the prosecution
history record. Allen disclosed isopropyl myristate—
the penetration enhancer used in AndroGel—and yet
the October 2001 amendment retained isopropyl
myristate. Moreover, AbbVie and Besins gave three
reasons why the prior art did not suggest combining
Mak and Allen. Every one of those reasons distinguished the claimed penetration enhancers from oleic
acid, the penetration enhancer Mak used. Finally, expert testimony could have supported AbbVie and Besins’s interpretation of the prosecution history. See
Festo IX, 344 F.3d at 1369-70. The District Court
heard testimony from Dr. Jonathan Hadgraft, Emeritus Professor of Biophysical Chemistry at University
College London School of Pharmacy. He testified the
“chemical and functional differences identified by the
patent applicants in their rationale for distinguishing
the penetration enhancers listed in the claims in the
[October 2001] amendment … from oleic acid would apply equally to isopropyl palmitate.” App. 4511. For
these reasons, AbbVie and Besins could reasonably
have argued that at the time of the October 2001
amendment, one skilled in the art could not reasonably
be expected to have drafted a claim that would have
literally encompassed isopropyl palmitate. See Festo
VIII, 535 U.S. at 741. In that case, prosecution history
estoppel would not apply. See id.
The FTC presents three main counterarguments.

58a
First, the District Court concluded the rationale for
the October 2001 amendment was not tangential to isopropyl palmitate because “[i]f AbbVie and Besins merely sought to relinquish oleic acid and no other penetration enhancer in October 2001, they easily could have
said so.” AbbVie, 2017 WL 4098688, at *8. Relatedly,
the FTC argues that because AbbVie’s “oleic acid rationale does not explain the entire [October 2001]
amendment,” the rationale for the amendment was not
tangential to isopropyl palmitate as a matter of law.
FTC Resp. Br. 39-40 (citing Felix v. Am. Honda Motor
Co., 562 F.3d 1167, 1184 (Fed. Cir. 2009) and Amgen
Inc. v. Hoechst Marion Roussel, Inc., 457 F.3d 1293,
1315 (Fed. Cir. 2006)). But negative claim limitations of
the sort the Court mentioned are usually impermissible. See In re Schechter, 205 F.2d 185, 188 (C.C.P.A.
1953). Put differently, AbbVie and Besins probably
could not have claimed all penetration enhancers “except oleic acid.” And the law is not as well-settled as
the FTC suggests. Granted, in the cases the FTC cites,
the Federal Circuit held the tangentiality exception did
not apply in part because the patentee’s rationale failed
to explain the entire amendment. But because the
Federal Circuit has refused to reduce the tangentiality
exception to hard-and-fast rules, see Festo IX, 344 F.3d
at 1368, a reasonable litigant in AbbVie and Besins’s
position would not necessarily see those decisions as
foreclosing its claim.
More persuasive is the District Court’s reasoning
that the October 2001 amendment sought to overcome
the Allen prior art, which “listed isopropyl palmitate as
one of five penetration enhancers.” AbbVie, 2017 WL
4098688, at *8. The FTC also argues Allen’s disclosure
of isopropyl palmitate “precludes a tangentiality finding,” because “an amendment made to avoid prior art

59a
that contains the equivalent in question is not tangential.” FTC Resp. Br. 38 (quoting Festo IX, 344 F.3d at
1369 (Pioneer Magnetics, Inc. v. Micro Linear Corp.,
330 F.3d 1352, 1357 (Fed. Cir. 2003))). This argument is
more persuasive because the rule the FTC cites is a
well-settled exception to the Federal Circuit’s case-bycase approach to the tangentiality exception. See id.
But the argument is not so strong as to make the suits
objectively unreasonable. AbbVie and Besins could
reasonably have argued the rule did not apply or should
be modified, because even though Allen disclosed isopropyl palmitate, AbbVie and Besins made the October
2001 amendment “to avoid” Mak’s use of oleic acid, not
Allen’s disclosure of isopropyl palmitate or other penetration enhancers. PRE, 508 U.S. at 65 (quoting FED.
R. CIV. P. 11). Thus, a reasonable litigant in AbbVie
and Besins’s position would not necessarily see this rule
as foreclosing its claim.
Finally, the District Court reasoned that the “entire prosecution history”—not just the October 2001
amendment—is relevant to determine whether estoppel applies. AbbVie, 2017 WL 4098688, at *6 (citing
Wang Labs, Inc. v. Toshiba Corp., 993 F.2d 858, 867
(Fed. Cir. 1993) and Tex. Instruments, Inc. v. U.S. Int’l
Trade Comm’n, 988 F.2d 1165, 1174 (Fed. Cir. 1993)).
Likewise, the FTC argues that “[e]ven if the October
2001 amendment had not excluded isopropyl palmitate,
the later amendments would have.” FTC Resp. Br. 41.
And those amendments “plainly could not have been
intended to distinguish oleic acid, which (as AbbVie
concedes) had already been excluded by the October
2001 amendment.” FTC Resp. Br. 42. Again, the law is
not as well-settled as the FTC would have us believe.
AbbVie and Besins could reasonably have argued only
the October 2001 amendment was relevant under exist-

60a
ing law. See Festo IX, 344 F.3d at 1369 (tangentiality
“focuses on the patentee’s objectively apparent reason
for the narrowing amendment”) (emphasis added); see
also Felix, 562 F.3d at 1182-83; PRE, 508 U.S. at 64-65
(probable cause supports a claim if it is “arguably ‘warranted by existing law’ ” ) (quoting FED. R. CIV. P. 11).
Thus, the District Court erred in concluding
AbbVie and Besins’s suit against Teva was objectively
baseless. Accordingly, we will not consider the subjective motivation prong as to Teva. See PRE, 508 U.S. at
60-61.
c.

The District Court did not err in concluding
AbbVie and Besins’s suit against Perrigo
was objectively baseless.

Perrigo’s first paragraph IV notice asserted that
because its gel used the penetration enhancer isostearic
acid instead of isopropyl myristate, the gel did not literally infringe the ’894 patent. It also explained that
the ’894 patent’s prosecution history estopped AbbVie
and Besins from claiming infringement on the ground
that isostearic acid is equivalent to isopropyl myristate.
AbbVie and Besins concede the December 2001
amendment narrowed the patent application’s claims
from 24 penetration enhancers including isostearic acid
to isopropyl myristate. But they argue it was not for a
substantial reason relating to patentability and, if it
was, the rationale for the amendment was tangential to
isostearic acid.
No reasonable litigant in AbbVie and Besins’s position would believe it had a chance of winning on these
arguments. First, AbbVie and Besins argue the December 2001 amendment was not for a substantial reason relating to patentability, both because “the claims

61a
pending at the time of the December 2001 amendment
… were never rejected or threatened with rejection,”
and because they “amended the claims in December
2001 to expedite the timing of patent protection.”
AbbVie Br. 47-48. This argument is untenable. “[A]
voluntary amendment may give rise to prosecution history estoppel.” Festo IX, 344 F.3d at 1366 (internal
quotations and citation omitted). And expediting prosecution is not a legitimate basis on which to avoid prosecution history estoppel. See Biogen, Inc. v. Berlex
Labs., Inc., 318 F.3d 1132, 1142 (Fed. Cir. 2003)
(“[C]laims that were deliberately limited in order to
expedite prosecution by avoiding examination cannot
regain that scope for infringement purposes.”) (citing
Genentech, Inc. v. Wellcome Found. Ltd., 29 F.3d 1555,
1564 (Fed. Cir. 1994)). Regardless, no court would hold
the December 2001 amendment’s purpose was to expedite prosecution. “[A] patentee’s rebuttal of the Warner-Jenkinson presumption” that a narrowing amendment was made for a substantial reason relating to patentability “is restricted to the evidence in the prosecution history record.” Festo IX, 344 at 1367 (citations
omitted). But nothing in the prosecution history supports AbbVie and Besins’s claim that the December
2001 amendment’s purpose was to expedite prosecution. AbbVie and Besins cite the amendment’s concluding sentence, which reads: “The Examiner is urged to
call the undersigned with any questions or to otherwise
expedite prosecution.” App. 1095 (emphasis added).
But that boilerplate statement reveals nothing about
the amendment’s purpose. AbbVie and Besins also argue that even if the purpose to expedite prosecution did
not appear in the prosecution history, it was clear “as a
matter of law.” Abbvie Br. 48 n.3. This argument fails
even as an argument “for the extension, modification,

62a
or reversal of existing law.” PRE, 508 U.S. at 65 (quoting FED. R. CIV. P. 11). As we have explained, the rule
that a patentee’s rebuttal of the Warner-Jenkinson
presumption is restricted to the prosecution history is
fundamental; it balances “the needs of patentees for adequate protection of their inventions” on the one hand,
and “the needs of would-be competitors for adequate
notice of the scope of that protection” on the other.
Festo IX, 344 F.3d at 1385 (Newman, J., concurring in
part, dissenting in part).
To the extent the prosecution history reveals the
December 2001 amendment’s purpose, it shows the
amendment related to patentability. In June 2001, the
patent examiner rejected the application’s claim 1. In
October 2001, AbbVie and Besins unsuccessfully tried
to overcome the rejection by amending the application.
Their attorneys then had an interview with the patent
examiner in which she opined that the application’s
claims to isopropyl myristate were allowable over the
prior art. As the District Court found, these facts were
“a telling signal to any reasonable person that patentability required the narrowing of any claim so that it disclosed isopropyl myristate at a particular concentration
as the sole penetration enhancer.” AbbVie, 2017 WL
4098688, at *11. AbbVie and Besins followed that signal in their December 2001 amendment: in the amendment’s conclusion—immediately before the boilerplate
discussed above—they sought “reconsideration and
withdrawal of the outstanding rejections and allowance
of the … claims.” App. 1095. (emphasis added).
AbbVie and Besins also argue the rationale for the
December 2001 amendment was to overcome Mak’s use
of oleic acid, so it was tangential to isostearic acid. That
argument contradicts the prosecution history. AbbVie
and Besins narrowed their claims to exclude oleic acid

63a
in October 2001, so that could not have been the purpose of the December 2001 amendment.
AbbVie and Besins counter that the District Court
erred by “assessing … whether [they] had a winning
case against Perrigo” instead of whether a reasonable
litigant would believe it had a chance of winning.
AbbVie Br. 50. We disagree. While the Court did assess whether they had a winning case, it also assessed
whether a reasonable litigant would believe it had a
chance of winning. See AbbVie, 2017 WL 4098688, at *9
(“[A]ny reasonable person who reads the prosecution
history of the ’894 patent can reach no other conclusion
than that the defendants have purposefully and not
tangentially excluded … isostearic acid.”).
Finally, AbbVie and Besins argue “[t]he favorable
settlements [they] obtained in both suits foreclose the
proposition that no reasonable person could have perceived a chance of success for the infringement claims.”
AbbVie Br. 50-51. They note Perrigo agreed to “continued market exclusivity for AndroGel until late
2014—‘far beyond the maximum 30-month HatchWaxman stay[]’ that would have applied had the lawsuits continued.” Id. at 51. We think that, ordinarily,
settlement on terms favorable to a plaintiff suggests a
suit is not objectively baseless. See, e.g., Theme Promotions, Inc. v. News Am. Mktg. FSI, 546 F.3d 991,
1008 (9th Cir. 2008); New W., L.P. v. City of Joliet, 491
F.3d 717, 722 (7th Cir. 2007). But that is not the situation here. To start, the settlement with Perrigo was
not especially favorable to AbbVie and Besins. AbbVie
paid Perrigo $2 million as reasonable litigation expenses and agreed to let Perrigo enter the market for AndroGel at the same time as Teva—almost six years before the ’894 patent expired. Even if the settlement
was favorable, however, that is not dispositive, since

64a
the record is clear that Perrigo did not settle because it
doubted its litigation position. In Perrigo’s paragraph
IV notice, it opined that “a lawsuit asserting the ’894
patent … would be objectively baseless and a sham,
brought in bad faith for the improper purpose of, inter
alia, delaying Perrigo’s NDA approval.” AbbVie, 329
F. Supp. 3d at 114. And Perrigo’s assistant general
counsel estimated it had a 75 percent chance of victory,
which, given the uncertainties inherent in litigation, is a
strong probability. Thus, as the District Court found,
Perrigo settled for reasons “independent of the merits
of [AbbVie and Besins’s] claims,” including especially
the cost of litigating. Id. at 123.
Thus, the District Court did not err in concluding
AbbVie and Besins’s suit against Perrigo was objectively baseless.
3.

The District Court did not err in concluding
AbbVie and Besins’s suit against Perrigo met
sham litigation’s subjective motivation prong.

The District Court’s evaluation of the subjective
motivation prong of the sham litigation test required it
to make findings of fact. We review those factual findings under the deferential clear-error standard. See
VICI Racing, LLC v. T-Mobile USA, Inc., 763 F.3d 273,
282-83 (3d Cir. 2014). A finding is clearly erroneous
when “although there is evidence to support it, the reviewing court on the entire evidence is left with the
definite and firm conviction that a mistake has been
committed.” United States v. U.S. Gypsum Co., 333
U.S. 364, 395 (1948). “Where there are two permissible
views of the evidence, the factfinder’s choice between
them cannot be clearly erroneous.” Anderson v. City of
Bessemer City, N.C., 470 U.S. 564, 574 (1985) (citations
omitted). Clear error review exists to prevent a re-

65a
viewing court from “overstep[ping] the bounds of its
duty … [by] duplicat[ing] the role of the lower court.”
Id. at 573 (citing FED. R. CIV. P. 52(a)).
The District Court ruled the FTC “must prove [by
clear and convincing evidence] that defendants had actual knowledge that the patent infringement suits here
were baseless.” AbbVie, 329 F. Supp. 3d at 120.3 In
support, it cited City of Columbia v. Omni Outdoor
Advertising, Inc., 499 U.S. 365 (1991), in which the Supreme Court said “[a] classic example [of sham litigation] is the filing of frivolous objections to the license
application of a competitor, with no expectation of
achieving denial of the license but simply in order to
impose expense and delay.” Id. at 380 (emphasis added).
The District Court then determined certain evidence submitted to show AbbVie and Besins’s
knowledge was not probative. This evidence included:
(1) Solvay’s 2009 press release, because “[n]one of the
in-house AbbVie attorneys identified as the decisionmakers regarding the 2011 suit[] against … Perrigo
was previously employed by Solvay or Unimed,”
3

In a footnote in its response brief, the FTC challenges the
District Court’s requirement of proof by clear-and-convincing evidence. We have not decided what standard of proof applies to
sham litigation’s subjective motivation prong. Cf. Wellbutrin, 868
F.3d at 148 n.18 (referencing the objective baselessness prong).
But in discussing Noerr-Pennington cases involving Section 1983
claims, we have explained that a higher standard of proof is needed in Noerr-Pennington cases involving patent disputes. See
Campbell v. Pa. Sch. Bd. Ass’n, 2020 WL 5049051, at *7 (3d Cir.
2020). We need not adopt that dicta today because “arguments
raised in passing (such as, in a footnote), but not squarely argued,”
are forfeited on appeal. John Wyeth & Bro. Ltd. v. CIGNA Intern.
Corp., 119 F.3d 1070, 1076 n.6 (3d Cir. 1997).

66a
AbbVie, 329 F. Supp. 3d at 121; (2) business planning
documents, because “none of the[] documents … was
created by or influenced anyone who played a role in
the decision[] to sue … Perrigo,” id. at 122; (3) the settlement agreements, because “[p]arties often settle litigation for a variety of reasons independent of the merits of the claims,” id. at 123; and (4) AbbVie’s citizen petitions, because the petitions “were [all] found to be at
least partially meritorious,” id.4
Finally, the Court “zoom[ed] in on the individuals
at AbbVie and Besins who made the decision[] to file
the infringement action[] against … Perrigo [to] discern
what these individuals knew.” Id. at 123-24. Because
AbbVie and Besins invoked attorney-client privilege
and the attorney work product doctrine, the trial produced “no direct evidence of [these individuals’] subjective intent.” Id. at 125. The Court refused to draw any
negative inference as a result. See id. Instead, it considered “the surrounding circumstances and the natural
and probable consequences of [AbbVie and Besins’s]
knowing acts.” Id. The Court considered two pieces of
circumstantial evidence. First, because AbbVie and
Besins’s decisionmakers were all “very experienced patent attorneys” who had reviewed Perrigo’s paragraph
IV notices and consulted outside counsel, they knew
the lawsuit against Perrigo was objectively baseless.
Id. at 126. And second, the decisionmakers—some of
whom were long-time employees—“knew the extensive
financial benefits to [AbbVie and Besins] if generic ver4

AbbVie and Besins argue the District Court erred by not
considering the business planning documents and settlement
agreements. The FTC argues the Court erred by not considering
Solvay’s 2009 press release. The Court correctly concluded that
none of this evidence is probative of the decisionmakers’ subjective
motivations.

67a
sions of AndroGel were kept or delayed from entry into
the market.” Id. The Court concluded “[t]he only reason for the filing of these lawsuits was to impose expense and delay on … Perrigo so as to block [its] entry
into the TTRT market.” Id.
AbbVie and Besins argue the District Court erred
by merging sham litigation’s objective baselessness and
subjective motivation prongs. They claim “the relevant
inquiry under the subjective element [is] whether [the]
decisionmakers actually believed the lawsuits had no
possibility of success” and were therefore “subjective[ly] baseless[].” AbbVie Br. 56.
The FTC counters that the District Court required
it to prove more than was necessary, because the subjective inquiry “has nothing to do with what a litigant
knew or should have known regarding the merits of its
claims.” FTC Resp. Br. 57 (quoting Kilopass Tech.,
Inc. v. Sidense Corp., 738 F.3d 1302, 1313 (Fed. Cir.
2013)). Instead, the FTC argues, what matters is the
intent to “thwart competition.” Id. (citing Octane Fitness, 572 U.S. at 556).
We agree with the FTC that the District Court applied an improper legal standard. The ultimate inquiry
under sham litigation’s subjective prong is a defendant’s subjective motivation, not its subjective belief
about the merits of its claims. See PRE, 508 U.S. at 6061; Octane Fitness, 572 U.S. at 556. Thus, the term
“subjective baselessness” is a misnomer. That said, we
disagree that the inquiry into a defendant’s motivation
has “nothing to do” with a defendant’s belief about the
merits of its claims. But cf. Kilopass, 738 F.3d at 1313.
Evidence that a defendant knew its claims were meritless may help a plaintiff to show a defendant was “indifferent to the outcome on the merits of the … suit” and

68a
“decided to sue primarily for the benefit of collateral
injuries inflicted through the use of legal process.”
PRE, 508 U.S. at 65 (citation omitted). It is therefore
unsurprising that evidence of a defendant’s belief about
the merits of its claims appears in a “classic example” of
sham litigation, Omni, 499 U.S. at 380, or that it appeared in this case. So while evidence of a defendant’s
belief about the merits of its claims may be relevant to
determining a defendant’s motivation, it is not required
in every case. In short, a defendant can be ambivalent
about the merits while filing litigation for an improper
purpose (i.e., in bad faith).
We also reject AbbVie and Besins’s argument that
the District Court improperly merged sham litigation’s
objective baselessness and subjective motivation
prongs. That argument assumes the two prongs are
distinct, but they are interrelated. To see how, consider the following syllogism: (1) A lawsuit is objectively
baseless if “no reasonable litigant could realistically expect success on the merits,” PRE, 508 U.S. at 60; (2)
and a litigant who files an objectively baseless lawsuit
must have had some subjective motivation for suing; (3)
but because the lawsuit was objectively baseless, the
litigant’s subjective motivation could not have been
success on the merits, unless the litigant was unreasonable; (4) thus, a reasonable litigant’s subjective motivation for filing an objectively baseless lawsuit must be
something besides success on the merits. The District
Court merely applied this syllogism. It first held that
AbbVie and Besins’s lawsuits were objectively baseless. It then reasoned that because AbbVie and Besins’s decisionmakers were all very experienced patent
attorneys who had reviewed Perrigo’s paragraph IV
notices and consulted outside counsel, they knew the
lawsuits were baseless. Finally, it reasoned that be-

69a
cause the decisionmakers knew the lawsuits were baseless, they must have been motivated by something other than success on the merits. The District Court’s logic is valid.
AbbVie and Besins respond that, under the District
Court’s analysis, “in virtually every Hatch-Waxman
suit in which a court finds objective baselessness, a
finding of subjective baselessness would necessarily
follow.” AbbVie Br. 57. Not so. The syllogism the
Court applied establishes only that a reasonable litigant’s subjective motivation must have been something
besides success on the merits. It does not necessarily
follow that the motivation was to thwart competition.
For example, a company might file an objectively baseless lawsuit because it subjectively (though unreasonably) expected the lawsuit to succeed. In that case, a
finding of “subjective baselessness” would not necessarily follow from a finding of objective baselessness.
AbbVie and Besins next argue that the circumstantial evidence the Court considered was insufficient to
establish the subjective motivation prong by clear and
convincing evidence, especially given the presumption
that “the assertion of a duly granted patent is made in
good faith.” AbbVie Br. 56 (quoting C.R. Bard, Inc. v.
M3 Sys., Inc., 157 F.3d 1340, 1369 (Fed. Cir. 1998)).
We disagree. Because AbbVie and Besins invoked
attorney-client privilege and the attorney work product
doctrine, the Court properly considered the surrounding circumstances and the natural and probable consequences of AbbVie and Besins’s intentional acts to
make its findings. Cf. Howard Hess Dental Labs. Inc.
v. Dentsply Intern., Inc., 602 F.3d 237, 257-58 (3d Cir.
2010) (“Specific intent in the antitrust context may be
inferred from a defendant’s unlawful conduct.”) (citing

70a
Advo, Inc. v. Phila. Newspapers, Inc., 51 F.3d 1191,
1199 (3d Cir. 1995)). The Court noted that AbbVie and
Besins’s decisionmakers were all experienced patent
attorneys who had reviewed Perrigo’s paragraph IV
notices and consulted outside counsel. They also knew
the extensive financial benefits AbbVie and Besins
would receive if generic versions of AndroGel were
kept or delayed from entry into the market. Especially
given the collateral injury the Hatch-Waxman Act’s 30month stay invariably inflicts, the Court was permitted
to conclude from this evidence that in filing an objectively baseless lawsuit against Perrigo, the decisionmakers were motivated not to assert a patent in
good faith, but to impose expense and delay on Perrigo
to delay its entry into the TTRT market. Anderson,
470 U.S. at 574.
Besins lastly argues the District Court clearly
erred because the FTC presented “no evidence” about
“who in 2011 were the decisionmakers at Besins … and
what those people knew.” Besins Br. 14. It also argues
the trial testimony “neither addressed nor established
who made the 2011 decisions to sue. Nor did the FTC
ask [Besin’s in-house counsel] MacAllister who at Besins made those decisions.” Id. at 15.
The District Court did not clearly err. MacAllister
testified at trial that: he is a former patent examiner;
he was “the highest ranking attorney in-house at Besins,” App. 3672; he “oversaw the global intellectual
property group,” id.; and he “advised on litigations concerning Besins’[s] patents,” App. 3673. An attorney for
the FTC asked MacAllister whether he was “involved
in the decision to file patent litigation against Perrigo in
2011.” App. 3690. He responded that he conferred with
AbbVie’s in-house counsel “related to the decision
whether or not to proceed with the lawsuit,” and that

71a
Besins’s outside counsel provided him and others with
advice that “informed our decision as to whether or not
to proceed with the lawsuit.” Id. It was “permissible”
for the Court to conclude from this testimony that
MacAllister decided to sue on Besins’s behalf. Anderson, 470 U.S. at 574.
Thus, the District Court did not err in concluding
AbbVie and Besins’s suit against Perrigo concealed an
attempt to interfere directly with its business relationships, through the use of the governmental process—as
opposed to the outcome of that process—as an anticompetitive weapon.
C. The District Court did not err in concluding
AbbVie and Besins had monopoly power in the
relevant market.
To prove monopolization, a plaintiff must establish
that the defendant had monopoly power in the relevant
market. See Broadcom Corp. v. Qualcomm Inc., 501
F.3d 297, 306-07 (3d Cir. 2007). Monopoly power is “the
ability to control prices and exclude competition in a
given market.” Id.
The FTC relied on indirect evidence to establish
AbbVie’s monopoly power. “To support a claim of monopoly power through indirect evidence, [a plaintiff]
must show that (1) [d]efendants had market power in
the relevant market and (2) that there were barriers to
entry into the market.” Mylan, 838 F.3d at 435. Market power is “the ability to raise prices above those
that would otherwise prevail in a competitive market.”
Gordon v. Lewistown Hosp., 423 F.3d 184, 210 (3d Cir.
2005) (citation omitted). A court can infer market power from a market share significantly greater than 55
percent. See Dentsply, 399 F.3d at 187. “Other germane factors include the size and strength of competing

72a
firms, freedom of entry, pricing trends and practices in
the industry, ability of consumers to substitute comparable goods, and consumer demand.” Id. A defendant’s
ability to maintain market share is also relevant. See
id. at 188-89 (citing United States v. Syufy Enters., 903
F.2d 659, 665-66 (9th Cir. 1990)). Barriers to entry include “regulatory requirements, high capital costs, or
technological obstacles, that prevent new competition
from entering a market in response to a monopolist’s
supracompetitive prices.” Broadcom Corp., 501 F.3d at
307.
The parties agreed that the relevant geographic
market is the United States, so the District Court had
to define only the product market.
To determine if two products are in the same
market, we ask if they are readily substitutable
for one another, an inquiry that requires us to
assess the reasonable interchangeability of use
between a product and its substitute. We also
look to their cross-elasticity of demand, which
is defined as a relationship between two products, usually substitutes for each other, in
which a price change for one product affects the
price of the other.
Mylan, 838 F.3d at 435-36 (internal quotation marks,
citations, and alterations omitted); see also SmithKline
Corp. v. Eli Lilly & Co., 575 F.2d 1056, 1064 (3d Cir.
1978) (requiring “significant” cross-elasticity of demand).
The District Court defined the product market as
“the market for all TTRTs, that is all transdermal testosterone replacement therapies within the United
States.” AbbVie, 329 F. Supp. 3d at 134. It found that
all TTRTs were “reasonably interchangeable” and ex-

73a
hibited cross-elasticity of demand. See id. at 131-32.
By contrast, in considering the market for TTRTs and
injectables, the Court found that while TTRTs were
reasonably interchangeable with injectables, they exhibited “little cross-elasticity of demand.” Id. at 133. It
relied on the following evidence:
•

Injectables are much cheaper than AndroGel,
yet AbbVie has “consistently raised AndroGel’s wholesale acquisition cost.”

•

AbbVie executive James Hynd testified that
AbbVie does not price AndroGel against injectables and did not offer rebates to match the
price of injectables.

•

AndroGel’s Director of Marketing Frank Jaeger testified that AbbVie did not consider injectables to be competition. He identified other
TTRTs “such as Axiron, Fortesta, and Testim
as AndroGel’s competitors.”

Id. The Court discounted an internal AbbVie document
stating that a rise in AndroGel’s copay was correlated
with an increase in injectables’ sales. It explained that
factors besides price drove the correlation, including
“patient preference, the existence of [specialized testosterone clinics], and the disproportionate negative
publicity testosterone gels received after reports associating TTRTs with heightened cardiovascular risk.”
Id. For the same reason, the Court also discounted a
“patient switching study” that AbbVie and Besins’s expert conducted. See id.
The District Court also found that AbbVie and Besins had “a dominant share of the TTRT market in the
relevant period and that significant barriers existed for
entry into that market.” Id. at 136. It relied on the fol-

74a
lowing evidence in finding that AbbVie and Besins had
a dominant share:
•

“In the TTRT market, AndroGel was by far the
most-prescribed product and was widelyrecognized as the ‘market leader’ from before
2011 through 2014.”

•

In April 2011 (when AbbVie and Besins sued
Teva), AndroGel’s share of the TTRT market
was 71.5 percent. In October 2011 (when they
sued Perrigo), AndroGel’s share was 63.6 percent. AndroGel’s share “remained above 60[
percent] until the end of 2014, when Perrigo’s
generic 1% testosterone product entered the
market.”

•

No other TTRT product ever held 10 percent
or more of the market during this period, and
AndroGel’s market share was always more
than three times larger than the market share
of any of its brand-name competitors.

•

“AbbVie was able to maintain its share of the
TTRT market with a profit margin of over 65[
percent]” during this period, “even with huge
rebates.”

•

AbbVie increased the wholesale acquisition
cost for AndroGel during this period.

Id. at 134-35. Finally, the Court found significant barriers to entry because “a generic drug has significant
capital, technical, regulatory, and legal barriers to
overcome.” Id. at 135-36. It explained that, although
three brand-name TTRT products (i.e., Fortesta, Axiron, and Vogelxo) entered the market between 2011
and 2014, “they did not pose significant competition to

75a
[AbbVie and Besins’s] monopolistic conduct” because
they held a low market share. Id. at 136.
AbbVie and Besins claim the District Court clearly
erred by excluding injectables from the product market
for two reasons. First, the record contained “voluminous evidence, including expert testimony, showing
substantial cross-elasticity between topical TRTs and
injectables.” AbbVie Br. 64. And second, the FTC’s
expert conceded “some cross-elasticity … between AndroGel and injectables” and “presented no crosselasticity study to support” the market the Court defined. Id. at 64-65 (citation omitted). In sum, AbbVie
and Besins argue that the Court “defined the relevant
antitrust market in terms no expert had endorsed.” Id.
at 29.
We disagree for several reasons. First, the mere
fact that the record contained evidence tending to show
substantial cross-elasticity between topical TRTs and
injectables does not mean the Court clearly erred.
AbbVie employees conceded at trial that AndroGel
does not compete against injectables, so it was at least
“permissible” for the Court to exclude injectables from
the product market. Anderson, 470 U.S. at 574. Second, while the FTC’s expert conceded some crosselasticity between AndroGel and injectables, he did not
concede significant cross-elasticity, which is required
to find clear error. See SmithKline Corp., 575 F.2d at
1064. Finally, the FTC’s expert did study whether AndroGel and injectables exhibited cross-elasticity of demand. App. 3862 (“I looked at the data on what happened over time to a number of injectable prescriptions
and looked to see whether significant changes in the
price of the transdermal products, whether we could
see an effect on injectables … [The data] indicates a low
cross-elasticity of demand between AndroGel and in-

76a
jectables ….”). While the expert did not “endorse” the
market the Court ultimately defined, his testimony
supported the Court’s market definition, and the FTC
argued for that definition in the alternative. App. 3491
(“[E]ven if the relevant market included all other TRT
products except injections, the market share has established that AndroGel still possessed monopoly power.”).
AbbVie and Besins also contend the District Court
committed legal error by misapplying the legal standard as to the existence of market power and barriers to
entry. They argue the Court gave dispositive weight to
market share data and Hatch-Waxman’s technical and
regulatory requirements while ignoring real-world evidence. They emphasize that three new competing
brand-name TTRTs entered the market between 2011
and 2014. We are unpersuaded.
The Court did not give dispositive weight to market share data; it also considered consumer demand for
AndroGel, the durability of AndroGel’s market share,
the size and strength of AndroGel’s competitors, and
AndroGel’s pricing trends and practices. See Dentsply,
399 F.3d at 187-89 (explaining these are relevant factors). And the Court did not ignore new entrants; it
explained the three brand-name TTRT products that
entered the market between 2011 and 2014 were not
meaningful competitors to AndroGel because of their
modest market shares. So the District Court did not
err in concluding AbbVie and Besins had monopoly
power in the relevant market.
For all the reasons stated, we hold the District
Court erred by rejecting the reverse-payment theory
and in concluding AbbVie and Besins’s litigation
against Teva was a sham. We also hold that the Court
did not err when it concluded the Perrigo litigation was

77a
a sham and that AbbVie and Besins had monopoly
power in the relevant market.
V. REMEDIES
We turn finally to remedial issues. The District
Court erred in requiring AbbVie and Besins to disgorge $448 million because district courts lack the power to order disgorgement under Section 13(b) of the
FTC Act. But it did not abuse its discretion in denying
injunctive relief. Nor is it futile to remand the reversepayment theory.
A. The District Court erred in ordering disgorgement.
The District Court ordered AbbVie and Besins to
disgorge $448 million in ill-gotten profits. It reasoned
“[t]he weight of authority … supports the conclusion
that the grant of authority in section 13(b) to provide
injunctive relief includes the full range of equitable
remedies, including the power to order a defendant to
disgorge illegally obtained funds.” AbbVie, 329 F.
Supp. 3d at 137 (citation omitted). It also said a contrary interpretation would “eviscerate the FTC Act” because a monopolist would “be able to retain its illgotten gains and simply face an injunction against future wrongdoing.” Id.
Reviewing the District Court’s interpretation de
novo, see Kaufman v. Allstate N.J. Ins. Co., 561 F.3d
144, 151 (3d Cir. 2009), we conclude it erred in ordering
disgorgement because district courts lack the power to
do so under Section 13(b).
“The FTC has multiple instruments in its toolbox
to combat unfair methods of competition” and unfair or
deceptive acts or practices. FTC v. Shire ViroPharma,
Inc., 917 F.3d 147, 155 (3d Cir. 2019). First is the FTC’s

78a
“traditional enforcement tool,” Section 5 of the FTC
Act. Id. (citing 15 U.S.C. § 45(b)). That section allows
the FTC to initiate an administrative proceeding to obtain a cease-and-desist order against an unfair method
of competition or an unfair or deceptive act or practice.
See 15 U.S.C. § 45(b). The FTC can then sue in federal
district court to get “limited monetary remedies” for
violations of the order. Shire, 917 F.3d at 155. A respondent who violates an order is liable for no more
than $10,000 per violation. See 15 U.S.C. § 45(l). The
FTC can also seek “mandatory injunctions” and “such
other and further equitable relief” as the court deems
appropriate. Id. Violators other than the respondent
are also liable for up to $10,000 per violation, but only if
they violate the order knowingly. See id. § 45(m)(1)(A).
Second, under Section 19 of the FTC Act, the FTC
can promulgate “rules which define with specificity acts
or practices which are unfair or deceptive.” Id.
§ 57a(a)(1)(B). Alternatively, it can initiate an administrative proceeding to obtain a cease-and-desist order.
Id. § 57a(a)(2). In either case, it can sue violators in
federal district court. See id. § 57a(a)(1)-(2). If the
FTC promulgated a rule, the court can “grant such relief as the court finds necessary to redress injury,” including but not limited to “the refund of money or return of property” and “the payment of damages.” Id.
§ 57b(b). Otherwise, the FTC can obtain such relief only if it shows “a reasonable man would have known under the circumstances” his conduct was “dishonest or
fraudulent.” Id. § 57b(a)(2).
A third enforcement tool is Section 13(b) of the
FTC Act. “Unlike Section 5, Section 13 was not part of
the original FTC Act.” Shire, 917 F.3d at 155. “Rather,
[it] was added later [in 1973] in an effort to solve one of
the main problems of the FTC’s relatively slow-moving

79a
administrative regime—the need to quickly enjoin ongoing or imminent illegal conduct.” Id.
The question presented in this appeal is whether a
district court has the power to order disgorgement under Section 13(b). We start with the text, for where
“the words of the statute are unambiguous, the judicial
inquiry is complete.” Desert Palace, Inc. v. Costa, 539
U.S. 90, 91 (2003) (internal quotation marks and citation
omitted). Section 13(b) states:
Whenever the Commission has reason to believe—
(1) that any person, partnership, or corporation is violating, or is about to violate, any provision of law enforced by the Federal Trade
Commission, and
(2) that the enjoining thereof pending the issuance of a complaint by the Commission and
until such complaint is dismissed by the Commission or set aside by the court on review, or
until the order of the Commission made thereon has become final, would be in the interest of
the public—
the Commission by any of its attorneys designated by it for such purpose may bring suit in a
district court of the United States to enjoin any
such act or practice. Upon a proper showing
that, weighing the equities and considering the
Commission’s likelihood of ultimate success,
such action would be in the public interest, and
after notice to the defendant, a temporary restraining order or a preliminary injunction may
be granted without bond: Provided, however,
That if a complaint is not filed within such peri-

80a
od (not exceeding 20 days) as may be specified
by the court after issuance of the temporary
restraining order or preliminary injunction, the
order or injunction shall be dissolved by the
court and be of no further force and effect:
Provided further, That in proper cases the
Commission may seek, and after proper proof,
the court may issue, a permanent injunction.
15 U.S.C. § 53(b). Section 13(b) authorizes a court to
“enjoin” antitrust violations. It says nothing about disgorgement, which is a form of restitution, see Liu v.
SEC, 140 S. Ct. 1936, 1940-41 (2020), not injunctive relief, see, e.g., Meghrig v. KFC W., Inc., 516 U.S. 479, 484
(1996) (“[N]either [a mandatory nor prohibitory injunction] contemplates the award of … ‘damages’ or ‘equitable restitution.’ ” ); Owner-Operator Indep. Drivers
Ass’n v. Landstar Sys., Inc., 622 F.3d 1307, 1324 (11th
Cir. 2010) (“Injunctive relief constitutes a distinct type
of equitable relief; it is not an umbrella term that encompasses restitution or disgorgement.”). Thus, Section 13(b) does not explicitly empower district courts to
order disgorgement.
This interpretation is even stronger in context.
Section 13(b) says that, in order to sue, the FTC must
have reason to believe an antitrust violation is imminent or ongoing. See Shire, 917 F.3d at 156 (holding requirement applies to request for permanent injunction).
This requirement makes perfect sense as applied to injunctive relief, which prevents or mandates a future
action. See Injunction, BLACK’S LAW DICTIONARY
(rev. 4th ed. 1968). So if a violator’s conduct is neither
imminent nor ongoing, there is nothing to enjoin, and
the FTC cannot sue under Section 13(b). By contrast,
the requirement makes little sense as applied to a disgorgement remedy. Disgorgement deprives a wrong-

81a
doer of past gains, see Liu, 140 S. Ct. at 1940-41, meaning that even if a wrongdoer’s conduct is not imminent
or ongoing, he may have gains to disgorge. If Congress
contemplated the FTC could sue for disgorgement under Section 13(b), it probably would not have required
the FTC to show an imminent or ongoing violation.
That requirement suggests Section 13(b) does not empower district courts to order disgorgement.
The FTC’s other enforcement powers also support
our interpretation. Both distinguish between injunctions and other forms of equitable relief. See 15 U.S.C.
§ 45(l) (FTC can seek “mandatory injunctions” and
“such other and further equitable relief” as the court
deems appropriate); Id. § 57b(b) (court can “grant such
relief as the court finds necessary to redress injury,”
including but not limited to “the refund of money or return of property” and “the payment of damages”). The
timing of the enactment of these powers is also instructive. Congress amended Section 5 to allow “such other
and further equitable relief” at the same time it enacted
Section 13(b). See Trans-Alaska Pipeline Authorization
Act, Pub. L. No. 93-153, § 408, 87 Stat. 576, 591 (1973).
And it enacted Section 19—which allows disgorgement
only under certain conditions—after Section 13(b). See
Magnuson-Moss Warranty Act, Pub. L. No. 93-637,
§ 206, 88 Stat. 2183, 2201-02 (1975). Thus, Sections 5
and 19 both show that when Congress wants to empower a district court to order more expansive equitable relief than injunctions, it does so. Yet Congress did
not do so in Section 13(b).
A contrary conclusion would undermine the FTC
Act’s statutory scheme. Section 13(b) was added in
1973 because the FTC’s administrative regime moved
slowly. See Shire, 917 F.3d at 155. But it is slowmoving for a reason: it affords defendants valuable

82a
procedural protections. For example, Section 5 conditions relief to defendants on an administrative proceeding and a cease-and-desist order. See 15 U.S.C. § 45(b).
It also limits the monetary relief the FTC can obtain.
See 15 U.S.C. § 45(l); see also id. § 45(m)(1)(A). Section
19 likewise requires the FTC to promulgate “rules
which define with specificity acts or practices which are
unfair,” or initiate an administrative proceeding to obtain a cease-and-desist order. Id. § 57a(a)(1)(B)-(2). By
contrast, Section 13(b) does not incorporate these same
protections: it grants the FTC a cause of action to seek
a preliminary injunction in federal court without first
pursuing administrative adjudication or rulemaking;
and it imposes no limits on the amount of any monetary
relief the FTC may be able to obtain. Thus, our interpretation does not “eviscerate” the FTC Act; it harmonizes its provisions.
The FTC counters that Section 19 has a savings
clause. That clause states: “Remedies provided in this
section are in addition to, and not in lieu of, any other
remedy or right of action provided by State or Federal
law. Nothing in this section shall be construed to affect
any authority of the Commission under any other provision of law.” 15 U.S.C. § 57b(e). But “[t]he saving
clause preserves only those remedies that exist. It
does not inform the question whether section 13(b) contains an implied power to award restitution.” FTC v.
Credit Bureau Ctr., LLC, 937 F.3d 764, 775 (7th Cir.
2019).
The FTC argues the interpretation we adopt goes
against the weight of precedent. It notes that seven of
our sister courts have held courts may order disgorgement under Section 13(b), and we acknowledged as
much in the footnote of a not-precedential decision.
FTC Reply Br. 88 (quoting FTC v. Magazine Sols.,

83a
LLC, 432 F. App’x 155, 158 n.2 (3d Cir. 2011)). That is
true, but until recently, “[n]o circuit ha[d] examined
whether reading a restitution remedy into section 13(b)
comports with the FTCA’s text and structure.” Credit
Bureau, 937 F.3d at 785 (describing the precedents);
see also id. (quoting United States v. Hill, 48 F.3d 228,
232 (7th Cir. 1995) (“We are not merely to count noses.
The parties are entitled to our independent judgment.”)). Moreover, today’s result is consistent with
the recent ruling of the United States Court of Appeals
for the Seventh Circuit, which, in a thorough and wellreasoned opinion, overturned its precedent authorizing
restitution under Section 13(b). Credit Bureau Center,
937 F.3d at 764; see also FTC v. AMG Capital Mgmt.,
LLC, 910 F.3d 417, 429 (9th Cir. 2018) (O’Scannlain, J.,
specially concurring). Finally, our decision in Magazine
Solutions does not bind us. See I.O.P. 5.7. Even if it
did, the part of the footnote on which the FTC relies
was dictum because the litigant forfeited the issue by
failing to raise it in the district court. See 432 F. App’x
at 158 n.2.
Next, the FTC argues Congress has “twice ratified
the consistent understanding of the courts of appeals”—first in 1994, when Congress expanded the
venue and service-of-process provisions of Section
13(b), see FTC Act Amendments of 1994, Pub. L. No.
103-312, § 10, 108 Stat. 1691, 1695–96 (1994); and second
in 2006, when Congress made “[a]ll remedies available
to the Commission … including restitution to domestic
or foreign victims” available for certain unfair practices
abroad, see U.S. Safe Web Act of 2006, Pub. L. No. 109455, § 3, 120 Stat. 3372, 3372 (2006) (amending 15 U.S.C.
§ 45(a)(4)(B)) (emphasis added). FTC Reply Br. 93. We
disagree. The 1994 amendment did not change the
remedies available to the Commission. So it can hardly

84a
be seen as ratifying our sister courts’ precedents on
that issue. And the 2006 amendment’s reference to restitution does not mean restitution is available under
Section 13(b); the availability of restitution under Sections 5 and 19 is well-settled, and the amendment could
have referred to those sections instead.
The crux of the FTC’s counterargument is a pair of
Supreme Court decisions on which our sister courts and
the District Court relied—Porter v. Warner Holding
Co., 328 U.S. 395, 398 (1946), and Mitchell v. Robert
DeMario Jewelry, Inc., 361 U.S. 288 (1960). According
to the FTC, these decisions mean Section 13(b)’s use of
the word “injunction” impliedly empowers district
courts to order equitable relief in addition to injunctions. Once again, we disagree.
In Porter, the Supreme Court held a district court
could order restitution under the Emergency Price
Control Act of 1942, which authorized the Administrator of the Office of Price Administration to seek “a
permanent or temporary injunction, restraining order,
or other order” in court. 328 U.S. at 397 (emphasis added). The Court reasoned:
Unless otherwise provided by statute, all the
inherent equitable powers of the District Court
are available for the proper and complete exercise of that jurisdiction. And since the public
interest is involved …, those equitable powers
assume an even broader and more flexible
character than when only a private controversy
is at stake. Power is thereby resident in the
District Court, in exercising this jurisdiction to
do equity and to mould each decree to the necessities of the particular case. It may act so as
… to accord full justice to all the real parties in

85a
interest … In addition, the court may … give
whatever other relief may be necessary under
the circumstances. Only in that way can equity
do complete rather than truncated justice.
Moreover, the comprehensiveness of this
equitable jurisdiction is not to be denied or limited in the absence of a clear and valid legislative command. Unless a statute in so many
words, or by a necessary and inescapable inference, restricts the court’s jurisdiction in equity,
the full scope of that jurisdiction is to be recognized and applied.
Id. at 398 (internal citations and quotations omitted).
The Court concluded that “the term ‘other order’ contemplates a remedy other than that of an injunction or
restraining order, a remedy entered in the exercise of
the District Court’s equitable discretion.” Id. at 399. It
noted that no “other provision of the Act … expressly
or impliedly precludes a court from ordering restitution.” Id. at 403.
In Mitchell, the Supreme Court extended Porter.
The Court held a district court could order wage reimbursement under the Fair Labor Standards Act, which
gave courts jurisdiction “to restrain violations” of the
Act. Mitchell, 361 U.S. at 289. The Court said:
When Congress entrusts to an equity court the
enforcement of prohibitions contained in a regulatory enactment, it must be taken to have
acted cognizant of the historic power of equity
to provide complete relief in light of the statutory purposes. As this Court long ago recognized, there is inherent in the Courts of Equity
a jurisdiction to … give effect to the policy of
the legislature.

86a
Id. at 291-92 (alteration in original) (citation and internal quotations omitted). It was immaterial that the Act
lacked language, like “other order” in Porter, that confirmed the court’s power to order reimbursement. See
id. at 291 (citations omitted).
We interpreted Porter and Mitchell in United
States v. Lane Labs-USA Inc., 427 F.3d 219 (3d Cir.
2005). There, we held a court could order restitution
under the FDC Act in part because the Act empowered
district courts to “restrain violations.” See id. at 223; 21
U.S.C. § 332(a). We explained Porter and Mitchell
“charted an analytical course that seems fairly easy to
follow: (1) a district court sitting in equity may order
restitution unless there is a clear statutory limitation
on the district court’s equitable jurisdiction and powers; and (2) restitution is permitted only where it furthers the purposes of the statute.” Id. at 225. We noted “[n]umerous courts have followed this approach in
opining about a court’s power to order … disgorgement
under several different statutes.” Id. In support, we
cited, among other authorities, a decision holding disgorgement is available under Section 13(b). See id. (citing FTC v. Gem Merch. Corp., 87 F.3d 466, 470 (11th
Cir. 1996)).
Following the analytical course that Lane Labs described, we conclude Section 13(b) does not implicitly
empower district courts to order disgorgement. Unlike
the statutes at issue in Porter, Mitchell, and Lane Labs,
Section 13(b) limits the district court’s equitable jurisdiction and powers because it specifies the form of equitable relief a court may order. Compare Porter, 328
U.S. at 397-98 (“a permanent or temporary injunction,
restraining order, or other order” in court), Mitchell,
361 U.S. at 289 (“restrain violations”), and Lane Labs,
427 F.3d at 223 (same) with 15 U.S.C. § 53(b) (“enjoin”).

87a
Moreover, as we have explained, the context of Section
13(b) and the FTC Act’s broader statutory scheme both
support “a necessary and inescapable inference” that a
district court’s jurisdiction in equity under Section
13(b) is limited to ordering injunctive relief. Porter, 328
U.S. at 398. So our interpretation is consistent with
Lane Labs and faithful to Porter and Mitchell.
The FTC counters that in Lane Labs, we cited Gem
Merchandising, which held disgorgement is available
under Section 13(b). But we cited that case solely to
support our approach to applying Porter and Mitchell,
and the other cases we cited involved three different
statutes. Lane Labs, 427 F.3d at 225. We were not interpreting statutes en masse.
For these reasons, we hold district courts lack the
power to order disgorgement under Section 13(b) of the
FTC Act. So the District Court erred in requiring
AbbVie and Besins to disgorge $448 million.
B. The District Court did not abuse its discretion
in denying injunctive relief.
To obtain an injunction, the FTC must show there
is a “cognizable danger of recurrent violation, something more than the mere possibility which serves to
keep the case alive.” United States v. W.T. Grant Co.,
345 U.S. 629, 633 (1953). An injunction that implicates
a defendant’s First Amendment rights must “burden no
more speech than necessary to serve a significant government interest.” Madsen v. Women’s Health Ctr.,
Inc., 512 U.S. 753, 765 (1994) (citations omitted).
The FTC sought an injunction:
(1) to prohibit the filing of any claims of patent
infringement based on the ’894 patent by a
product that does not include about 0.1% to

88a
about 5% isopropyl myristate; (2) to prohibit
defendants from filing any other sham litigation; (3) to prohibit defendants from engaging
in any action that misuses government processes for anticompetitive purposes; and (4) to
require defendants to certify that any patent
infringement litigation or other use of governmental processes has an objectively reasonable
basis.
AbbVie, 329 F. Supp. 3d at 144. It also sought an injunction to “restore competitive market conditions” by
compelling AbbVie and Besins to license AndroGel
1.62% to one or more generic competitors, and to sell
them a supply of the gel until they could manufacture it
themselves. Id. at 145. At oral argument on appeal,
the FTC stated that because the ’894 patent would soon
expire, on remand it would not seek to prohibit the filing of patent infringement claims based on the ’894 patent, Oral Argument January 15, 2020 at 19:15-35; however, it reaffirmed its interest in a certification requirement, id. at 15:05-17:55.
The District Court found no basis on which to conclude AbbVie and Besins’s sham litigations were likely
to recur. It explained the FTC proved only “that defendants filed two sham infringement lawsuits,” which
do not establish a “pattern or practice.” Id. And
though the FTC advised the Court that since suing
Teva and Perrigo in 2011, AbbVie and Besins have filed
“numerous other patent infringement suits against
competitors, including seven lawsuits related to the
’894 patent,” the FTC presented no evidence those lawsuits were shams. See id. at 145 n.31. Moreover, the
Court noted generic versions of AndroGel had been on
the market for over three years. See id. at 145. Finally, the Court held that because the proposed injunction

89a
would have limited AbbVie and Besins’s ability to file
patent infringement suits with respect to any patent, it
was so “overbroad and punitive” that it would violate
their First Amendment rights. See id. (citing Madsen,
512 U.S. at 765).
On appeal, the FTC argues the District Court
abused its discretion because, under the likelihood-ofrecurrence test that governs SEC cases, AbbVie and
Besins are likely to engage in further sham litigation.
FTC Br. 48-49 (citing SEC v. Bonastia, 614 F.2d 908,
912 (3d Cir. 1980)). The FTC also argues the Court’s
First Amendment concerns rested on a mischaracterization of the injunctive relief it requested. Although its
“pretrial brief used broader language,” its proposed order did not seek to prohibit AbbVie and Besins from
engaging in any action that misuses government processes. FTC Br. 52 n.13. In any event, the FTC argues
its injunction is constitutional because the certification
requirement and prohibition on sham litigation implicate no First Amendment rights. Id. at 54. It also cites
the “well-settled” rule that “once the Government has
… establish[ed] a violation of law, all doubts as to the
remedy are to be resolved in its favor.” Id. at 55 (citing
United States v. E. I. du Pont de Nemours & Co., 366
U.S. 316, 334 (1961)).
We disagree. Under Grant, the District Court had
to determine whether the likelihood of AbbVie and Besins engaging in sham litigation was a cognizable danger or merely possible. See 345 U.S. at 633. Even resolving doubts in the FTC’s favor, for the reasons the
Court stated it was well within its discretion to conclude the FTC had shown a mere possibility.
Nor did the District Court abuse its discretion by
failing to apply the Bonastia factors, which we have

90a
never applied in FTC Act cases. See 614 F.2d at 908.
And we are disinclined to extend Bonastia here for two
reasons. First, our review of the voluminous record on
appeal did not uncover any indication the FTC argued
the District Court should extend Bonastia outside the
SEC context. To the contrary, the FTC’s proposed
findings of fact and conclusions of law relied solely on
Grant, which the District Court applied. To the extent
the FTC did not timely raise this argument in the District Court, it is forfeited on appeal. See In Re: J & S
Props., LLC, 872 F.3d 138, 146 (3d Cir. 2017) (citing
United States v. Joseph, 730 F.3d 336, 341-42 (3d Cir.
2013)).
Second, we would not find an abuse of discretion
even if Bonastia applied. Under that decision, courts
look to:
[1] the degree of scienter involved on the part
of the defendant, [2] the isolated or recurrent
nature of the infraction, [3] the defendant’s
recognition of the wrongful nature of his conduct, [4] the sincerity of his assurances against
future violations, and [5] the likelihood, because
of defendant’s professional occupation, that future violations might occur.
Bonastia, 614 F.2d at 912 (citation omitted). Although
the Court did not recite these factors mechanically, its
rationale accounted for the substance of all but the
third and fourth. And the antitrust laws afford no relief
on the basis of those factors alone. Cf. Howard Hess,
602 F.3d at 251 (citing Bonastia, 614 F.2d at 912).
Thus, the District Court did not abuse its discretion
in denying injunctive relief.

91a
C. Remand on the reverse-payment theory is not
futile.
AbbVie and Besins argue that remand to allow the
FTC to proceed on the reverse-payment theory would
be futile for several reasons. None is persuasive.
First, AbbVie and Besins argue the FTC will not
be able to show they “[are] violating, or [are] about to
violate” the antitrust laws. AbbVie Br. 91 (quoting 15
U.S.C. § 53(b)). But in Shire, we held that whereas
Section 13(b) of the FTC Act requires a plaintiff to
plead the defendant “is violating” or is “about to violate” the antitrust laws, the likelihood-of-recurrence
standard “applies when a court is considering whether
to grant or deny injunctive relief.” 917 F.3d at 158.
Second, AbbVie and Besins argue disgorgement would
be inappropriate, both because Section 13(b) does not
authorize it and because the District Court found, in
calculating the amount of disgorgement, that Teva
would not have marketed its generic gel even without
the sham litigation. See AbbVie, 329 F. Supp. 3d at 140
(“[T]he FTC has not established that, but for defendants’ sham litigation, Teva would have launched its
product on June 2012 or at any time thereafter.”). We
agree that disgorgement is inappropriate because Section 13(b) does not authorize it. But because we cannot
say, based on the pleadings alone, that the Court would
abuse its discretion by granting the FTC injunctive relief, remand is not futile. Consistent with our holding in
Shire, the District Court should apply the likelihood-ofrecurrence standard. See 917 F.3d at 158. Apart from
that instruction, the District Court retains discretion to
determine whether the FTC is entitled to an injunction
if it ultimately succeeds on the reverse-payment theory.

92a
Finally, at oral argument before our Court, counsel
for AbbVie argued for the first time that the District
Court’s finding that Teva would not have marketed its
generic gel without the sham litigation means that, on
remand, the FTC will be unable to show antitrust injury, which is an element of every antitrust claim. See
generally Wellbutrin, 868 F.3d at 164-65; Oral Arg.
29:10-36:25. Arguments not briefed are forfeited on appeal. See Griswold v. Coventry First LLC, 762 F.3d
264, 274 n.8 (3d Cir. 2014) (citation omitted). Regardless, we think that on remand, the Court must consider
anew its finding that Teva would not have marketed its
generic gel without the sham litigation. The FTC plausibly alleged AbbVie paid Teva a large, unjustified reverse payment to delay its entry into the market for
AndroGel.
*

*

*

For the reasons stated, we will reverse the District
Court’s order granting the motion to dismiss Count I in
part and to dismiss Count II. We will also affirm the
Court’s order adjudging AbbVie and Besins liable for
monopolization under Count I based upon its holding
that the suit against Perrigo was a sham. Finally, we
will affirm the Court’s order denying injunctive relief,
reverse the Court’s disgorgement order, and remand
for further proceedings consistent with this opinion.

93a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF PENNSYLVANIA
NO. 14-5151
CIVIL ACTION
FEDERAL TRADE COMMISSION,
v.
ABBVIE INC., ET AL.,

FINDINGS OF FACT AND
CONCLUSIONS OF LAW
Bartle, J.

June 29, 2018

The Federal Trade Commission (“FTC”) has sued
defendants AbbVie Inc., Abbott Laboratories, and
Unimed Pharmaceuticals LLC (collectively, “AbbVie”),
as well as Besins Healthcare, Inc. (“Besins”), for violation of section 5(a) of the Federal Trade Commission
Act (“FTC Act”), 15 U.S.C. § 45(a), which prohibits
“[u]nfair methods of competition in or affecting commerce.”
AbbVie and Besins together own U.S. Patent No.
6,503,894 (“’894 patent”) for a brand-name testosterone
replacement drug, AndroGel 1%. In Count I of the
complaint, the FTC alleges that AbbVie and Besins
maintained an illegal monopoly through the filing of
sham patent infringement lawsuits against two poten-

94a
tial competitors, Teva Pharmaceuticals USA, Inc.
(“Teva”) and Perrigo Company (“Perrigo”), to delay
entry into the market of their generic versions of AndroGel.1
To prevail in this antitrust litigation, the FTC must
prove that defendants possessed monopoly power in
the relevant market and that defendants willfully acquired or maintained that power. See Mylan Pharm.
Inc. v. Warner Chilcott Pub. Ltd., 838 F.3d 421, 433 (3d
Cir. 2016). Here, the FTC asserts that defendants
maintained their AndroGel monopoly through the filing
of sham litigation against Teva and Perrigo. To prove
its case, the FTC must establish: (1) the lawsuits filed
by defendants against Teva and Perrigo were objectively baseless; (2) defendants subjectively intended to
file such lawsuits; and (3) that defendants possessed
monopoly power in the relevant market. See Prof’l Real Estate Inv’rs, Inc. v. Columbia Pictures Indus., Inc.,
508 U.S. 49, 60-61 (1993) (“PRE”); In re Wellbutrin XL
Antitrust Litig., 868 F.3d 132, 148-49 (3d Cir. 2017).
On September 15, 2017, this court ruled that defendants’ infringement lawsuits against Teva and Perrigo were objectively baseless and entered summary
judgment in favor of the FTC on this issue. See FTC v.
AbbVie Inc., No. 14-5151, 2017 WL 4098688, at *11
(E.D. Pa. Sept. 15, 2017) (Doc. # 300). Thereafter the
1

In count II of the complaint, the FTC alleged that the settlement between Teva and the other defendants constituted an
improper restraint of trade in violation of the FTC Act. On May 6,
2015, this court granted the motion of defendants to dismiss count
II of the complaint, as well as count I to the extent it was premised
on the settlement agreements with Teva. As a result, Teva was
dismissed as a defendant in this action and only the claim involving
sham lawsuits in Count I remains.

95a
court held an approximately three-week nonjury trial
on the issues of subjective intent and monopoly power.
The court now makes the following findings of fact and
conclusions of law.
I
To understand the claim presented in this action,
we first set forth the regulatory scheme that governs
the testing and approval of new drugs in the United
States. That framework is governed by the Federal
Food, Drug, and Cosmetic Act (“FDCA”), 21 U.S.C.
§§ 301 et seq., as amended by the Drug Price Competition and Patent Term Restoration Act of 1984, which is
commonly known as the Hatch-Waxman Act, 21 U.S.C.
§ 355 and 35 U.S.C. § 271. See Pub. L. No. 98-417, 98
Stat. 1585.
A drug manufacturer seeking to market a new drug
must obtain approval from the U.S. Food and Drug
Administration (“FDA”). See 21 U.S.C. § 355(a). There
are three pathways established by the FDCA and
Hatch-Waxman: (1) a section 505(b)(1) New Drug Application (“NDA”); (2) a section 505(b)(2) NDA; and (3)
a section 505(j) Abbreviated New Drug Application
(“ANDA”).
An NDA is a full-length application containing information on the drug’s safety and efficacy, an explanation of the drug’s ingredients, a description of the
methods used in the manufacture and packaging of the
drug, samples of the proposed labeling, and samples of
the drug itself. See id. § 355(b)(1). The NDA must also
contain a list of any patents covering the drug. Id.
Once the FDA has approved a new brand-name
drug, an applicant with a generic version of that drug
can obtain approval through the use of abbreviated

96a
procedures. See 21 U.S.C. § 355(j). Most commonly,
the applicant will file a section 505(j) ANDA stating,
among other things, that the generic has the same active ingredients and is biologically and pharmacologically equivalent to the brand-name drug.
Id.
§ 355(j)(2)(A). The applicant may then rely on the safety and efficacy data contained in the NDA for the
brand-name drug. Id.
In the alternative, the applicant with a generic
drug may file a section 505(b)(2) NDA, which is a hybrid between an ANDA and a full NDA. A section
505(b)(2) NDA is used for generics that have slight
modifications from the brand-name drug. See 21 C.F.R.
§ 314.54. The applicant must submit additional data to
the FDA demonstrating that any differences between
the brand-name drug and the generic will not affect
safety and efficacy but can otherwise avoid the other
studies necessary for a full NDA application. Id.; see
also Ethypharm S.A. France v. Abbott Labs., 707 F.3d
223, 227 (3d Cir. 2013). Because the Hatch-Waxman
Act allows the applicant to “piggy-back” on the efforts
for the approval of the brand-name drug, its provisions
“speed the introduction of low-cost generic drugs to
market” and thereby promote drug competition. FTC
v. Actavis, Inc., 570 U.S. 136, 142 (2013) (quoting Caraco Pharm. Labs., Ltd. v. Novo Nordisk A/S, 566 U.S.
399, 405 (2012) (alteration omitted)).
Once the FDA approves a generic drug, the applicant may request from the FDA a therapeutic equivalence (“TE”) rating. A TE rating is a code that reflects
the FDA’s determination regarding whether a generic
product is pharmaceutically and biologically equivalent
to the reference-listed brand-name drug. Products that
are determined to be therapeutically equivalent are assigned an “A” or “AB” rating. Generic products for

97a
which therapeutic equivalence cannot be determined
are assigned a “B” or “BX” rating.2 An “A” or “AB”
rating is extremely desirable. Every state in the United States has generic substitution laws. See Mylan
Pharm. Inc., 838 F.3d at 428. These laws “either permit or require pharmacists to dispense a therapeutically equivalent, lower-cost generic drug in place of a
brand drug absent express direction from the prescribing physician that the prescription must be dispensed
as written.” Id. (internal quotation marks and citations
omitted).
The Hatch-Waxman Act also provides specialized
procedures for parties to resolve intellectual property
disputes. In submitting an ANDA or section 505(b)(2)
NDA, an applicant must certify that any patent currently in force for the referenced brand-name drug “is
invalid or will not be infringed by the manufacture, use,
or sale” of the proposed generic.
21 U.S.C.
§ 355(j)(2)(A)(vii). This certification is commonly referred to as a paragraph IV notice. Actavis, 570 U.S. at
143.

2

“A” and “B” are the two general categories into which the
FDA sorts drugs when evaluating therapeutic equivalence. Within these two categories are various subcategories depending on the
type of product (i.e., oral, injectable, solution, or powder) and other
factors. For our purposes we will focus on “AB,” which means “actual or potential bioequivalence problems have been resolved with
adequate in vivo and/or in vitro evidence supporting bioequivalence,” and “BX,” which is “specific drug products for which the
data that have been reviewed by the Agency are insufficient to
determine therapeutic equivalence.” See U.S. Food & Drug Admin., Center for Drug Evaluation & Research, Approved Drug
Products with Therapeutic Equivalence Evaluations, at xiii, xx
(38th ed. 2018), https://www.fda.gov/Drugs/DevelopmentApproval
Process/ucm079068.htm#_ftn4.

98a
The paragraph IV notice “automatically counts as
patent infringement” and thus often leads to an infringement suit by the patentee. Id. (citing 35 U.S.C.
§ 271(e)(2)(A)). Upon receiving the paragraph IV notice, the patentee has 45 days to determine whether to
file suit for infringement. 21 U.S.C. § 355(j)(5)(B)(iii).
The notice often includes an offer of confidential access
whereby outside counsel for the patentee may review
the application submitted to the FDA by the generic
applicant to facilitate a determination regarding infringement litigation. If the patentee files an infringement suit against a generic entity within this 45-day
period, the FDA is required to withhold approval of the
generic drug for 30 months from receipt of the paragraph IV notice or until the infringement action is resolved in the district court, whichever occurs first. Id.
II
AndroGel is a brand-name transdermal testosterone gel product approved by the FDA for the treatment of hypogonadism, a clinical syndrome that results
from failure of a man’s body to produce adequate
amounts of testosterone. It is estimated that this condition affects 2-6% of the adult male population in the
United States. Hypogonadism is a lifelong condition
which causes decreases in energy and libido, erectile
dysfunction, and changes in body composition including
decreased bone density. Patients with hypogonadism
are typically treated with testosterone replacement
therapy (“TRT”) whereby exogenous testosterone is
administered.
The first TRTs approved by the FDA were injectables in which testosterone is dissolved in a liquid and
then injected into a muscle of the body. Injectable testosterones were introduced in the 1950s and have been

99a
available in generic form for decades. They are administered every one to three weeks. While many patients
receive injections at their doctors’ office, some patients
opt to self-administer injections at home or visit clinics
specializing in TRT commonly known as “Low-T” centers. Because they are available in generic form, injectables generally require a five to ten dollar patient
copay on most insurance plans and thus are the least
expensive treatment method for hypogonadism.
Testosterone injections typically require two needles: a withdrawal needle and an injection needle. The
withdrawal needle is typically a 20-gauge wide bore
and 1-inch long needle required to withdraw the testosterone from the glass vial. After withdrawal, the patient must switch to a 21- or 22-gauge narrow bore and
1.5-inch long needle to administer the injection. This
needle must then be inserted deep into a muscle, typically the buttocks or thigh, until the needle is no longer
visible. Because a deep intramuscular injection is required, this treatment method may cause pain and discomfort which will vary from patient to patient. Injectables generally provide an initial peak in testosterone level at the time of injection followed by troughs
or valleys as the injection wears off. This variation in
testosterone level may cause swings in mood, libido,
and energy.
TRTs may also be administered through a gel or
patch which is applied to the skin and thereby absorbed
into the bloodstream. This group of products is known
as topical testosterone replacement therapies or transdermal testosterone replacement therapies (“TTRTs”).
Androderm, the first testosterone patch, was released
in the 1990s. It is applied once a day to the back, abdomen, thighs, or upper arms. The patch formulation delivers a steady level of testosterone without the peaks

100a
or valleys associated with injectables. It is relatively
easy to apply, although the patch may cause skin irritation in some patients and may be visible depending on
where it is applied. Testoderm, a testosterone patch
worn on the scrotum, was also introduced in the 1990s.
AndroGel was launched in 2000 as the first FDAapproved testosterone gel. It is applied once a day to
one or more application sites, including the upper arms,
shoulders, and abdomen. AndroGel comes in two
strengths: (1) 1%, which was the original formulation
launched in June 2000; and (2) 1.62%, which was first
sold in May 2011. At the time AndroGel 1% came on
the market in 2000, it was available only in sachets. In
2004 it became available in a metered-dose pump.
AbbVie discontinued manufacture of the AndroGel 1%
pump in December 2013.
AndroGel 1% was developed through a collaboration between Unimed and various subsidiaries of Besins’ parent company. At the time of its launch, AndroGel 1% was marketed and distributed by Solvay
Pharmaceuticals, Inc. (“Solvay”), the parent company
of Unimed. Abbott Laboratories acquired Solvay and
Unimed in February 2010. At that time Solvay was renamed Abbott Products Inc. In January 2013, AbbVie
assumed all of Abbott’s proprietary pharmaceutical
business, including AndroGel 1%.
As the first gel in the market, AndroGel achieved
great commercial success and quickly became one of
Solvay’s “flagship” products. In 2009, AndroGel’s U.S.
net sales were approximately $604 million and in 2010,
that number grew to $726 million. After AbbVie3 ac3

As stated above, AbbVie acquired all of Abbott’s proprietary pharmaceutical business in 2013. Hereafter we will refer to
Abbott as “AbbVie.”

101a
quired Solvay and Unimed in 2010, sales of AndroGel
continued to grow, and AndroGel became one of
AbbVie’s blockbuster drugs. In 2011, U.S. net sales for
AndroGel reached $874 billion and in 2012, U.S. net
sales surpassed $1.15 billion. In 2013, AndroGel’s U.S.
net sales were approximately $1.035 billion while in
2014, net sales totaled $934 million. After entry of generic versions of AndroGel 1%, AndroGel U.S. net sales
fell to $694 million in 2015. Throughout this time,
AbbVie maintained a high profit margin of approximately 65% on AndroGel.
Transdermal gels have several advantages over the
other forms of TRTs. A gel is relatively easy for a patient to apply without the potential for pain or discomfort associated with an injection. It also allows the patient to maintain a steady testosterone level without
peaks and troughs. As compared to the patch form of
testosterone, it has a lower rate of irritation and is not
visible.
Gels such as AndroGel, however, are not without
some drawbacks. There is a serious but rare risk of
secondary exposure associated with gels, whereby testosterone may be transferred from a patient to others,
including women and children, through skin-to-skin
contact. Precautions such as washing hands after application and covering the application site with a t-shirt
can prevent such exposure. Gels may also cause skin
irritation in some patients. Finally, some patients may
dislike having to apply the gel daily.
After AndroGel was released in 2000, several other
brand-name TTRTs were launched by competing
pharmaceutical companies. Testim, a 1% gel available
in a five gram tube, was approved in 2002. In 2011, two
brand-name testosterone 2% gels were brought to

102a
market: (1) Fortesta, a metered-dose pump product
applied to the thighs; and (2) Axiron, a solution that is
dispensed from a metered-dose pump and is applied to
the underarms using a silicon applicator. And in 2014
Vogelxo, another brand-name low-volume testosterone
gel, was launched along with an authorized generic version of the same product.
In addition to injectables and TTRTs, several other
forms of TRT have been approved by the FDA. Striant, a buccal testosterone tablet that is applied twice
daily to gums, was released in 2003. Testopel, a pellet
that is surgically inserted in the hip, buttocks, or thigh
every three to six months, was approved in 2008. And
in 2014 the FDA approved Natesto, a nasal testosterone spray that is administered three times a day.
AndroGel 1% is protected by the ’894 patent. That
patent is owned by Besins and by Unimed, which as
discussed above, was a wholly-owned subsidiary of Solvay until 2010. Laboratoires Besins Iscovesco SA, a
subsidiary ultimately owned by Besins’ parent company and now known as Laboratoires Besins Iscovesco
SAS (“LBI SAS”), licensed to Unimed certain intellectual property rights to AndroGel. In return, Unimed
was obligated to pay a royalty on net sales of AndroGel.
Under a separate supply agreement, LBI SAS agreed
to manufacture and to sell to Unimed AndroGel products for sale and distribution by Unimed in the United
States.4

4

AbbVie and Besins later amended the license and supply
agreements to include AndroGel 1.62%. Royalties on U.S. sales of
AndroGel 1.62% are paid to LBI SAS or Besins Healthcare Luxembourg SARL (“BHL SARL”).

103a
We have previously discussed the prosecution history of the ’894 patent in our September 15, 2017 Memorandum (Doc. # 300) and therefore need not restate it
in detail here. See AbbVie, 2017 WL 4098688, at *1-4.
In summary, the initial patent application that resulted
in the ’894 patent claimed a pharmaceutical composition
of a testosterone gel including a penetration enhancer,
which according to the patent application “is an agent
known to accelerate the delivery of the drug through
the skin into the bloodstream.” Id. at *1-2. The patent
application claimed all penetration enhancers including
isopropyl myristate, the penetration enhancer actually
used in AndroGel. Id. at *2. The patent examiner at
the U.S. Patent and Trademark Office (“PTO”) rejected
the claim which included all penetration enhancers. Id.
Thereafter, Unimed and Besins submitted an amendment narrowing their claim encompassing all penetration enhancers to a claim naming only twenty-four specific penetration enhancers, including isopropyl
myristate. Id. at *2-3. After a series of additional
amendments, Unimed and Besins further narrowed
their claim to one penetration enhancer, isopropyl
myristate, only. Id. at *3. On this basis, the ’894 patent
was issued on January 7, 2003. Id. at *4. It is scheduled to expire on January 6, 2020.
As is often the case with successful pharmaceutical
products, generic manufacturers sought entry into the
market to compete with AndroGel. In December 2008,
Perrigo submitted to the FDA two ANDAs for a generic testosterone 1% gel in both pump and packet form.
The ANDAs referenced AndroGel and the ’894 patent.
However, the Perrigo product contained isostearic acid
as its penetration enhancer rather than AndroGel’s isopropyl myristate claimed in the ’894 patent.

104a
Pursuant to the procedures established by the
Hatch-Waxman Act, Perrigo in June 2009 served paragraph IV notices on both Unimed and Besins as coowners of the ’894 patent. In those notices, Perrigo
disclosed the filing of its ANDAs for a generic 1% testosterone gel. Perrigo further asserted that its ANDAs would not infringe the ’894 patent for AndroGel
because the Perrigo products did not contain “about
0.1% to about 5% isopropyl myristate,” the sole penetration enhancer formulation claimed in the patent.
Perrigo also stated in its notices that the prosecution
history of the ’894 patent would estop Unimed and Besins from filing a patent infringement claim. Finally,
Perrigo offered to provide to outside counsel representing Unimed and Besins confidential access to the full
ANDAs.
Thereafter Unimed and Besins, along with
Unimed’s parent Solvay, jointly retained the law firm
of Finnegan, Henderson, Farabow, Garrett and Dunner, LLP (“Finnegan, Henderson”) to assess the Perrigo paragraph IV notices and the Perrigo ANDAs. Finnegan, Henderson obtained confidential access to the
full ANDAs and confirmed that Perrigo’s ANDAs contained isostearic acid, not isopropyl myristate. Besins
also separately retained the law firm of Foley and
Lardner LLP (“Foley and Lardner”). Outside counsel
at Foley and Lardner did not receive confidential access to the ANDAs.
On July 17, 2009, Solvay and Unimed issued a press
release announcing that “[a]fter careful evaluation” the
companies had decided not to file a patent infringement
suit against Perrigo. The press release explained that
the Perrigo product “contains a different formulation
than the formulation protected by the AndroGel patent.” It further stated that “[t]his distinction played a

105a
role in the company’s decision not to file patent infringement litigation at this time” but “the company
does not waive its right to initiate patent infringement
litigation at a later stage based on new or additional
facts and circumstances.” The ultimate decision not to
file suit was made by Solvay in-house attorneys Shannon Klinger, Peter Edwards, and Dominique Dussard.
Besins also determined that it was “standing down”
from bringing an infringement suit but did not join in
the Solvay press release or issue its own public announcement.
Sometime in 2009, the FDA became aware of cases
of accidental secondary exposure of children to TTRTs
due to skin-to-skin transference from patients using
these products. Based on this information, the FDA
required safety-related labeling changes and a Risk
Evaluation and Mitigation Strategy (“REMS”) for
transdermal testosterone gel products currently on the
market. Thereafter Auxilium Pharmaceuticals, Inc.,
the manufacturer of Testim, submitted a citizen petition to the FDA regarding a generic version of Testim.
To facilitate the drug approval process, the FDA permits private entities to provide comments and opinions
by filing citizen petitions. 21 C.F.R. § 10.30. A petition
can request that the FDA “issue, amend, or revoke a
regulation or order or take or refrain from taking any
other form of administrative action.” Id.
In response to the Auxilium citizen petition, the
FDA directed on August 26, 2009 that any application
for a generic testosterone gel product containing a penetration enhancer different from the referenced brandname drug would be required to be submitted as a section 505(b)(2) NDA rather than an ANDA. The application must also include certain additional safety studies regarding the risk of secondary exposure.

106a
On April 9, 2010, AbbVie, now the owner of AndroGel, filed its own citizen petition with the FDA. In
that petition, AbbVie noted the FDA’s ruling in response to the Auxilium citizen petition regarding all
generic testosterone products containing penetration
enhancers different than those contained in the reference-listed brand-name drug. AbbVie thus sought assurance from the FDA that Perrigo would be required
to resubmit its 2009 ANDAs referencing AndroGel as
section 505(b)(2) NDAs. AbbVie also requested that
Perrigo be directed to provide to the AndroGel patent
holders a new paragraph IV notice. Finally, it asked
that Perrigo be required to conduct transfer and handwashing studies as set forth in the FDA’s response to
the Auxilium petition.
On October 4, 2010, the FDA granted in part and
denied in part AbbVie’s citizen petition. The FDA directed that any application by a generic manufacturer
for a product referencing AndroGel that contained a
different penetration enhancer must be submitted as a
section 505(b)(2) NDA. It also agreed that the applicants would be required to submit new paragraph IV
notices.
On January 13, 2011, Teva filed a section 505(b)(2)
NDA for its generic version of AndroGel 1% which described a different penetration enhancer, isopropyl
palmitate, than AbbVie used in its brand-name AndroGel. The application sought approval to manufacture
and to distribute the product in two different sachet
sizes as well as in a pump form. This application superseded an ANDA for generic testosterone that Teva had
filed on December 29, 2008, prior to the FDA’s ruling
on the Auxilium citizen petition.

107a
On March 16, 2011, Teva sent to Solvay, AbbVie,
Unimed, and Besins a paragraph IV notice regarding
its section 505(b)(2) NDA. Teva asserted that its product did not infringe the ’894 patent because “the Teva
formulation does not contain isopropyl myristate,” the
penetration enhancer claimed in the ’894 patent. Teva
laid out the prosecution history of the ’894 patent and
its position that, because the claims of the ’894 patent
were narrowed to disclose only isopropyl myristate,
“the prosecution history estops the patentees from asserting infringement under the doctrine of equivalents.” Teva also offered confidential access to certain
information regarding its section 505(b)(2) NDA to allow the patent holders to assess whether an infringement action would have merit.
AbbVie retained outside counsel at the law firm of
Munger, Tolles and Olson LLP (“Munger Tolles”) to
evaluate the Teva paragraph IV notice. Counsel at
Munger Tolles was provided with access to the Teva
section 505(b)(2) NDA and provided in-house counsel at
AbbVie with its opinion. Besins again retained Foley
and Lardner to evaluate the notice. Foley and Lardner
was supplied with confidential access to the NDA and
submitted its analysis to Besins.
On April 29, 2011, within 45 days after receiving
the paragraph IV notice, AbbVie, Unimed, and Besins
commenced an action in the U.S. District Court for the
District of Delaware alleging the Teva’s product infringed the ’894 patent.5 See Abbott Prods., Inc. v. Teva
Pharm. USA, Inc., No. 11-384 (D. Del. Apr. 29, 2011).
The suit against Teva triggered the Hatch-Waxman
5

As one witness explained at trial, most patent infringement
suits are filed in either the District of Delaware or the District of
New Jersey because “they tend to be slow-moving dockets.”

108a
automatic stay of FDA approval of the Teva product.
Consequently, the FDA could not approve Teva’s generic testosterone drug for 30 months after March 16,
2011 or until September 17, 2013 unless the district
court resolved the lawsuit sooner.
The intellectual property (“IP”) litigation group at
AbbVie had direct accountability for patent litigation.
Four in-house patent attorneys in that group had final
responsibility for evaluating the Teva paragraph IV
notice and made the decision to file the patent infringement suit against Teva: (1) Johanna Corbin; (2)
Adam Chiss; (3) Anat Hakim; and (4) Jose Rivera. All
of these attorneys had extensive experience in patent
law and with AbbVie. Corbin is currently vice president of the IP group and the lead IP attorney at
AbbVie who has worked in that group since 2005.
Chiss was divisional vice president of IP litigation and
before that had served as senior counsel in IP litigation.
Anat Hakim was divisional vice president and associate
general counsel of IP litigation at AbbVie and previously had been a partner at Foley and Lardner. Finally,
Rivera was a divisional vice president of the IP group
and had previously worked in private practice. The
general counsel of AbbVie, Laura Schumacher, also
signed off on the final decision. Schumacher has been
with AbbVie since 2005. No business persons at
AbbVie were involved in the decision to sue. At trial,
AbbVie presented evidence that the decision whether
to file a complaint is always made solely by the legal
department and does not require approval from management.
As for Besins, the decision to sue was made by
Thomas MacAllister, its in-house counsel. MacAllister
is an experienced intellectual property attorney who
previously worked as a patent examiner at the U.S. Pa-

109a
tent and Trademark Office. Besins conferred with outside counsel as well as AbbVie about the Teva product
and potential litigation. Like AbbVie, Besins or its
agents had confidential access to the portions of Teva’s
NDA that disclosed the formulation of its product prior
to filing the complaint against Teva. In addition, inhouse counsel for Besins conferred with in-house counsel for AbbVie before making the decision to initiate
the lawsuit.
Around this time AbbVie also was preparing for
FDA approval and launch of its low-volume formulation
of AndroGel, known as AndroGel 1.62%. The FDA issued final approval of brand-name AndroGel 1.62% on
April 29, 2011, and AbbVie began selling it in May 2011.
The 1.62% formulation is indicated for the same condition and has the same active ingredient but less total
gel. Sales of AndroGel 1.62% grew more slowly after
launch in 2011 than defendants initially anticipated but
by June 2012 constituted the majority of total AndroGel sales. AndroGel 1.62% accounted for total AndroGel sales as follows: 57% during the last 7 months of
2012, 67% in 2013, 76% in 2014, and 83% in 2015.
In June 2011, Teva submitted a case status report
proposing a schedule for early summary judgment proceedings in the patent infringement suit in the District
of Delaware. AbbVie, Unimed, and Besins filed a supplemental case status report opposing any summary
judgment proceedings. On August 1, 2011, before discovery had commenced, Teva filed a motion for summary judgment. Teva asserted that based on prosecution history estoppel there could be no viable claim of
infringement of the ’894 patent. On October 25, 2011,
the court set trial on the issue of prosecution history
estoppel for May 21, 2012.

110a
On August 18, 2011, AbbVie filed a citizen petition
with the FDA requesting that it refrain from granting
a therapeutic equivalence rating to section 505(b)(2)
products referencing AndroGel, including Teva’s testosterone product, or in the alternative, requesting that
it assign the product a BX rating. If a BX rating was
assigned, there could be no automatic substitution at
the pharmacy under state law.
Meanwhile, on July 4, 2011 Perrigo re-filed with the
FDA its application for approval of a generic testosterone 1% gel as a section 505(b)(2) NDA. On September 20, 2011, Perrigo sent AbbVie, Unimed, and Besins
a new paragraph IV notice. As in its 2009 notice, Perrigo certified that the ’894 patent was not infringed because its generic testosterone product did not contain
“about 0.1% to 0.5% isopropyl myristate,” the penetration enhancer claimed in the patent.
Perrigo’s letter also explained that the prosecution
history of the ’894 patent precluded any valid infringement claim. Perrigo stated that “a lawsuit asserting
the ’894 patent against Perrigo would be objectively
baseless and a sham, brought in bad faith for the improper purpose of, inter alia, delaying Perrigo’s NDA
approval.” It further asserted that “a bad faith motive
for bringing such a suit would be particularly apparent
in light of representations and admissions made, inter
alia, in [Solvay’s] Friday, July 17, 2009 press release.”
Perrigo offered confidential access to certain information regarding the NDA. Again, AbbVie and
Unimed retained Munger Tolles as outside counsel to
analyze Perrigo’s NDA. Foley and Lardner evaluated
Perrigo’s NDA on behalf of Besins and also issued its
opinion to Besins.

111a
On October 31, 2011, AbbVie, Unimed, and Besins
filed suit in the District of New Jersey alleging that
Perrigo’s 1% testosterone gel infringed the ’894 patent.
See Abbott Prods., Inc. v. Perrigo Co., 11-6357 (D.N.J.
Oct. 31, 2011). As in the Teva litigation, the filing of the
complaint against Perrigo triggered an automatic 30month stay under the Hatch-Waxman Act. Thus, absent a court ruling or settlement resolving the litigation, the stay would preclude final FDA approval of the
Perrigo generic testosterone product until March 20,
2014.
The same four AbbVie in-house attorneys as had
made the decision to sue Teva again made the decision
to file the suit against Perrigo with approval from the
same general counsel. They conferred with outside
counsel, who had confidential access to the Perrigo section 505(b)(2) NDA. No AbbVie business person was
involved in the decision to file the Perrigo action. After
consultation with AbbVie and outside counsel, Besins’
same in-house attorney made the decision that it would
join in bringing the Perrigo litigation.
AbbVie reached out to Teva to discuss an amicable
resolution of the dispute before the complaint was filed
in April 2011. Perry Siatis, an in-house attorney for
AbbVie, was the main negotiator on behalf of AbbVie.6
At that time, Siatis was Divisional Vice President of
the IP strategy group and head intellectual property
attorney at AbbVie. Although that initial contact did
not lead to a settlement, AbbVie again raised the subject with Teva during an in-person meeting on October
28, 2011, three days after the court in the Teva litiga6

Siatis had no involvement in the decision to sue either Teva
or Perrigo for patent infringement.

112a
tion had set a trial date. Although Teva at the outset
pushed for an entry date as early as September 17,
2013, the final date of the 30-month Hatch-Waxman
stay, AbbVie countered with an entry date of January
1, 2015. AbbVie thereafter agreed to an entry date of
December 27, 2014, which would allow Teva to make
some sales in 2014. On December 20, 2011 the parties
reached a final settlement in the Teva litigation, in
which Teva received a license to launch its product beginning December 27, 2014.7
While the Teva negotiations were ongoing, settlement negotiations were taking place in the Perrigo litigation. Sometime on or before November 3, 2011, Siatis approached Perrigo to initiate settlement negotiations. On December 8, 2011 the parties executed a
binding term sheet, which included the dismissal of all
claims and counterclaims with prejudice. In addition,
AbbVie agreed to pay Perrigo $2 million dollars as reasonable litigation expenses.
During the negotiations Perrigo pushed for an earlier entry date but was unsuccessful and ultimately accepted an offer from defendants of January 1, 2015.
However, the settlement contained an acceleration
clause whereby Perrigo would be permitted to launch if
another generic came to market. Andrew Solomon,
general counsel for Perrigo, explained that the company had been monitoring the Teva litigation and thought
there was “a very good probability Teva could prevail”
7

During this time AbbVie was negotiating with Teva regarding disputes related to two other drugs, Simcor and TriCor.
Agreements related to Simcor and TriCor were executed on the
same day as the AndroGel settlement. However, there is no evidence that these negotiations were linked to the AndroGel settlement.

113a
at the trial scheduled for May 2012 and thereafter
launch its product, so “that would provide a much earlier Perrigo license date.” As a result of the Teva settlement, Perrigo’s licensed entry date was moved up to
December 27, 2014 under the acceleration clause.
On February 14, 2012, the FDA approved Teva’s
section 505(b)(2) NDA for the packet presentation of its
TTRT product. During review of the application, the
FDA had identified a potential safety concern with the
packaging used in the pump presentation of the drug.8
In response to this concern, Teva withdrew the pump
presentation from its application. As a result, the FDA
approved Teva’s product in sachet form only.
After receiving FDA approval, Teva waited for the
FDA Office of Generic Drugs to assign a TE rating for
its product. On December 21, 2012, AbbVie filed a citizen petition supplement requesting that the FDA refrain from granting a TE rating to Teva’s product or, in
the alternative, grant it a BX rating.
Later, on January 31, 2013, the FDA approved
Perrigo’s section 505(b)(2) NDA for its generic version
of AndroGel 1%. Thereafter the FDA considered a TE
rating for Perrigo’s generic product. During this period, AbbVie filed an additional citizen petition on December 11, 2013. The December 11, 2013 citizen petition supplemented the August 18, 2011 citizen petition
and requested that the FDA issue a BX rating for Perrigo’s product.

8

Specifically, during a meeting on June 27, 2011, the FDA
recommended that Teva withdraw its pump configuration with the
option to resubmit it as a post-approval amendment once the issue
was resolved.

114a
In the months before its December 27, 2014 licensed entry date approached, Perrigo took a number
of steps to follow up with the FDA regarding its TE
rating. Perrigo sent three letters to the FDA. It received no response other than being informed that the
FDA needed more time to evaluate the therapeutic
equivalence of the product.
Perrigo filed a lawsuit against the FDA in the
United States District Court for the District of Columbia on March 21, 2014. See Perrigo Israel Pharm. Ltd.
v. U.S. Food & Drug Admin., No. 14-475 (D.D.C. Mar.
21, 2014). Perrigo asserted that the FDA had engaged
in unreasonable delay. It requested that the court enter a mandatory injunction compelling the FDA to publish a TE rating for Perrigo’s NDA product as soon as
possible. On April 10, 2014, the FDA filed its first response to the lawsuit. The FDA contended that “Perrigo has itself obviated the need for a prompt decision
by reaching an agreement with the innovator not to
market until December 2014.” The FDA further represented that it expected to issue a TE rating for Perrigo’s product “by July 31, 2014—some five months before Perrigo’s planned product launch.”
Prior to the deadline, on July 23, 2014, the FDA determined that Perrigo’s section 505(b)(2) NDA product
was therapeutically equivalent to AndroGel and issued
it an AB rating.9 That same day, however, the FDA
assigned a BX rating to Teva’s product. Specifically,
the FDA concluded that the data submitted by Teva
was “insufficient to determine TE [therapeutic equivalence] to AndroGel 1%.” As a result, under all state
9

Perrigo voluntarily dismissed the lawsuit on July 24, 2014,
one day after the FDA issued its TE rating to Perrigo.

115a
laws the Perrigo generic testosterone product would be
auto-substitutable at the pharmacy for brand-name
AndroGel 1% prescriptions, but the Teva product
would not.
Perrigo launched its AB-rated generic version of
AndroGel 1% on December 27, 2014, its licensed entry
date under the settlement agreement with defendants.
Perrigo would not have entered the market without
first receiving a decision from the FDA on its TE rating. Perrigo achieved its goal to obtain an AB rating
for its product and would have challenged the FDA had
it received only a BX rating.
Teva, in contrast, never set in motion the sale of its
generic testosterone replacement product. Timothy
Crew, Teva’s Commercial Operations Officer from the
time that Teva filed its NDA until late 2012, was a
strong proponent of bringing the Teva product to market even absent an AB rating. Crew identified a
“‘brand’ push through managed care” marketing strategy in which Teva would go directly to managed care
organizations and pharmacy benefit managers in an attempt to negotiate preferential formulary placement
for a non-AB rated product and thereby influence physicians’ prescribing decisions.10 Crew considered the
Teva generic testosterone product his “pet project.”
Teva underwent management changes in November 2012. Crew left the company, and Alan Oberman
10

A formulary is a “listing of medications for which an insurer
or managed care organization provides coverage.” See Saltzman
v. Indep. Blue Cross, 384 F. App’x 107, 109 n.3 (3d Cir. 2010) (citations omitted). Formularies generally divide medications into tiers
with different copays for each tier. See id. at 109. Typically, the
first tier includes generic medications with the lowest copay, while
higher tiers include brand-name drugs with higher copays. See id.

116a
became the new Chief Executive Officer of Teva.
Shortly thereafter, Maureen Cavanaugh, Vice President of Customer Operations and Marketing for Teva,
recommended to Oberman that Teva not launch the BX
rated product. Cavanaugh explained that Teva’s generic group had no sales force and had never launched a
non-AB rated retail pharmacy product. She further
opined that a BX-rated product with no perceived advantage over brand-name AndroGel would capture only
10-11% of the brand-name product’s sales and perhaps
less than 5%.
Teva faced other obstacles to launching its BXrated product. Teva had contracted with Cipla, an India-based company, to manufacture its generic testosterone replacement drug. Before it could begin the
manufacturing process, Cipla required a $10 million
capital expenditure from Teva, which could be paid up
front or over time through a 35% royalty on sales. Cipla projected that it would require 12-24 months or
more to achieve operational readiness. Pursuant to another contract, Teva was also required to pay a royalty
of 5-7.5% on sales to a third company, BioSante.
As discussed above, Teva had received FDA approval for the sachet presentation of its product only.
At the time that Teva withdrew the pump presentation
from consideration by the FDA, pump sales made up
40-50% of AndroGel sales. Thus the failure to obtain
approval for a pump product had a negative impact on
the commercial viability of Teva’s product.
Ultimately, on May 1, 2015, Teva transferred ownership of the 505(b)(2) NDA product and all intellectual
property necessary to market the product to ANI
Pharmaceuticals, Inc. (“ANI”), its development partner.

117a
III
To prevail on its claim of illegal monopolization, the
FTC must establish that defendants filed sham litigation against Teva and Perrigo as outlined by the Supreme Court in PRE. Whether litigation is a sham involves a two part test. We have already resolved the
first part of the test, that is, that the lawsuits were objectively baseless in the sense that “no reasonable litigant could realistically expect success on the merits.”
AbbVie Inc., 2017 WL 4098688, at *4 (quoting PRE, 508
U.S. at 60). The second part of the test requires the
court to decide whether defendants subjectively intended to interfere directly with a competitor’s business interests by using the government process as an
anticompetitive weapon. PRE, 508 U.S. at 60-61. Only
if the lawsuits were both objectively and subjectively
baseless will the FTC have demonstrated that defendants engaged in sham litigation.
As stated above, we have already determined that
the lawsuits against Teva and Perrigo in 2011 were objectively baseless as a matter of law in light of the undisputed facts concerning the prosecution history of the
’894 patent. See AbbVie Inc., 2017 WL 4098688, at *1-4,
*11. We found that Unimed and Besins secured the
’894 patent only by amending their patent application
from an initially broad claim covering all penetration
enhancers to a narrow claim covering only one penetration enhancer-isopropyl myristate at a particular concentration. See id. at *6-8, *10. Instead of isopropyl
myristate, Teva used isopropyl palmitate and Perrigo
used isostearic acid as a penetration enhancer in their
generic versions of AndroGel. We concluded that “any
reasonable person who reads the prosecution history of
the ’894 patent can reach no other conclusion than that
the applicants have purposefully and not tangentially

118a
excluded isopropyl palmitate and isostearic acid as penetration enhancers equivalent to isopropyl myristate.”
Id. at *11.
We emphasized that “the purpose of prosecution
history estoppel is to protect the patentees’ competitors from patent infringement litigation based on the
doctrine of equivalents if the prosecution history
demonstrates that an equivalent not specifically disclosed in the patent has been purposefully and not tangentially excluded from its scope.” Id. at *11. Given
the patent prosecution history for the ’894 patent,
AbbVie and Besins did not tangentially exclude all other penetration enhancers and could not reasonably have
expected success on the merits in their suits against
Teva and Perrigo alleging patent infringement under
the doctrine of equivalents.11 Id.
Defendants cannot have it both ways. They cannot,
as they did here, purposely surrender claims to all penetration enhancers except one to obtain a patent and
then claim infringement when a party uses a penetration enhancer that they deliberately surrendered. See
id. at *10-11.
We now focus our inquiry on the subjective component of the FTC’s sham litigation claim, which was one
of the issues litigated in the nonjury trial held in this
action. At the outset, we readily acknowledge that a
plaintiff claiming that a lawsuit was a sham faces an
uphill battle. The First Amendment to the United
States Constitution prohibits Congress from making
any law respecting “the right of the people … to peti11

Defendants have moved for reconsideration of that decision. On June 27, 2018, we denied the motion in a separate order
(Doc. # 438).

119a
tion the Government for a redress of grievances.” U.S.
Const. amend. I. It is well-established that the First
Amendment right to petition the government includes
the right to have access to the courts. PRE, 508 U.S. at
56-57; see also U.S. Const. amend. I. Under the NoerrPennington doctrine articulated by the Supreme Court,
“[t]hose who petition [the] government for redress are
generally immune from antitrust liability.”12 PRE, 508
U.S. at 56. Noerr-Pennington immunity, however, is
not absolute. “[A]ctivity ‘ostensibly directed toward
influencing governmental action’ does not qualify for
[First Amendment] immunity if it ‘is a mere sham to
cover … an attempt to interfere directly with the business relationships of a competitor.’” Id. at 51 (quoting
E. R.R. Presidents Conference v. Noerr Motor Freight,
Inc., 365 U.S. 127, 144 (1961) (alterations in original)).
Later, in City of Columbia v. Omni Outdoor Advertising, Inc., the Supreme Court explained:
The ‘sham’ exception to Noerr encompasses
situations in which persons use the governmental process-as opposed to the outcome of the
process-as an anticompetitive weapon. A clas12

The Noerr-Pennington doctrine originated from two separate antitrust cases, United Mine Workers of America v. Pennington, 381 U.S. 657 (1965) and Eastern Railroad Presidents Conference v. Noerr Motor Freight, Inc., 365 U.S. 127 (1961). Pennington
involved efforts by several companies and a union to lobby the
Secretary of Labor regarding minimum wage regulations. 381
U.S. at 660. In Noerr, a group of railroads engaged in a publicity
campaign designed to foster the adoption of certain laws and regulations harmful to the trucking industry. 365 U.S. at 129-30. The
doctrine has since been extended to persons who petition the
courts, in addition to legislatures and administrative agencies. See
Ca. Motor Transp. Co. v. Trucking Unlimited, 404 U.S. 508, 509-10
(1972).

120a
sic example is the filing of frivolous objections
to the license application of a competitor, with
no expectation of achieving denial of a license
but simply in order to impose expense and delay.
499 U.S. 365, 380 (1991) (emphasis omitted).
We must initially decide not only the type of proof
but also the burden of proof which are required to establish subjective intent. The parties disagree regarding both. According to defendants, the FTC must show
that they brought the patent infringement actions with
actual knowledge that actions were baseless. The FTC,
in contrast, asserts that actual knowledge or bad faith
is not required under PRE. Instead, the FTC argues
that the subjective baselessness inquiry concerns only
“whether the baseless lawsuit conceals an attempt to
interfere directly with the business relationships of a
competitor.” See PRE, 508 U.S. at 60-61 (internal citation and quotation marks omitted). Accordingly, the
FTC urges the court to focus on the “economic viability” of the lawsuit and whether defendants “sue[d] primarily for the benefit of collateral injuries inflicted
through the use of legal process.” Id. at 65.
Unfortunately, the Supreme Court in PRE did not
elaborate on this issue. In that case, the Court of Appeals had affirmed an order granting summary judgment for the plaintiff on the defendant’s counterclaim
alleging a sham lawsuit. Id. at 62-65. The Supreme
Court agreed with the Court of Appeals that the lawsuit was not objectively baseless and thus did not reach
the subjective intent question. Id. at 65-66.
In support of its position, the FTC cites Kilopass
Techology, Inc. v. Sidense Corp., 738 F.3d 1302 (Fed.
Cir. 2013). That case, however, involved a motion for

121a
attorneys’ fees under 35 U.S.C. § 285, which provides
that a court “in exceptional cases may award reasonable attorneys’ fees to the prevailing party.” 738 F.3d at
1304, 1312. The Federal Circuit held that “actual
knowledge of baselessness is not required” and that “a
defendant need only prove reckless conduct to satisfy
the subjective component of the § 285 analysis.” Id. at
1310. It further explained that courts may “dra[w] an
inference of bad faith from circumstantial evidence
thereof when a patentee pursues claims that are devoid
of merit” and that “[o]bjective baselessness alone can
create a sufficient inference of bad faith to establish exceptionality under § 285, unless the circumstances as a
whole show a lack of recklessness on the patentee’s
part.” Id. at 1311, 1314.
Since then, the Supreme Court has expressly distinguished the standard for a claim of sham litigation
from that applicable to motions for attorneys’ fees under § 285. See Octane Fitness, LLC v. ICON Health &
Fitness, Inc., 134 S. Ct. 1749, 1757-58 (2014). The Court
reasoned that the Noerr-Pennington doctrine was created as “a narrow exception for ‘sham litigation’—to
avoid chilling the exercise of the First Amendment
right to petition the government for the redress of
grievances.” Id. at 1757. It further observed that
“[t]he threat of antitrust liability … far more significantly chills the exercise of the right to petition than
does the mere shifting of attorney’s fees.” Id. Thus the
standard for fee-shifting, which is governed by the
statutory language of 35 U.S.C. § 285, is irrelevant to
the subjective intent standard for sham litigation under
PRE. Id.
Many of the authorities cited by the FTC are not
helpful to our analysis regarding subjective intent. For

122a
example, in In re Flonase Antitrust Litigation, the defendant conceded that there was sufficient evidence for
plaintiffs to survive summary judgment on subjective
intent and as a result the court did not address the issue. 795 F. Supp. 2d 300, 311 (E.D. Pa. 2011). Other
authorities cited by the FTC dealt with motions to dismiss and do not contain a fulsome analysis of the evidence required to support the subjective intent prong
of PRE. See Moldex Metric, Inc. v. 3M Co., No. 141821, 2015 WL 520722, at *7, *9 (D. Minn. Feb. 9, 2015);
TransWeb, LLC v. 3M Innovative Props. Co., No. 104413, 2011 WL 2181189, at *15 (D.N.J. June 1, 2011);
Rochester Drug Coop., Inc. v. Braintree Labs., 712 F.
Supp. 2d 308, 316, 319-21 (D. Del. 2010); In re Cardizem
CD Antitrust Litig., 105 F. Supp. 2d 618, 643-44 (E.D.
Mich. 2000).
After review of the decisions cited by both parties,
we conclude that the subjective intent required to
overcome Noerr-Pennington immunity is not merely
the intent to thwart competition. It is well-established
that “the essence of a patent grant is the right to exclude others from profiting by the patented invention”
and thereby to interfere with a competitor’s business.
See Dawson Chem. Co. v. Rohm & Haas Co., 448 U.S.
176, 215 (1980). As our Court of Appeals has recognized, the Hatch-Waxman Act “incentivizes brandname drug manufacturers to promptly file patent infringement suits by rewarding them with a stay of up
to 30 months if they do so” and therefore “[w]e are not
inclined to penalize a brand-name manufacturer whose
litigiousness was a product of Hatch-Waxman.” In re
Wellbutrin, 868 F.3d at 157-58 (internal quotation
marks and citation omitted). Knowledge that the filing
of a lawsuit would trigger the automatic stay is not by
itself evidence of a bad-faith motive. Id.; see also In re

123a
Terazosin Hydrochloride Antitrust Litig., 335 F. Supp.
2d 1336, 1365 (S.D. Fla. 2004).
As the Supreme Court noted in Omni Outdoor Advertising, a classic example of “sham” activity is the filing of frivolous objections to a license application with
no expectation of prevailing but simply in order to impose expense and delay. See 499 U.S. at 380. Clearly, a
frivolous lawsuit under those same circumstances is also a sham.
The sham exception under NoerrPennington, of course, is narrow so as not to infringe
on a party’s constitutional right to petition the government for redress of grievances. Consequently, we conclude that the FTC must prove that defendants had actual knowledge that the patent infringement suits here
were baseless in order both to meet its burden under
Omni Outdoor Advertising and PRE and to avoid interference with defendants’ First Amendment rights.
The parties, as noted above, further disagree as to
the burden of proof required to establish subjective intent. The FTC contends that it must simply satisfy a
preponderance of the evidence standard, the general
standard for civil antitrust claims. See, e.g., LePage’s
Inc. v. 3M, 324 F.3d 141, 166-69 (3d Cir. 2003). Defendants counter that a finding of subjective intent demands clear and convincing evidence.
The Supreme Court has not addressed this question. Nor has our Court of Appeals. The Courts of Appeals for the Ninth and Seventh Circuits in decisions
that predate PRE have both required clear and convincing evidence that defendants prosecuted actions in
bad faith to satisfy the subjective prong of a sham litigation claim. See Handgards, Inc. v. Ethicon, Inc., 743
F.2d 1282, 1288-93 (9th Cir. 1984); MCI Commc’ns

124a
Corp. v. Am. Tel. & Tel. Co., 708 F.2d 1081, 1155 (7th
Cir. 1983).
In support of their position that clear and convincing evidence is required, defendants point to Walker
Process Equipment, Inc. v. Food Machinery and
Chemical Corp., 382 U.S. 172 (1965). There, the Supreme Court held that an allegation that the defendant
“knowingly and willfully” obtained a patent through
fraudulent representations to the Patent Office would
not be entitled to Noerr-Pennington immunity for a
subsequent lawsuit alleging infringement of that patent. 382 U.S. at 177-78. The Federal Circuit has since
specified that clear and convincing evidence is needed
to establish a Walker Process monopolization claim.
See C.R. Bard, Inc. v. M3 Sys., Inc., 157 F.3d 1340, 1364
(Fed. Cir. 1998). It observed that “[t]he road to the Patent Office is so tortuous and patent litigation is usually
so complex,” that there must be “no less than clear,
convincing proof of intentional fraud involving affirmative dishonesty.” Id. (internal citation omitted).
The authorities cited by the FTC to support its position that a preponderance of the evidence is sufficient
are not on point. Those cases concern the standard for
an award of attorneys’ fees in a patent case under 35
U.S.C. § 285, not the subjective intent standard for
sham litigation antitrust claims. See, e.g., Kilopass
Tech., Inc., 738 F.3d at 1315-16. As stated above, the
Supreme Court has expressly distinguished sham litigation in the Noerr-Pennington context from motions
brought under § 285. See Octane Fitness, LLC, 134 S.
Ct. at 1757-58.
We conclude that the FTC must prove by clear and
convincing evidence the subjective intent element of a
sham litigation. We do so in light of the Federal Cir-

125a
cuit’s decision in C.R. Bard as well as the importance of
the First Amendment right to petition the government
for a redress of grievances as explained in Noerr, Pennington, and California Motor Transport Co.
Having determined that the FTC has the burden to
establish by clear and convincing evidence that defendants had actual knowledge that their infringement suits
against Teva and Perrigo were baseless, we now consider the evidence presented at trial and the reasonable
inferences to be drawn therefrom.
The FTC puts great emphasis on the 2009 press release by Solvay on behalf of its subsidiary Unimed, coowner of the ’894 patent, before Solvay and Unimed
were acquired by AbbVie in February 2010. The press
release announced the companies’ decision not to sue
Perrigo for infringement of the ’894 patent after Perrigo filed with the FDA its ANDA for a generic version
of AndroGel. Solvay gave as its reason that the Perrigo
product “contains a different formulation than the formulation protected by the AndroGel patent.” The FTC
also presented evidence regarding a July 2009 email
written by MacAllister, in-house counsel for Besins,
stating that Besins, the co-owner of the ’894 patent,
was “standing down” from pursuing Perrigo for infringement.
None of the in-house AbbVie attorneys identified
as the decision-makers regarding the 2011 suits against
Teva and Perrigo was previously employed by Solvay
or Unimed. As for Besins, it did not explain whether
its decision not to pursue a patent infringement suit
was based on the merits or was simply recognizing the
reality that it alone could not initiate such a suit without Unimed, the co-owner of the ’894 patent. See, e.g.,
Int’l Nutrition Co. v. Horphag Research Ltd., 257 F.3d

126a
1324, 1331 (Fed. Cir. 2001). While Solvay and its inhouse attorneys certainly got it right in 2009, this evidence is not probative as to the subjective intent of defendants’ decision-makers here some two years later in
2011.
Both parties also rely on various business planning
documents to support their positions on subjective intent. The FTC, for example, points to an August 8,
2011 meeting attended by Jeffrey Stewart, then Vice
President of U.S. Proprietary Pharmaceuticals at
AbbVie, and several other AbbVie executives and inhouse attorneys to discuss AndroGel. This meeting
took place shortly after Teva filed its motion for summary judgment in the patent infringement case in
which AbbVie had sued it. During that meeting Stewart, looking into the future, drew a chart depicting a
dramatic erosion of AndroGel sales following entry of
an AB-rated generic after a “lost case” eight months
hence in April 2012, the month in which this court had
scheduled a hearing to take place on Teva’s summary
judgment motion.
Thereafter, AbbVie created “AndroGel Scenarios”
with various potential dates for generic entry, including: (1) November 2011, the date by which the FDA
had agreed to review Teva’s section 505(b)(2) NDA13;
(2) April 2012, the date on which the summary judgment motion could be decided in the Teva matter; and
(3) April 2013, an estimate of the date on which a trial
on the merits may have concluded in the Teva matter.
13

This is commonly known as the Prescription Drug User
Fee Act (“PDUFA”) date. Under that Act, the FDA collects a fee
from companies applying for drug approval and, in exchange, the
FDA provides a “goal date” by which it will review the application.
See 21 U.S.C. § 379h.

127a
In an email on September 30, 2011, James Hynd, one of
the AbbVie executives responsible for the AndroGel
franchise, characterized the April 2012 entry date as
“[t]he most likely scenario.”
Defendants, meanwhile, point to the official 2012
annual plan for AbbVie’s U.S. Proprietary Pharmaceuticals Division. AbbVie began work on that plan in
summer of 2011 and finalized it in late fall of 2011. In
that plan, AbbVie forecasted increased sales for AndroGel. It also projected an increase in total “Selling,
General, and Administrative” (“SG&A”) spending for
AndroGel from 2011 to 2012. While the plan “assumed
LOE [loss of exclusivity]” for several other products, it
made no mention of any loss of exclusivity for AndroGel. Defendants also highlight the AbbVie long range
plan (“LRP”) that was created in 2011. The LRP is a
five to ten year business plan that is updated every
year through a planning process that generally begins
in January and ends in May. The LRP created in 2011
uses as the loss of exclusivity date for AndroGel August 31, 2015, the licensed entry date granted to two
other generic competitors, Par Pharmaceutical and
Watson Pharmaceuticals, Inc.
We do not find these and other similar business
documents to be persuasive or even relevant to the issue of subjective intent. Significantly, none of these
corporate documents, as far as we know, was created
by or influenced anyone who played a role in the decisions to sue Teva and Perrigo for patent infringement.
Nor is there any evidence in the record as to what, if
anything, the decision-makers in the legal department
told the business people or vice versa about the merits
or prospects of the litigation. These corporate documents are simply not probative of the state of mind of
the in-house attorneys who made the decisions to sue.

128a
As evidence of their subjective good faith, defendants also rely on the fact that they obtained favorable
settlements in their lawsuits against Teva and Perrigo.
Specifically, defendants point out that they initially
proposed to both Teva and Perrigo a market entry date
of January 1, 2015, a date which extended far beyond
the maximum 30-month Hatch-Waxman stays applicable to the two lawsuits. Although Teva and Perrigo
countered on several occasions with earlier entry dates,
defendants held firm to their initial offers in both negotiations. In the end, Teva and Perrigo secured an entry
date of December 27, 2014 for their products, just days
earlier than defendants’ first proposals.14 Defendants
maintain that they would not have insisted on such a
late entry date if they knew the infringement suits
were frivolous or if they otherwise were motivated only
to use the litigation process itself and the automatic
Hatch-Waxman stay as an anti-competitive weapon.
We find this argument unpersuasive.
Parties often settle litigation for a variety of reasons independent of the merits of the claims. It is true
that the settlements prevented Teva and Perrigo from
entering the market until after the automatic HatchWaxman stays would have expired. On the other hand,
the settlements permitted Teva and Perrigo to enter
the market years before the ’894 patent was set to expire and before any other generic competitor could
come to market. They also permitted Teva and Perrigo
to limit their litigation costs, and Perrigo obtained $2
million from AbbVie for reasonable litigation expenses.
Even frivolous lawsuits can be very costly to defend
14

As stated above, Perrigo ultimately agreed to an entry date
of January 1, 2015 but this date was moved to December 27, 2014
pursuant to an acceleration clause in the contract.

129a
and to take to trial, especially when plaintiffs, such as
the defendants here, have extensive resources.
Charles Cotesworth Pinckney’s steadfast response,
“not a six-pence, sir,” in rejecting a request of French
officials for a payment of money in the XYZ Affair, and
Representative Robert Goodloe Harper’s now famous
toast in a similar vein, “Millions for Defense but not a
Cent for Tribute,” at a dinner in 1798 in Philadelphia,
while admirable in many spheres of life, generally have
no applicability in the real world when lawsuits are being settled. We find that the terms of the Teva and
Perrigo settlements here do not support defendants’
subjective good faith.
The FTC points to the various citizen petitions filed
by AbbVie regarding the applications submitted by
Teva and Perrigo for FDA approval and for TE ratings
for its products. For all of these petitions, the FDA
granted in part the relief requested by AbbVie. Because they were found to be at least partially meritorious, we do not consider the citizen petitions as evidence
of any improper subjective intent by defendants.
The FTC further points to evidence that AbbVie
attempted to accelerate the transition of patients from
AndroGel 1% to AndroGel 1.62% in summer 2011.
Again, there is no evidence that those who decided to
bring the infringement actions against Teva and Perrigo played any role in this process.
It is, of course, the FTC which bears the burden of
proof by clear and convincing evidence that defendants
had the subjective intent to file sham infringement actions against Teva and Perrigo. In determining subjective intent, the court must zoom in on the individuals at
AbbVie and Besins who made the decisions to file the
infringement actions against Teva and Perrigo and dis-

130a
cern what these individuals knew. The state of mind of
individual decision-makers is of course imputed to the
corporations for which they act. See, e.g., In re Color
Tile Inc., 475 F.3d 508, 513 (3d Cir. 2007).
The individuals, as noted above, who made the decision on behalf of AbbVie on whether to file the objectively baseless lawsuits against Teva and Perrigo were
four experienced patent attorneys with sign-off from
the general counsel of AbbVie. The record reflects that
no business executives were in any way involved—not
even with a perfunctory sign-off. As for Besins, the decision to sue was likewise made by in-house counsel for
the company. Again no business people participated in
the decisions to sue or were otherwise involved.
As the finder of fact, the court may consider both
direct and circumstantial evidence when evaluating defendants’ subjective intent. See Howard Hess Dental
Labs. Inc. v. Dentsply Intern., Inc., 602 F.3d 237, 25758 (3d Cir. 2010) (citing Advo, Inc. v. Phila. Newspapers, Inc., 51 F.3d 1191, 1199 (3d Cir. 1995)). We may
determine what weight and credence to give this evidence and may also draw reasonable inferences therefrom. See id. In making findings of fact, the court, like
jurors, should not leave common sense at the courthouse steps.
Triers of fact are routinely called upon to determine a party’s state of mind. U.S. Postal Serv. Bd. of
Governors v. Aikens, 460 U.S. 711, 716-17 (1983). As our
Supreme Court has recognized:
The law often obliges finders of fact to inquire
into a person’s state of mind. … The state of a
man’s mind is as much a fact as the state of his
digestion. It is true that it is very difficult to
prove what the state of a man’s mind at a par-

131a
ticular time is, but if it can be ascertained it is
as much as fact as anything else.
Id. (internal citations and quotations omitted). We
routinely instruct juries to decide a person’s intent in
both criminal and civil proceedings:
Often the state of mind … with which a
person acts at any given time cannot be proved
directly, because one cannot read another person’s mind and tell what he or she is thinking.
However, [defendants’] state of mind can be
proved indirectly from the surrounding circumstances. Thus, to determine [defendants’] state
of mind … at a particular time, you may consider evidence about what [defendants] said, what
[defendants] did and failed to do, how [defendants] acted, and all the other facts and circumstances shown by the evidence that may prove
what was in [defendants’] mind at that time. …
You may also consider the natural and
probable results or consequences of any acts
[defendants] knowingly did, and whether it is
reasonable to conclude that [defendants] intended those results or consequences. You
may find, but you are not required to find, that
[defendants] knew and intended the natural
and probable consequences or results of acts
[defendants] knowingly did. This means that if
you find that an ordinary person in [defendants’] situation would have naturally realized
that certain consequences would result from
[defendants’] actions, then you may find, but
you are not required to find, that [defendants]
did know and did intend that those conse-

132a
quences would result from [defendants’] actions.
Third Circuit Model Criminal Jury Instructions § 5.01.
This explanation is also reflected in our Circuit’s model
jury instructions for civil cases where intent is relevant, such as those under civil rights statutes. Those
model instructions state that a plaintiff “is not required
to produce direct evidence of intent” and that intent
“may be inferred from the existence of other facts.”
See, e.g., Third Circuit Model Civil Jury Instructions
§ 5.1.2. Because of the difficulty of proving a person’s
state of mind, intent is usually a matter of inference
from evidence in the record both in civil and criminal
cases. See Herman & MacLean v. Huddleston, 459
U.S. 375, 391 n.30 (1983); Resolution Tr. Corp. v. Fid.
& Deposit Co. of Md., 205 F.3d 615, 642-43 (3d Cir.
2000); McLean v. Alexander, 599 F.2d 1190, 1198 (3d
Cir. 1979).
None of the attorneys who was a decision-maker at
AbbVie testified at the trial. While in-house counsel
for Besins did testify, he did not say a word about his
reasoning for bringing suit against Teva and Perrigo.
Defendants invoked the attorney-client privilege as
well as the attorney work product doctrine and did not
assert reliance on advice of outside counsel as an affirmative defense.15 Defendants have cited authority
15

The FTC has not challenged the general proposition that
attorney-client privilege or the attorney work product doctrine
applies but did engage in motion practice regarding whether certain documents were in fact shielded from discovery by these privileges. It also asserted in various pretrial motions and trial briefs
that defendants waived these privileges to the extent defendants
asserted that the in-house counsel who made the decision to sue
acted in good faith.

133a
that we may not draw adverse inferences on subjective
intent from a party’s justifiable reliance on these privileges. We agree. We do not and will not draw any negative inference as to subjective intent based on defendants’ decision to invoke the attorney-client privilege
and the attorney work product doctrine and thereby to
shroud certain information from view.16 See Freedom
Card, Inc. v. JPMorgan Chase & Co., 432 F.3d 463, 47980 n.25 (3d Cir. 2005).
With no direct evidence of the subjective intent of
the decision-makers, we must decide whether their
subjective intent to file a sham lawsuit has been proven
by clear and convincing evidence from the surrounding
circumstances and the natural and probable consequences of their knowing acts. It is unrefuted that the
attorneys who decided to sue Teva and Perrigo for patent infringement were aware of the paragraph IV notices from Teva and Perrigo. In the paragraph IV notices, Teva and Perrigo declared that their products did
not contain as a penetration enhancer isopropyl
myristate in the particular concentration claimed in the
’894 patent. Outside counsel for defendants had confidential access to the section 505(b)(2) NDAs of Teva
and Perrigo, which included the penetration enhancers
used by Teva and Perrigo. Both paragraph IV notices
called to the attention of the decision-makers that any
infringement actions by defendants would be barred by
16

This is not an unusual situation. It is no different from that
faced by courts every day in criminal trials, in which juries are
instructed to make findings about intent but not to draw a negative inference based on a defendant’s failure to testify. See United
States v. Waller, 654 F.3d 430, 435-38 (3d Cir. 2011). We also note
that juries in criminal cases may rely on circumstantial evidence to
find intent beyond a reasonable doubt, a standard higher than the
clear and convincing standard applicable here. See id. at 436.

134a
prosecution history estoppel. Perrigo went so far as to
assert that any infringement suit against it would be a
sham.
The decision-makers at AbbVie and Besins in 2011
knew that Teva and Perrigo used penetration enhancers for their generic products which were distinct from
the one penetration enhancer claimed in the ’894 patent. We reasonably infer that the decision-makers also
were aware of the prosecution history of the ’894 patent
and specifically that the patent application originally
claimed all penetration enhancers including those in the
Teva and Perrigo products and that those penetration
enhancers used by Teva and Perrigo were ultimately
excluded from the protection of the ’894 patent. The
prosecution history detailed that the original claims
covered all penetration enhancers but were ultimately
reduced to one, isopropyl myristate. This history is
outlined in our prior summary judgment decision. See
AbbVie Inc., 2017 WL 4098688, at *4-11. As we found
there, “any reasonable person who reads the prosecution history of the ’894 patent” would know that all
penetration enhancers other than isopropyl myristate
in particular concentrations were surrendered. Id. at
*11.
The reason and motivation for the lawsuits against
Teva and Perrigo are also proper considerations which
inform our decision on subjective intent. See Omni
Outdoor Advertising, Inc., 499 U.S. at 380. Regardless
of what the business people knew or had in mind or
what any of AbbVie’s specific corporate documents or
business people revealed, we reasonably infer that the
patent attorneys, some of whom were long-time employees, were generally aware of the extensive financial success of AndroGel. It was no secret that AndroGel was a blockbuster product for defendants. It was

135a
bringing in hundreds of millions of dollars annually as of
2011 with a very high profit margin. Sales of AndroGel
were $604 million, $726 million, and $874 million in 2009,
2010, and 2011 respectively. The patent attorneys also
clearly recognized that the entry of generic versions of
AndroGel with their much lower prices would quickly
and significantly erode this ideal financial picture.
Their reason and motivation for the filing of these objectively baseless actions against potential competitors
was to staunch, at least for a time, this looming reversal
of fortune.
In sum, all of the decision-makers, we reiterate,
were very experienced patent attorneys, who also
knew the extensive financial benefits to defendants if
generic versions of AndroGel were kept or delayed
from entry into the market. It is a compelling inference
that they knew the law concerning the prosecution history estoppel and related principles and understood
that prosecution history estoppel barred the infringement suits against Teva and Perrigo. They decided to
file these lawsuits anyway. Since these experienced
patent attorneys filed objectively baseless infringement
lawsuits, it is reasonable to conclude that they intended
the natural and probable consequences of acts they
knowingly did. This leads ineluctably to an inference
that the subjective intent of the decision-makers was to
file sham lawsuits. We find by clear and convincing evidence that these attorneys had actual knowledge that
the infringement lawsuits they initiated in 2011 against
Teva in the United States District Court for the District of Delaware and against Perrigo in the United
States District Court for the District of New Jersey
were baseless and that they acted in bad faith. The only reason for the filing of these lawsuits was to impose
expense and delay on Teva and Perrigo so as to block

136a
their entry into the TTRT market with lower price generics and to delay defendants’ impending loss of hundreds of millions of dollars in AndroGel sales and profits. They had no expectation of prevailing in the lawsuits. See Omni Outdoor Advertising, Inc., 499 U.S. at
380. All the findings concerning subject intent are by
clear and convincing evidence. The actions and intent
of these AbbVie and Besins attorneys, of course, are
binding on the defendants.
Again, we recognize the importance of the constitutional right to petition the Government for redress of
grievances through the filing of lawsuits. For those
reasons, this court understands its responsibility to act
with caution before finding that any lawsuit was a
sham. Regrettably, this is that exceptional case compelling such a finding.
IV
The FTC alleges that defendants have violated section 5 of the FTC Act, which prohibits “[u]nfair methods of competition in or affecting commerce.” 15 U.S.C.
§ 45(a). The prohibitions under the FTC Act include,
but are not limited to, conduct that violates the Sherman Act, 15 U.S.C. §§ 1 et seq. See, e.g., FTC v. Ind.
Fed’n of Dentists, 476 U.S. 447, 454-55 (1986). Specifically, the FTC claims that defendants had monopoly
power in the TTRT market throughout the United
States and unlawfully sought to maintain that power
through the filing of the sham lawsuits against Teva
and Perrigo so as to prevent or delay the entry into the
market of much less expensive generic versions of AndroGel to the detriment of the consuming public.
Thus, to prove its claim the FTC must establish not
only that defendants engaged in sham litigation but also that the sham litigation was used to maintain mo-

137a
nopoly power in the relevant market. Broadcom Corp.
v. Qualcomm Inc., 501 F.3d 297, 307 (3d Cir. 2007).
Monopoly power is “the ability to control prices and exclude competition in a given market.” Id. “[A] patent
does not necessarily confer market power upon the patentee” and therefore the FTC must prove that defendants in fact possessed monopoly power. See Ill.
Tool Works Inc. v. Indep. Ink, Inc., 547 U.S. 28, 45
(2006). Monopoly power is assessed as of the time of
the anticompetitive conduct. See Town Sound & Custom Tops, Inc. v. Chrysler Motors Corp., 959 F.2d 468,
472-73, 481 (3d Cir. 1992).
The Supreme Court has ruled that questions of
monopoly power must be resolved according the particular facts of each case and that “formalistic distinctions rather than actual market realities are generally
disfavored in antitrust law.” Eastman Kodak Co. v.
Image Tech. Servs., Inc., 504 U.S. 451, 466-67 (1992).
Monopoly power may be proven through direct evidence of supra competitive prices and restricted output. Mylan Pharm. Inc., 838 F.3d at 434. In the alternative, monopoly power may be proven through indirect evidence. Id. at 435. Here, the FTC has presented
no direct evidence of monopoly power but instead relies
on indirect evidence to establish this part of its claim.17
To support a finding of monopoly power through
indirect evidence, the FTC must show that: (1) defendants had market power in the relevant market; and (2)
barriers existed to entry into that market. Id. Market
17

Direct evidence of monopoly power is “rare” and would require, among other things, evidence that defendants maintained
abnormally high price-cost margins on AndroGel and that they
restricted output. See Mylan Pharm. Inc., 838 F.3d at 434-35
& n.53. The FTC has not presented such evidence.

138a
power is in turn defined as “the power to raise prices
above competitive levels without losing so many sales
that the price increase is unprofitable.” Queen City
Pizza, Inc. v. Domino’s Pizza, Inc., 124 F.3d 430, 445
n.2 (3d Cir. 1997) (internal citation omitted). Market
power can be inferred from a market share significantly
greater than 55%. Dentsply Intern., Inc., 399 F.3d at
187 (citing Fineman v. Armstrong World Indus., Inc.,
980 F.2d 171, 201 (3d Cir. 1992)). As our Court of Appeals has explained, the size of market share is a primary determinant of whether monopoly power exists. Pa.
Dental Ass’n v. Med. Serv. Ass’n of Pa., 745 F.2d 248,
260 (3d Cir. 1984).
We must begin by defining the relevant market.
See Dentsply Intern., 399 F.3d at 187. The definition of
the relevant market “is a question of fact as to which
the plaintiff bears the burden of proof.” Mylan Pharm.
Inc., 838 F.3d at 435 (quoting Broadcom Corp., 501
F.3d at 307). The FTC must prove both the relevant
product or products that comprise the market as well
as the geographical area for the market. See Queen
City Pizza, Inc., 124 F.3d at 442. There is no dispute
here that the relevant geographic market encompasses
the United States.
To determine whether products are in the same
market, we ask “if they are readily substitutable for
one another,” an inquiry that requires us to assess “the
reasonable interchangeability of use between a product
and its substitute.” Mylan Pharm. Inc., 838 F.3d at
435 (internal citation omitted).
The term
“‘[i]nterchangeability’ implies that one product is
roughly equivalent to another for the use to which it is
put.” Id. at 436 (quoting Allen-Myland, Inc. v. Int’l
Bus. Machs. Corp., 33 F.3d 194, 206 (3d Cir. 1994)). It
also means that “while there might be some degree of

139a
preference for … one [product] over the other, either
would work effectively.” Id. (quoting Allen-Myland,
Inc., 33 F.3d at 206 (alterations in original)). We also
look to cross-elasticity of demand, which is defined as
“[a] relationship between two products, usually substitutes for each other, in which a price change for one
product affects the price of the other.” Id. (internal
citations omitted). “Cross-elasticity of demand is a
measure of the substitutability of products from the
point of view of buyers. More technically, it measures
the responsiveness of the demand for one product [X]
to changes in the price of a different product [Y].” Id.
at 437 (quoting Queen City Pizza, Inc., 124 F.3d at 438
n.6).
As the Supreme Court has recognized, “in some instances one brand of a product can constitute [the relevant] market.” Eastman Kodak Co., 504 U.S. at 482.
However, courts generally approve of single-product
markets only “in rare circumstances.” Town Sound &
Custom Tops, Inc., 959 F.2d at 480; see also Mylan
Pharm., Inc. v. Warner Chilcott Pub. Co., No. 12-3824,
2015 WL 1736957, at *8 (E.D. Pa. Apr. 16, 2015).
The FTC first proposes what is in essence a singleproduct market: brand-name AndroGel 1% and brandname AndroGel 1.62% and their generic equivalents.
Within this market, defendants held 100% of sales until
entry of Perrigo’s generic AndroGel 1% product. After
that point, 85% of the AndroGel 1% market converted
to generic versions of AndroGel 1% within 24 months,
and 90% within 31 months.
In seeking to prove its proposed relevant market,
the FTC relies on the expert testimony of Dr. Carl
Shapiro, a professor at the Haas School of Business at
the University of California at Berkley who previously

140a
served as a member of the President’s Council of Economic Advisors. Dr. Shapiro performed the Hypothetical Monopolist Test (“HMT”). That test begins with a
narrow set of products, called the candidate market,
and asks whether a hypothetical monopolist selling
those products could impose a small but significant nontransitory increase in price (“SSNIP”), which would be
a 5% increase or more, without losing too many sales to
make the price increase unprofitable. If the answer is
yes, then the market is correctly defined because products outside the candidate market are not effective
price constraints. If not, then the candidate market is
too narrow and the relevant market includes other
products.
Dr. Shapiro began with a candidate market of
brand-name AndroGel and generic versions of AndroGel.18 He explained that in this situation, the question
under the HMT model is whether defendants, as the
manufacturers and distributors of brand-name AndroGel, could prevent the price of AndroGel from falling
more than 5% by excluding generic competition.
Using data provided by defendants, Dr. Shapiro
first calculated the hypothetical monopoly price, which
is the price defendants charged for AndroGel prior to
generic entry. He then calculated the change in price
for AndroGel after generic entry, using a weighted av18

Dr. Shapiro explained that he included brand-name AndroGel 1.62% in his analysis because the delay in generic entry
caused by the sham lawsuits provided defendants with additional
time to convert AndroGel 1% sales to AndroGel 1.62%. Dr.
Shapiro opined that excluding AndroGel 1.62% from the test market could lead to “artificial and misleading” results. This is consistent with AbbVie’s own business projections, which predicted
that entry of a generic 1% product would impact AndroGel 1.62%
sales.

141a
erage price of brand-name and generic AndroGel.19 Dr.
Shapiro performed the test as of the time of the filing of
the sham lawsuits in April 2011 and October 2011. He
relied on projections of the effect of generic entry created by AbbVie, Teva, and Perrigo. Dr. Shapiro found
that entry of an AB-rated generic would cause market
prices for AndroGel to decline by at least 41% and that
entry of a BX-rated generic would cause a decline of
11%. Based on these calculations, Dr. Shapiro concluded that a hypothetical monopolist of brand-name and
generic AndroGel could profitably impose a price increase of more than 5% by excluding competition.
Thus, he opines that AndroGel and its generic counterparts constitute the appropriate relevant market for
our analysis.
To support Dr. Shapiro’s reliance on the HMT, the
FTC points to our Court of Appeal’s decision in FTC v.
Penn State Hershey Medical Center, 838 F.3d 327 (3d
Cir. 2016). There, the district court applied the HMT to
determine the relevant geographic market in evaluating whether a hospital merger violated the antitrust
laws. Id. at 344-45. On appeal, the Court concluded
that the district court failed properly to formulate and
apply the test. Id. There is no indication that the HMT
test is required or even applicable in a monopolization
case such as this.
We find that the analysis used by our Court of Appeals in Mylan is the appropriate one here. In that
case, the Court observed that “the pharmaceutical
19

Dr. Shapiro defines average weighted price as “the market
price charged by the pharmaceutical companies” and opines that it
“is the best way to measure the disparate impact on different customers [i.e., payors, pharmacy benefit managers, and pharmacies]
because it measures ‘the total payments that are involved.’”

142a
market functions in a unique way.” 838 F.3d at 428.
Specifically, it stated:
[I]n a well-functioning market, a consumer selects and pays for a product after evaluating
the price and quality of the product. In the
prescription drug market, by contrast, the doctor selects the drug, which creates a certain
separation between the buyer and the manufacturer. Moreover, in most cases, a thirdparty, such as a health insurance company,
pays for the drug. As a result, consumer buying behavior may have less of an impact on
manufacturer pricing than it otherwise would
in a traditional open market.
Id. (internal citations and quotation marks omitted).
Due to the vastly different costs associated with
launching generic products as compared to brand-name
products, generics can be priced considerably lower
than brand-name products.20 AB-rated generics are
often priced at a substantial discount far exceeding 5%.
This is the result of an intentional regulatory framework promulgated under the Federal Food, Drug, and
Cosmetic Act (“FDCA”), 21 U.S.C. §§ 301 et seq., and
the Hatch-Waxman Act which provides incentives for
innovators that develop brand-name drugs while also
encouraging the introduction of low-cost generic drugs
to the market. See Actavis, Inc., 570 U.S. at 142. Under this regulatory scheme, application of the HMT
would result in a market limited to a brand-name drug
20

Generics generally may forgo certain research and development, marketing, and other costs that a brand-name product
must incur to launch. See In re Remeron Direct Purchaser Antitrust Litig., 367 F. Supp. 2d 675, 682 (D.N.J. 2005).

143a
and its AB-rated generic in almost every instance.21
See In re Remeron Direct Purchaser Antitrust Litig.,
367 F. Supp. 2d 675, 682 (D.N.J. 2005). This approach
thus “would render most brand name pharmaceutical
companies as per se monopolists prior to generic entry.” See id. at 683.
The facts of Mylan further support our decision.
There, the Court of Appeals rejected the plaintiff’s contention that the market consisted of only Doryx, a specific brand-name tetracycline approved for the treatment of acne and its generic equivalent. Mylan Pharm.
Inc., 838 F.3d at 436. It instead agreed with the district
court that “the market was much broader and consisted
of all oral tetracyclines prescribed to treat acne.” Id.
In reaching that conclusion, the Court looked to the degree of reasonable interchangeability and crosselasticity of demand between oral tetracyclines. Id. at
435-36. It did not apply the HMT. See id. We therefore reject the FTC’s proposed single-product market
as defined under the HMT.
In the alternative, the FTC proposes a product
market consisting of all topical testosterone replacement therapies (as stated above, “TTRTs”). While defendants argue for a broader market including injectables, they do not disagree that TTRTs are part of that
market. The TTRTs include the following products:
Patches
•

21

Testoderm (launched in 1994)

Furthermore, as Dr. Shapiro himself has recognized, the
HMT may also lead to relatively narrow markets that would exclude some competing products when gross margins are high,
which is the case in the pharmaceutical industry.

144a
•

Androderm (launched in 1995)

Gels and Solutions
•

AndroGel 1% (launched in 2000)

•

Testim (launched in 2002)

•

AndroGel 1.62% (launched in 2011)

•

Axiron (launched in 2011)

•

Fortesta (launched in 2011)

•

Vogelxo (launched in 2014, along with an authorized generic of the same product)

Buccal Tablets
•

Striant (launched in 2003)22

The evidence overwhelmingly demonstrates that
all TTRTs, including AndroGel, are reasonably interchangeable. All TTRTs contain the same active ingredient, testosterone. All are approved by the FDA for
the treatment of hypogonadism. Furthermore, all
TTRTs are consistent with guidelines for the treatment
of hypogonadism promulgated by the Endocrine Society, the oldest and largest professional body dedicated to
the advancement of clinical care and research in the
field of endocrinology.
Defendants presented evidence that some patients
have switched between AndroGel and other TTRTs.
Defendants’ economic expert Dr. Pierre Cremieux presented data from OptumHealth Care Solutions, Inc.
showing insurance claims for 18 million patients nationwide, which included 46,000 patients who filed a
22

Natesto, a testosterone nasal spray, was approved by the
FDA in 2014 but was not marketed until 2015, after the time period at issue here.

145a
prescription for AndroGel in the five years preceding
generic entry. That dataset demonstrated that 25.8%
of all AndroGel patients also used another TTRT product. The OptumHealth data is commonly used in the
pharmaceutical industry and has been the basis for
hundreds of peer-reviewed publications.
It is true that the various TTRTs may have relative advantages and disadvantages and that an individual patient may prefer one product over another. For
instance, some patients may prefer AndroGel over Testim due to Testim’s “musky” scent. Certain patients
may dislike Fortesta, which is applied to the front and
inner thighs, as compared to AndroGel, which is applied
to the upper arms, shoulders, and abdomen. However,
“[i]nterchangeability is defined by rough equivalence,
not perfect correspondence.” Mylan Pharm., Inc., 2015
WL 1736957, at *10 (citing Queen City Pizza, Inc., 124
F.3d at 436). Even if more patients prefer AndroGel to
other TTRTs, the “test for a relevant market is not
commodities reasonably interchangeable by a particular plaintiff, but ‘commodities reasonably interchangeable by consumers for the same purposes.’” Queen City
Pizza, Inc., 124 F.3d at 438 (quoting United States v.
E.I. du Pont de Nemours & Co., 351 U.S. 377, 395
(1956)). There is no dispute that, as stated above, all
TTRTs contain the same active ingredient and all are
approved by the FDA as safe and effective for the
treatment of hypogonadism. Accordingly, the fact that
certain patients may prefer AndroGel over other
TTRTs does not defeat a finding of interchangeability.
Mylan also requires an analysis of cross-elasticity
of demand in determining what products are in the relevant market. 838 F.3d at 437. The record demonstrates and no party disputes that there is crosselasticity of demand between all TTRTs. During the

146a
relevant time period, AndroGel competed on price
within the TTRT market by offering rebates to payors
to obtain better formulary placement and thereby encourage doctors to prescribe AndroGel. Between 2011
and 2014, AbbVie paid $438 million in rebates to
payors, an amount which represented 18.9% of gross
sales for AndroGel. Despite these rebates, AndroGel
lost several accounts to other TTRTs. Effective July 1,
2011, United Healthcare removed AndroGel from its
formulary in favor of Testim, which resulted in a loss of
approximately $80 million in sales for AndroGel. When
Axiron and Fortesta, two low volume testosterone gels,
entered the market in early 2011, rebates on TTRTs
increased and AndroGel lost additional business. As of
January 1, 2013, CVS Caremark removed AndroGel
from its formulary in favor of Fortesta, which resulted
in approximately $300 million in lost revenue. And in
February 2013, TriCare removed AndroGel from preferred formulary status and replaced it with Fortesta.
AbbVie also competed with other TTRTs by developing a copay assistance program. Under that program,
AbbVie would bear a portion of a patient’s copay,
thereby lowering the actual out-of-pocket cost to the
patient and encouraging the patient to fill his or her
prescription for AndroGel. The other manufacturers of
TTRTs also utilized such programs to increase sales.
Nonetheless, as will be shown, AndroGel continued to
have hundreds of millions of dollars in sales and huge
profit margins and retained a high of 71.5% and never
lower than in excess of 60% of the TTRT market from
2011 through 2014.
The evidence presented at trial demonstrated that
the pharmaceutical companies within the TTRT market
spent significant amounts of money on promotional activity to compete for sales. AbbVie employed a sales

147a
force of over 1,000 employees to promote its AndroGel
franchise and spent significant money on maintaining
that sales force. Sales representatives for AndroGel
were compensated based in part on their sales compared to other TTRTs. AbbVie also invested in directto-consumer media advertising, including in television,
print, and internet.
AbbVie itself viewed other TTRTs as competitors
to AndroGel. During trial, several AbbVie employees
testified that they considered Testim, Axiron, Fortesta,
and other TTRTs to be AndroGel’s competitors. In addition, many documents introduced into evidence
demonstrate that AbbVie tracked the TTRT market
and considered other TTRTs as competitors. In particular, AbbVie reported to its Board of Directors as well
as to investors regarding AndroGel’s sales within the
TTRT market. All of this evidence supports our finding that there is cross-elasticity of demand between
AndroGel and other TTRTs.
Defendants counter that the relevant market
should be defined to include not only TTRTs but also all
testosterone replacement therapies (as stated above,
“TRTs”), that is TTRTs plus injectables.23 We reject
this position. It is true that injectables contain testosterone, the same active ingredient as AndroGel. It is
also true that injectables, like AndroGel, are approved
by the FDA as safe and effective for the treatment of
hypogonadism. In addition, defendants introduced evidence of some patient switching between AndroGel and
injectables.
23

Defendants exclude oral formulations of testosterone,
which are distinguishable in efficacy and potential side effects and
are generally not recommended within the medical community.

148a
Some patients prefer AndroGel to injectables due
to a fear of needles and the associated potential for pain
and discomfort. To administer the injection, a 1.5 inchlong needle must be inserted deep into a muscle, typically the buttocks or thigh, until the needle is no longer
visible. Yet some prefer injectables to AndroGel because of the peak in testosterone levels that injectables
initially provide. On the other hand, some patients dislike the peaks and troughs associated with injectables
and thus prefer the steady dosing provided by AndroGel. However, as noted earlier, individual patient preferences will not defeat a finding of interchangeability
as long as there is “rough equivalence” between the
products. Mylan Pharm., Inc., 2015 WL 1736957, at
*10; see also Queen City Pizza, Inc., 124 F.3d at 438.
Thus, there is reasonable interchangeability of use between AndroGel and injectables.
But even assuming reasonable interchangeability,
there is little cross-elasticity of demand between AndroGel and injectables to include injectables in the relevant market. As noted above, “[c]ross-elasticity of
demand is a measure of the substitutability of products
from the point of view of buyers. More technically, it
measures the responsiveness of the demand for one
product [X] to changes in the price of a different product [Y].” Mylan Pharm. Inc., 838 F.3d at 437 (quoting
Queen City Pizza, Inc., 124 F.3d at 438 n.6).
Injectables entered the market decades before AndroGel launched in 2000 and the vast majority are generics. As a result, injectables enjoyed the most favorable formulary status with the lowest copay, typically
$5-$10 per injection. During the relevant period, the
wholesale acquisition cost of injectables was two to
three times lower than that of AndroGel. Since launch,
AbbVie has consistently raised AndroGel’s wholesale

149a
acquisition cost, despite the fact that injectables were
available at a fraction of the cost. James Hynd, one of
the principal AbbVie executives responsible for the
AndroGel franchise, confirmed that AbbVie did not
price AndroGel against injectables. For example,
AbbVie did not offer rebates to payors in an attempt to
match the price of injectables.
Furthermore, AbbVie documents show that while
the company tracked injectable sales, it did not consider injectables as direct competition to AndroGel. Hynd
believed that injectable patients were “not our [AndroGel] patient type.”24 Similarly, Frank Jaeger, Director of Marketing for AndroGel from 2010 through
2014, testified that AbbVie did not consider injectables
as competition and that the company believed based on
market research that it could not transition injectable
patients to AndroGel. Instead, as stated above, Jaeger
and others identified TTRTs such as Axiron, Fortesta
and Testim as AndroGel’s true competitors. We credit
this testimony of Hynd and Jaeger.
Defendants produced an internal AbbVie document
stating that a rise in the copay for AndroGel was correlated with an increase in injectables’ sales. However,
there is no evidence of the underlying analysis supporting the statement and thus no way to evaluate whether
there was in fact a causal relationship between the two
events. Moreover, this statement focuses on copays,
which are patients’ out-of-pocket costs, and does not
account for the other levels of pricing applicable in the
24

While Hynd testified that he changed his view and began to
recognize injectables as competition, he did not do so until 2014,
well after the sham lawsuits were filed and when entry of generic
versions of AndroGel was imminent. We do not find credible his
change of view.

150a
pharmaceutical industry, such as the amount paid by
insurance companies and other payors. In contrast to
this statement, the record demonstrates that AbbVie
attributed the increase in injectables’ sales to a variety
of factors, including patient preference, the existence of
“Low-T” Centers, and the disproportionate negative
publicity testosterone gels received after reports associating TTRTs with heightened cardiovascular risk.
For similar reasons, the patient switching study introduced by Dr. Cremieux is also not evidence of crosselasticity of demand between AndroGel and injectables.
That study does not contain information regarding the
reasoning behind the patients’ choices. Those patients
who moved between injectables and AndroGel may
have done so for a variety of reasons, including side effects, personal preferences, and reports of cardiovascular risks from TTRTs, as well as price. Because crosselasticity of demand focuses on the relationship between pricing for products, evidence of switching for
other or unknown reasons is irrelevant to our inquiry
on this issue. See Mylan Pharm. Inc., 838 F.3d at 437.
Accordingly, we find that all TTRTs including AndroGel had both interchangeability of use and crosselasticity of demand during the relevant time period.
In contrast, there was not the cross-elasticity of demand between TTRTs and injectables so as to include
injectables within the relevant market.25 We therefore
define the relevant market as the market for all

25

The TRT market would also include subcutaneous pellets
such as Testopel, which constitute a de minimis share of the TRT
market. There was no evidence presented at trial regarding crosselasticity of demand between AndroGel and this product. Pellets,
like injectables, are not part of the relevant market here.

151a
TTRTs, that is all transdermal testosterone replacement therapies within the United States.
We now turn to the question of whether defendants
possessed monopoly power in the defined market. To
support a finding of monopoly power, the FTC must
prove that defendants had a dominant share in the relevant market and that there were significant barriers
to entry into that market. Broadcom Corp., 501 F.3d at
307. Generally, as noted, a market share significantly
larger than 55% is required to establish prima facie
market power. See Dentsply Int’l, Inc., 399 F.3d at 187.
Barriers to entry include “regulatory requirements,
high capital costs, or technological obstacles, that prevent new competition from entering a market in response to a monopolist’s supracompetitive prices.”
Broadcom Corp., 501 F.3d at 307.
In the TTRT market, AndroGel was by far the
most-prescribed product and was widely-recognized as
the “market leader” from before 2011 through 2014.26
In 2011, AndroGel’s annual U.S. net sales exceeded
$870 million. By 2012, annual U.S. net sales for the AndroGel franchise grew to $1.152 billion. In 2013, AndroGel’s U.S. net sales were approximately $1.035 billion. And in 2014, AndroGel U.S. net sales totaled $934
million. These sales figures are calculated after payment of millions of dollars in rebates and the loss of
some accounts.
AndroGel’s share of the TTRT market was 71.5%
at the time that the first sham lawsuit against Teva
was filed in April 2011 and 63.6% at the time that the
26

The medical experts for both sides testified that they have
prescribed AndroGel for hypogonadism more than any other product.

152a
sham lawsuit against Perrigo was filed at the end of October 2011. Thereafter AndroGel’s share remained
above 60% until the end of 2014, when Perrigo’s generic
1% testosterone product entered the market. The closest competitor, Testim, had a share of only approximately 20% of the TTRT market at the time of the filing of the first sham lawsuit, but thereafter its share
dropped to approximately 12%. Axiron was launched
on March 28, 2011 and had captured approximately 14%
of the TTRT market by April 2014. No other TTRT
product ever held 10% or more of the market during
the period from April 2, 2011 through the end of 2014.
AndroGel’s market share was always more than
four times larger than the market share of any of its
brand-name competitors, except for a short period
when its market percentage was slightly smaller, but
still over three times the market share of Testim.
AbbVie was able to maintain its share of the TTRT
market with a profit margin of over 65% during the relevant period, even with huge rebates. It was also able
to increase the wholesale acquisition cost for AndroGel
throughout this time period. We find based on this data
that AndroGel had a dominant share of the TTRT market from April 2011 through December 2014.
The monopoly power of AndroGel is supported by
the significant barriers to entry into the TTRT market.
See Mylan Pharm. Inc., 838 F.3d at 435. First, any
prospective entrant with a brand-name drug must invest large amounts of time and capital in research and
development. There are then significant technical and
regulatory requirements in the prescription pharmaceutical market that do not exist with respect to ordinary consumer products. Brand-name products must
obtain FDA approval through the submission of an
NDA. This process may be lengthy. Among other

153a
things, the prospective entrant must demonstrate the
capability to manufacture, process, and package the
pharmaceutical product in a manner that is adequate
“to preserve its identity, strength, quality, and purity.”
21 U.S.C. § 355(d); see also id. §§ 355(b)(1), (c)(4). During the FDA approval process, third parties including
competitors may file citizen petitions to request that
the FDA “issue, amend, or revoke a regulation or order
or take or refrain from taking any other form of administrative action” on the NDA, as happened here. See 21
C.F.R. § 10.30. This may further prolong the approval
process.
Once approved, the brand-name drug company
generally does not attempt to market directly to patients, the ultimate users. Instead, it must convince
physicians to prescribe the drug to patients. This requires a significant and knowledgeable sales force that
generally meets with physicians individually. The sale
and marketing of prescription drugs is highly regulated. See generally 21 U.S.C. § 331. For example, the
sales force is not permitted to claim that its company’s
product is better or more effective than a competitor’s
product, nor is it permitted to promote the drug for uses other than those contained in the drug’s labeling.
Id.; see also In re Schering Plough Corp. Intron/Temodar Consumer Class Action, 678 F.3d 235,
239-40 (3d Cir. 2012). The company must also ensure
that pharmacies will stock the drug and that thirdparty payors will reimburse for it. This requires a team
of skilled employees who can negotiate contracts with
insurance companies and other payors. If the company
seeks patent protection, which is not uncommon, it
must endure the rigorous patent approval process before the Patent and Trademark Office.

154a
While the Hatch-Waxman Act provides streamlined procedures for the approval of generic products
through the filing of an ANDA or section 505(b)(2)
NDA, the FDA may ask for additional information and
testing as happened here with Perrigo and Teva. The
drug once approved must undergo a further process
before a different group at the FDA to obtain a therapeutic equivalence (“TE”) rating so that the generic
drug developer may take advantage of state autosubstitution laws. Again, Teva and Perrigo both confronted this hurdle.
There can be additional obstacles for generic drug
companies where, as here, a brand-name drug manufacturer holds a patent for the reference-listed drug. Generic entrants must also consider the possibility of patent infringement litigation by the owner of the referenced brand-name drug and the accompanying delay
caused by the automatic thirty-month stay under the
Hatch-Waxman Act before entry into the market, as
occurred here.
In short, a prospective entrant to the pharmaceutical market whether with a brand-name drug or a generic drug has significant capital, technical, regulatory, and
legal barriers to overcome before being able to enter
the TTRT market. Again, this is a far cry from entry
into a market to sell an ordinary consumer product. As
demonstrated by the record, Teva and Perrigo encountered these barriers, and Teva ultimately decided not
to launch its generic testosterone 1% product when it
did not receive an AB rating from the FDA.
In order to counter the existence of barriers to entry, defendants reference the fact that three brandname TTRT products entered the market between 2011
and 2014: (1) Fortesta, manufactured by Endo Phar-

155a
maceuticals (February 28, 2011); (2) Axiron, manufactured by Eli Lilly and Co. (March 28, 2011); and (3) Vogelxo, manufactured by Upsher-Smith Laboratories,
Inc. (July 2014).27 These products, however, each maintained a relatively small share of the market compared
to AndroGel as discussed in more detail above. Specifically, during the relevant time period Axiron achieved
a high of only approximately 14% of the TTRT market,
while Fortesta and Volgelxo each held under 10% of the
market. Consequently, they did not pose significant
competition to defendants’ monopolistic conduct.
The barriers enumerated above are sufficiently
high to be a factor in our finding of monopoly power.
See Broadcom Corp., 501 F.3d at 307. The purpose of
the FDCA, of course, is to protect the public from
products that are not safe and effective. See, e.g., Wyeth v. Levine, 555 U.S. 555, 566-67, 574 (2009). The barrier to entry into a prescription drug market is rightly
a stringent one to ensure that this salutary goal is
achieved.28
27

An authorized generic of Vogelxo was also launched at the
same time as the brand-name product.
28

Defendants cited Barr Laboratories, Inc. v. Abbott Laboratories, 978 F.2d 98 (3d Cir. 1992). This case is inapposite. In that
private antitrust action, plaintiff claimed attempted monopolization involving oral erythromycin products, which are prescription
antibiotics. 978 F.2d at 102. Unlike the present action, Barr did
not involve a patent. Id. In Barr, there were 32 manufacturers
and defendant Abbott only held a high of 51.19% of the market in
one year. Id. at 103. During the relevant time period the number
of products competing for sales increased from 111 to 176. Id.
Under the circumstances, the Court held that barriers to entry
remained low and ultimately concluded that no attempted monopolization existed. Id. at 113-14. In contrast, the evidence before the
court in this pending action demonstrates that the barriers were
significant to entry into the TTRT market.

156a
In sum, we find that the FTC has proven that defendants had a dominant share of the TTRT market in
the relevant period and that significant barriers existed
for entry into that market. The FTC has established
the actual market reality that defendants possessed
monopoly power and illegally and willfully maintained
that monopoly power through the filing of sham litigation. This sham litigation delayed the entry of much
less expensive competitive generic products into the
TTRT market to the detriment of consumers and protected the defendants against loss of hundreds of millions of dollars in sales and profits.
V
We now move to the issue of the appropriate relief.
The FTC seeks equitable relief in the form of disgorgement by defendants of profits which the FTC
seeks to return to consumers through the establishment of a fund for this purpose. It also seeks an injunction.
Defendants first contend that section 13(b) of the
FTC Act does not permit the FTC to seek equitable
monetary relief such as disgorgement. This section
provides that the FTC “may bring suit in a district
court of the United States to enjoin any such act or
practice … [and] in proper cases the [FTC] may seek,
and after proper proof, the court may issue, a permanent injunction.” 15 U.S.C. § 53(b). Defendants assert
that because section 13(b) simply references relief in
the form of an “injunction,” the court may not order
disgorgement.
In support of their position, defendants cite Kokesh
v. SEC, 137 S. Ct. 1635 (2017). Kokesh addressed the
narrow question of whether the five-year statute of
limitations in 28 U.S.C. § 2462 applied “to claims for

157a
disgorgement imposed as a sanction for violating a federal securities law.” 137 S. Ct. at 1639. According to
defendants, Kokesh stands for the proposition that disgorgement is punitive in nature and thus not included
among the equitable remedies authorized under the
FTC Act. Kokesh, however, did not involve section
13(b) but instead dealt with federal securities law.
Moreover, the Supreme Court specifically declined to
address whether courts possessed authority to order
disgorgement in SEC enforcement proceedings. See id.
at 1642, n.3. We will not stretch Kokesh beyond its
holding and will not read it to prevent the court from
granting the well-established equitable relief of disgorgement.
The Supreme Court, in Mitchell v. Robert De Mario
Jewelry, Inc., held that the provision of the Fair Labor
Standards Act, which specifically authorized courts to
restrain violations, includes the power to order reimbursement for loss of wages for unlawful discharge or
discrimination. 361 U.S. 288, 296 (1960). The Supreme
Court aptly stated:
When Congress entrusts to an equity court the
enforcement of prohibitions contained in a regulatory enactment, it must be taken to have
acted cognizant of the historic power of equity
to provide complete relief in the light of statutory purposes. As this Court long ago recognized, “there is inherent in the Courts of Equity a jurisdiction to … give effect to the policy of
the legislature.”
Id. at 291-92 (quoting Clark v. Smith, 38 U.S. 195, 203
(1839)). This language in our view is equally applicable
here to the FTC Act. Id.; see also United States v.
Lane Labs-USA, Inc., 427 F.3d 219, 223 (3d Cir. 2005).

158a
The weight of authority, in accordance with Mitchell, supports the conclusion that the grant of authority
in section 13(b) to provide injunctive relief includes the
full range of equitable remedies, including the power to
order a defendant to disgorge illegally obtained funds.
See, e.g., FTC v. Cephalon, Inc., 100 F. Supp. 3d 433,
437-39 (E.D. Pa. 2015) (Goldberg, J.). Our Court of Appeals has expressed agreement with this position. FTC
v. Magazine Solns., LLC, 432 F. App’x 155, 158 n.2 (3d
Cir. 2011). This is in line with other appellate precedent in this Circuit, which states that disgorgement “is
an equitable remedy meant to prevent the wrongdoer
from enriching himself by his wrongs.” Edmonson v.
Lincoln Nat. Life Ins. Co., 725 F.3d 406, 415 & n.3 (3d
Cir. 2013) (quoting SEC v. Huffman, 996 F.2d 800, 802
(5th Cir. 1993)).
If the defendants’ position about section 13(b) is
correct, the monopolist will be able to retain its illgotten gains and simply face an injunction against future wrongdoing but even then only if the wrongdoing
is continuing or is likely to continue. This interpretation would eviscerate the FTC Act. As our Court of
Appeals has stated, “if the literal application of a statute will produce a result demonstrably at odds with the
intentions of its drafters, then we are obligated to construe [the] statute[] sensibly and [to] avoid constructions which yield absurd or unjust results.” Douglass v.
Convergent Outsourcing, 765 F.3d 299, 302 (3d Cir.
2014) (internal quotation marks and citations omitted).
We reject defendants’ argument concerning our authority to order disgorgement under section 13(b) of the
FTC Act.
Because disgorgement aims to prevent unjust enrichment, a “court may exercise its equitable power only over the property causally related to the wrongdo-

159a
ing.” Commodity Futures Trading Comm’n v. Am.
Metals Exch. Corp., 991 F.2d 71, 78-79 (3d Cir. 1993)
(quoting SEC v. First City Fin. Corp., 890 F.2d 1215,
1231 (D.C. Cir. 1989)). Courts determine the appropriate amount of equitable monetary relief using a twostep burden shifting framework. First, the government
must “establish[] a reasonable approximation of the
profits tainted by the violation.” SEC v. Teo, 746 F.3d
90, 107 (3d Cir. 2014). This requires that the FTC meet
a “but-for” standard of causation. Id. at 105. The burden of going forward then shifts to the defendant to
provide “evidence that the [government’s] approximation of profits was unreasonable.” Id. at 107-08. At this
point, the defendant may “point[] to intervening
events” that break the chain of causation. Id. at 105-06
(quoting First City Fin. Corp., 890 F.2d at 1232). Under this standard, “doubts concerning the determination of disgorgements are to be resolved against the defrauding party.” SEC v. Hughes Capital Corp., 917 F.
Supp. 1080, 1085 (D.N.J. 1996); see also First City Fin.
Corp., 890 F.2d at 1231-32.
To determine the appropriate amount of equitable
monetary relief to be awarded here, we must make
findings about what would have happened absent the
sham lawsuits filed by defendants. See First City Fin.
Corp., 890 F.2d at 1231-32. The FTC’s expert, Dr.
Shapiro, constructed a counterfactual world relying on
contemporaneous evidence as well as his expert economic analysis. He determined that but for the lawsuits: (1) Teva would have entered the market with a
BX-rated product in June 2012; (2) Perrigo would have
entered with an AB-rated product in June 2013; and (3)
that entry of a generic version of AndroGel 1% would
have affected sales of AndroGel 1.62%. He calculated
defendants’ “incremental revenue,” which is the differ-

160a
ence between defendants’ actual revenue and their
counterfactual revenue from June 2012 through the
present. Dr. Shapiro then deducted defendants’ incremental costs associated with the excess revenue to determine defendants’ financial gain attributable to the
sham litigation. He determined that this financial gain
was $1.35 billion as of the end of March 2018. He
opined that this financial gain will continue to accrue
until entry of a generic version of AndroGel 1.62%. The
FTC also seeks prejudgment interest on this financial
gain, compounded quarterly at interest rates promulgated by the Internal Revenue Service (“IRS”). See 26
C.F.R. § 301.6621-1.
Defendants dispute the FTC’s assumptions regarding the entry of Teva and Perrigo as well as the FTC’s
assumption that entry of a generic 1% would have impacted sales of AndroGel 1.62%. Defendants argue that
even absent the sham litigation, Teva would not have
entered the market. They concede that Perrigo may
have entered the market earlier than it did absent any
sham lawsuit but assert that the earliest Perrigo would
have entered would have been August 2014. Defendants admit, as they must, that delay in entry of generic
1% would have harmed consumers.
We must decide when, if ever, Teva would have entered the market in the “but-for” world. In the real
world, Teva submitted to the FDA on January 13, 2011
a section 505(b)(2) NDA for its generic version of AndroGel 1% in pump and packet forms. Shortly thereafter, defendants filed their sham lawsuit against Teva.
In December 2011, Teva entered into a settlement
agreement with defendants and thereby agreed to a
licensed entry date of December 27, 2014. On February
14, 2012, Teva received FDA approval of its section
505(b)(2) NDA for the packet presentation of its prod-

161a
uct only. In July 2014, Teva received from the FDA a
BX rating on its product due to discrepancies with the
analytical work in Teva’s bioequivalence study. Thereafter, Teva decided not to launch its product.
The FTC asserts that, but for the sham lawsuit
filed by defendants, Teva would have entered the market with a BX-rated testosterone 1% product in June
2012. The FTC concedes that the filing of the sham
lawsuit by defendants did not impact the timing of
Teva’s FDA approval. Thereafter, the FTC posits that
Teva would have continued to move forward with
preparations for its launch while waiting for its TE rating. The FTC estimates it would have taken 12-13
months from the time it submitted its section 505(b)(2)
NDA to the FDA for Teva to achieve operational readiness.
Defendants dispute whether Teva would have entered the market at all with a BX rating. Teva’s generic drug division has never launched a BX-rated retail
pharmaceutical product. It has not done so because
Teva’s generic business model relies on autosubstitution at pharmacies. Without auto-substitution,
Teva would have to hire a sales force to promote its
BX-rated product. As demonstrated by internal analyses created by Teva, a BX-rated generic without a
perceived advantage in the market, such as Teva’s
product, generally captures only 5% or less of the
brand-name product’s sales. For this reason, BX-rated
generics are rare.
While Tim Crew, Teva’s former Commercial Operations Officer, was in particular a strong proponent of a
BX-rated launch, Crew left Teva in 2012. Alan Oberman, the Teva executive who replaced Crew, was not a
proponent of a BX-rated launch. Maureen Cavanaugh,

162a
Vice President of Customer Operations and Marketing
for Teva, testified that she, along with the rest of her
team, made the recommendation to Teva management
to abandon plans for the launch of the testosterone
product. She further stated that she did so not because
of defendants’ infringement litigation but because of
Teva’s inability to commercialize the product effectively. We find her testimony to be credible.
In addition to its failure to obtain an AB rating,
Teva faced other obstacles to the profitable launch of
its product. In July 2011, at the suggestion of the FDA,
Teva withdrew the pump presentation of its product
from consideration due to packaging issues. As a result, the Teva product was approved in packet form only. The pump was preferred by patients over packets
because of ease of use. Teva estimated that this setback cut its potential sales opportunity by over 50%. If
it intended to continue to pursue a pump presentation
for its product, Teva would need to reformulate and
then resubmit its section 505(b)(2) NDA to the FDA for
consideration. This would have involved significant additional time and expense, and still may have not been
successful.
Teva also faced serious manufacturing issues for its
testosterone 1% product. It planned to use Cipla, a
contract manufacturer based in India, to manufacture
its testosterone 1% gel. Cipla demanded that Teva
provide approximately $10 million for construction of
manufacturing facilities. Teva had the option of making
payment in the form of an up-front capital expenditure
or over time as a 35% royalty on sales. Teva never
reached an agreement with Cipla regarding this investment. The evidence shows that Teva ultimately
refused to make this investment unless the FDA issued
an AB rating to its product. Cipla could not move for-

163a
ward with preparations for manufacturing until an
agreement was reached.
After considering the evidence presented, the FTC
has not established that, but for defendants’ sham litigation, Teva would have launched its product in June
2012 or at any time thereafter. We find that Teva’s
failure to launch was due to other intervening events
described above and that the sham litigation against it
was not a cause. Accordingly, we will not consider any
“but-for” entry date of Teva into the TTRT market
when calculating defendants’ illegal financial gains.
There remains the question of when Perrigo would
have entered the market absent defendants’ sham litigation against it. In the real world, Perrigo had a December 27, 2014 licensed entry date for its generic version of AndroGel 1% under its settlement with defendants. The FDA approved Perrigo’s section 505(b)(2)
NDA on January 31, 2013 and thereafter Perrigo waited for a TE rating for its drug. Nearly eighteen
months elapsed before the FDA granted its generic
TTRT an AB rating. During this time, Perrigo submitted three letters to the FDA, dated April 18, 2013, September 13, 2013, and February 18, 2014, requesting
that the FDA issue an AB rating. The last letter
threatened litigation if the FDA failed to act by March
19, 2014 and enclosed a draft complaint. On March 21,
2014, Perrigo filed a lawsuit against the FDA in the
United States District Court for the District of Columbia alleging violation of the FDCA and the Administrative Procedures Act based on the FDA’s allegedly unreasonable delay in assigning a TE rating to its product. See Perrigo Israel Pharm. Ltd. v. U.S. Food &
Drug Admin., No. 14-475 (D.D.C. Mar. 21, 2014).

164a
On April 10, 2014, the FDA filed a response to Perrigo’s motion for a speedy hearing. The FDA asserted
that “Perrigo itself has obviated the need for a prompt
decision by reaching an agreement with the innovator
not to market until December 2014.” The FDA further
stated that it would issue a TE rating for Perrigo’s
product by July 31, 2014, some five months before Perrigo’s planned launch. In the end, the FDA issued an
AB rating to Perrigo on July 23, 2014, and thereafter
Perrigo voluntarily dismissed its lawsuit. Perrigo
launched its product on December 27, 2014.
We acknowledge that there is no statutory, regulatory, or other deadline within which the FDA is mandated to issue a TE rating. The time that the FDA
needs to consider a TE rating depends on the specific
facts of each situation, including the reason why the
application for approval of a generic drug was submitted as a section 505(b)(2) NDA rather than an ANDA.
It is apparent from the lawsuit Perrigo brought
against the FDA that the FDA knew of Perrigo’s December 27, 2014 licensed entry date under the settlement agreement. As a result, it had no compelling
need, as it implied in its court papers, to grant the TE
rating long before Perrigo’s entry date. We find that
the FDA, absent the sham litigation and the resultant
settlement agreement, would not have delayed the issuance of an AB rating for Perrigo’s generic drug for
nearly eighteen months after approval of its section
505(b)(2) NDA. The FDA is presumed to act in the
public interest, which includes the mission of benefitting consumers by approving the entry of safe and effective lower-cost generic drugs into the market. Every month that the FDA would have delayed in issuing a
TE rating to a generic drug that was otherwise ready

165a
and able to launch would have caused significant financial harm to consumers.
Dr. Kenneth Phelps, the FTC’s regulatory expert,
testified that in his experience it takes no more than
one month for the FDA to assign a TE rating for a section 505(b)(2) drug. The FTC’s economic expert, Dr.
Shapiro, estimated that, but for the sham litigation,
Perrigo would have received its TE rating approximately four months from the date of FDA approval of
its section 505(b)(2) NDA. He relied on the approximated four months’ time lapse in the real world between Perrigo’s filing of the lawsuit against the FDA
and the FDA’s issuance of the TE rating.
Defendants further point to citizen’s petitions filed
by AbbVie regarding TE ratings to assert that the
FDA would not have issued a TE rating to Perrigo
sooner. On August 18, 2011, AbbVie filed a citizen’s petition requesting that the FDA conduct notice-andcomment rulemaking to establish procedures for its assignment of TE ratings for drugs approved under section 505(b)(2). That petition did not relate specifically
to Perrigo but rather to general procedures for TE ratings. Contrary to defendants’ position, there is no indication that the FDA refrained from issuing TE ratings
for generic drugs while this petition was pending. Later in a supplement filed on December 11, 2013, AbbVie
requested that the FDA assign a BX rating to Perrigo’s
product. The FDA ultimately responded to this citizen
petition in July 2014 at the same time it issued Perrigo’s TE rating. However, a June 2013 launch would
have been six months before AbbVie filed its supplemental citizen petition, and therefore we find that this
supplemental citizen petition would not have delayed
Perrigo’s launch in the “but-for” world. Thus, the de-

166a
fendants’ citizen petition would not have affected Perrigo’s “but-for” entry date.
We find that absent the sham lawsuit, Perrigo
would have received its AB rating in June 2013 and
would have launched its AB-rated generic product at
that time. We reject defendants’ contention that Perrigo would not have launched its product until August
2014.
The parties next dispute the effect of the sham litigation on sales of AndroGel 1.62%. In his damages
model, Dr. Shapiro opines that entry of a generic version of AndroGel 1% would have caused the market
share of AndroGel 1.62% to plateau. According to Dr.
Shapiro, the delay of generic 1% entrants caused by the
sham litigation allowed defendants to transition more
patients from brand-name AndroGel 1% to brand-name
AndroGel 1.62% and thus avoid auto-substitution for
generic versions of AndroGel 1%. We agree. Consequently, Dr. Shapiro properly includes a portion of defendants’ profits from AndroGel 1.62% in his calculation
of excess profits.
In the real world, AndroGel 1.62% accounted for total AndroGel sales as follows: 57% during the last 7
months of 2012, 67% in 2013, 76% in 2014, 83% in 2015
and 2016, and 82% in 2017. In the “but-for” world, the
FTC asserts that AndroGel 1.62%’s share of total AndroGel sales would have frozen at the time that the
first generic version of AndroGel 1% entered the market. We have already determined that but for the sham
litigation, Perrigo would have entered the market in
June 2013. It follows and we find that the share for

167a
AndroGel 1.62% would have frozen at approximately
67%.29
In response, defendants contend that AndroGel
1.62% is “superior” to AndroGel 1% and thus prescribers will chose AndroGel 1.62% regardless of the availability of a generic version of AndroGel 1%.30 In support
of their position, they point out that AndroGel 1.62% is
not subject to auto-substitution for a generic version of
AndroGel 1%. They further maintain that sales of AndroGel 1.62% have come not only from patients who
previously used AndroGel 1% but also from patients
who used other TRTs or who are new to treatment for
hypogonadism. Defendants cite OptumHealth data
showing that from the launch of AndroGel 1.62%
through March 2016, only 28.1% of AndroGel 1.62% patients had filled an AndroGel 1% prescription within
the 12 months preceding their first AndroGel 1.62%
prescription. The other sales came from patients who
were previously using other TRTs or were new to testosterone replacement therapy. Defendants therefore
reason that sales of AndroGel 1.62% would not have
been impacted by earlier entry of a generic version of
AndroGel 1%. We disagree.

29

As discussed above, the FTC initially took the position that
Teva would have entered the market in 2012 with a BX-rated generic version of AndroGel 1%. This would freeze AndroGel
1.62%’s share of the AndroGel market at 51%, which is what the
FTC asserts the share would have been during the last seven
months of 2012.
30

AndroGel 1.62% has the same active ingredients and effects
as AndroGel 1%, but simply requires half the volume of gel. It
thus has a quicker drying time and therefore less risk of transference.

168a
We find in favor of the FTC on this issue. The record shows that sales of AndroGel 1.62% grew more
slowly after launch than defendants initially anticipated. Around the time of the filing of the sham lawsuits,
defendants were concerned about the impact that entry
of a generic version of AndroGel 1% would have on
sales for AndroGel 1.62%. Contemporaneous forecasts
created by AbbVie during the relevant time period
predicted that entry of a generic version of AndroGel
1% would not only erode sales for brand-name AndroGel 1% but would also cause sales of brand-name AndroGel 1.62% to plateau or even decline. For example,
in the fall of 2011, AbbVie forecast that sales of AndroGel 1.62% would decrease approximately 30-35% after
entry of an AB-rated generic version of AndroGel 1%.
In 2014, AbbVie similarly predicted that AndroGel
1.62% could lose 20-27% of its sales after entry of a generic version of AndroGel 1%. Again, in the real world,
AndroGel 1.62%’s share of AndroGel sales did in fact
plateau after Perrigo entered the market in December
2014, although by that time AndroGel 1.62%’s share of
the total AndroGel market had reached 83%.
The filing of the sham lawsuits allowed defendants
additional time to increase sales for AndroGel 1.62%
without any competition from a lower priced generic
version of AndroGel 1%. Although AndroGel 1% and
AndroGel 1.62% are distinct products, both include the
same active ingredient and are indicated for the same
purpose, that is, to treat hypogonadism. The only significant difference in the record between the two drugs
is that AndroGel 1.62% requires a smaller volume of
gel. As stated above, AndroGel 1% and AndroGel
1.62% compete within the TTRT market, both with
each other as well as with all other TTRTs. Under
these circumstances, we find that the filing of the sham

169a
lawsuits and the resulting delay in generic entry increased defendants’ profits on not only AndroGel 1%
but also on AndroGel 1.62%.
The parties further dispute the end date for calculation of defendants’ profits subject to disgorgement.
As stated above, only profits with a causal connection
to the wrongdoing are subject to disgorgement. See
Commodity Futures Trading Comm’n, 991 F.2d at 7879. This court has discretion to order disgorgement of
profits for the time period in which the effects on the
market of defendants’ wrongful conduct were continuing, even after the entry of Perrigo at the end of 2014.
See id. On the other hand, we must not award disgorgement of profits where the causal connection to defendants’ wrongdoing has become too attenuated or
remote. See Teo, 746 F.3d at 106; SEC v. MacDonald,
699 F.2d 47, 53-55 (1st Cir. 1983).
The FTC takes the position that defendants’ financial gain due to the sham lawsuits is ongoing at the rate
of $6 million per month until the time in the future
when a generic version of AndroGel 1.62% enters the
market. We reject this position and instead will award
disgorgement of profits through August 2017 only. By
that time, Perrigo’s generic version of AndroGel 1%
had been on the market for 2.5 years and had achieved
its maximum penetration rate of approximately 91% of
brand-name AndroGel 1% sales. The effect of defendants’ wrongful conduct on the TTRT market had largely subsided. We find that any award of disgorgement
after that date would be speculative.
Defendants are liable for disgorgement in the
amount of $448 million in profits. This amount reflects
defendants’ financial gain due to the sham lawsuits
from June 2013 when Perrigo would have entered the

170a
TTRT market through August 2017. In addition, the
FTC is entitled to prejudgment interest calculated at
the interest rates set forth by the IRS for underpayments. 26 C.F.R. § 301.6621-1; see also Teo, 746 F.3d at
109-10. In reaching this award, we are guided by the
Supreme Court’s direction that antitrust cases must be
resolved according to the “particular facts disclosed by
the record” rather than “formalistic distinctions.”
Eastman Kodak Co., 504 U.S. at 467-68 (internal citations omitted). We also keep in mind the purpose of our
equitable power to grant disgorgement, which is not to
provide an award of damages at law but instead to deter violations of antitrust law and to prevent the unjust
enrichment of defendants. See Teo, 746 F.3d at 105-06.
We must also decide how liability for the disgorgement award should be apportioned between defendants
AbbVie and Besins. Besins contends that it is immune
from equitable monetary relief for its violations of antitrust law because it never received any profits from
AndroGel. Instead, royalties on U.S. sales of AndroGel
were paid to its European corporate affiliate now
known as Laboratoires Besins Iscovesco SAS (“LBI
SAS”) or to another Besins entity, Besins Healthcare
Luxemborg SARL (“BHL SARL”). Here, the FTC has
named Besins Healthcare, Inc. (as stated above, “Besins”) as a defendant.
Besins is one of the entities that instituted the
sham lawsuits against Teva and Perrigo. As co-owner
of the ’894 patent, the sham lawsuits could not have
been filed without Besins. See Ethicon, Inc. v. U.S.
Surgical Corp., 135 F.3d 1456, 1468 (Fed. Cir. 1998).
We have already determined that Besins, along with
AbbVie, filed these objectively baseless lawsuits with
actual knowledge that the suits lacked merit with no
expectation of prevailing and with the intent to impose

171a
expense and delay on Teva and Perrigo and to impede
at least for a time the expected loss by defendants of
hundreds of millions of dollars in sales. As we discussed above, counsel for Besins was an experienced
patent lawyer who had access to the paragraph IV notices, the patent prosecution history, and the analysis of
outside counsel who had full access to the Teva and
Perrigo section 505(b)(2) NDAs. He nonetheless made
the decision with the requisite subjective intent to join
in these objectively baseless lawsuits. Under these circumstances it is appropriate to impose disgorgement on
Besins for its role in filing the sham lawsuits.
It is well established that “disgorgement is an equitable obligation to return a sum equal to the amount
wrongfully obtained, rather than a requirement to replevy a specific asset”. SEC v. McGee, 895 F. Supp. 2d
669, 689 (E.D. Pa. 2012) (quoting SEC v. Banner Fund
Int’l, 211 F.3d 602, 617 (D.C. Cir. 2000)). A wrongdoer
such as Besins “may be ordered to disgorge not only
the unlawful gains that accrue to the wrongdoer directly, but also the benefit that accrues to third parties
whose gains can be attributed to the wrongdoer’s conduct.” See SEC v. Contorinis, 743 F.3d 296, 302 (2d Cir.
2014). This result obtains because the purpose of equitable disgorgement is both to deprive a wrongdoer of
its unjust enrichment as well as to deter others from
violating the law. Teo, 746 F.3d at 105 (citing SEC v.
Hughes Capital Corp., 124 F.3d 449, 455 (3d Cir. 1997)).
To accept Besins’ position would be tantamount to
allowing Besins to enrich unjustly its corporate affiliate
through the filing of sham lawsuits. See Contorinis, 743
F.3d at 301-04, 307. It would also “perpetuate rather
than correct an inequity.” Banner Fund Int’l, 211 F.3d
at 617. The Besins entity named as a defendant here is
the party that co-owned the ’894 patent and the party

172a
that filed the sham actions. It is of no import that Besins may have chosen to direct profits from its wrongdoing to affiliated corporate entities LBI SAS and BHL
SARL.
Joint and several liability for disgorgement is appropriate “when two or more individuals or entities collaborate or have close relationships in engaging in the
illegal conduct.” Hughes Capital Corp., 124 F.3d at
455. Nonetheless, a court may apportion liability
among tortfeasors when it is reasonable and practical
to do so, such as when the recipients of ill-gotten profits
and the amount each received can be determined from
the record. Id. at 455. Besins’ European affiliates were
paid royalties in the amount of 8% of the U.S. net sales
of AndroGel through the end of March 2015. As of
April 1, 2015, that royalty rate was reduced to 5%. We
therefore will apportion liability in those percentages to
Besins for the disgorgement award of $448 million plus
prejudgment interest according to those percentages.
VI
In addition to disgorgement, the FTC seeks an injunction that in its view would prevent or deter defendants from engaging in similar misconduct in the future. Specifically, the FTC urges an injunction: (1) to
prohibit the filing of any claims of patent infringement
based on the ’894 patent by a product that does not include about 0.1% to about 5% isopropyl myristate; (2) to
prohibit defendants from filing any other sham litigation; (3) to prohibit defendants from engaging in any
action that misuses government processes for anticompetitive purposes; and (4) to require defendants to certify that any patent infringement litigation or other use
of governmental processes has an objectively reasonable basis.

173a
The FTC further contends that an injunction is
necessary to restore competitive market conditions. It
seeks to compel defendants to license AndroGel 1.62%
to one or more generic competitors. It also would
command defendants to manufacture and deliver to
these generic competitors a supply of generic AndroGel
1.62% until those competitors are independently able to
manufacture the drug themselves.
Section 13(b) of the FTC Act allows the FTC to obtain injunctive relief when a defendant “is violating, or
is about to violate, any provision of law enforced by the
Federal Trade Commission.” 15 U.S.C. § 53(b). As our
Supreme Court has recognized, “[t]he purpose of an injunction is to prevent future violations.” United States
v. W. T. Grant Co., 345 U.S. 629, 633 (1953) (citing Swift
& Co. v. United States, 276 U.S. 311, 326 (1928)). Accordingly, the FTC must demonstrate that there is a
“cognizable danger of recurrent violation.” Id.; see also
Madsen v. Women’s Health Ctr., Inc., 512 U.S. 753, 765
n.3 (1994). As the moving party, the FTC bears the
burden to prove that injunctive relief is warranted. See
W. T. Grant Co., 345 U.S. at 633.
The FTC has proven that defendants filed two
sham infringement lawsuits, one against Teva in April
2011 and another against Perrigo in October 2011. Defendants were able to exclude competition illegally in
the TTRT market from June 2013 until the end of December 2014 as a result of sham litigation and the settlement of sham litigation. Nonetheless, the FTC has
presented no evidence that defendants are currently
violating antitrust laws or about to violate antitrust
laws. Generic versions of AndroGel have now been on
the market for over three years. AndroGel 1%’s share
of the market has shrunk since entry of Perrigo, and
the ’894 patent expires on January 6, 2020. The FTC

174a
has not alleged that defendants have filed any other
sham lawsuits.31 The fact that defendants filed two
such lawsuits, without more, does not establish that defendants have a pattern or practice doing so. On this
record there is no basis to conclude that defendants’
misconduct is likely to reoccur.
We are also concerned that the injunction sought
by the FTC is overbroad and punitive in nature. Because it would implicate defendants’ First Amendment
right to petition the government, the injunction must
“burden no more speech than necessary to serve a significant government interest.” Madsen, 512 U.S. at
765. The injunction sought by the FTC involves the defendants’ ability to file patent infringement suits or
otherwise to use the governmental process with respect to any patent. Given the fact that the ’894 patent
was the only patent at issue here and there is no evidence that defendants filed sham litigation or otherwise
abused the government process with regard to other
patents, the injunctive relief sought by the FTC does
not meet the test set forth in Madsen.
We also see no basis to enter an injunction mandating defendants to license to generic competitors its intellectual property rights to AndroGel 1.62%. There is
no evidence that sale of AndroGel 1.62% is currently
violating, or will violate, section 5 of the FTC Act.
Accordingly, no injunction will be entered.
31

The FTC has advised the court that since the filing of the
lawsuits against Teva and Perrigo in 2011, defendants have filed
numerous other patent infringement suits against competitors,
including seven lawsuits related to the ’894 patent. The FTC has
presented no evidence that these lawsuits were shams, and therefore they do not provide support for the injunctive relief sought
here.

175a
VII
Based on defendants’ violation of section 5 of the
FTC Act, the court awards equitable monetary relief in
favor of the FTC and against the defendants in the
amount of $448 million, which represents disgorgement
of defendants’ ill-gotten profits from June 2013, when
Perrigo would have entered the TTRT market, through
August 2017. The FTC is also entitled to prejudgment
interest on this award, calculated at the interest rates
set forth by the IRS for underpayments as discussed
above. See 26 C.F.R. § 301.6621-1. Liability will be apportioned between AbbVie and Besins according to the
royalty rates agreed upon by the parties, which were
8% through March 31, 2015 and thereafter 5%.
The parties shall confer and if possible submit to
the court for consideration a joint proposed form of
judgment and if the parties cannot agree each party
shall submit a proposed form of judgment. The court
will enter a judgment after conferring with the parties.
BY THE COURT:
/s/ Harvey Bartle III
J.

177a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF PENNSYLVANIA
NO. 14-5151
CIVIL ACTION
FEDERAL TRADE COMMISSION,
v.
ABBVIE INC., ET AL.,

MEMORANDUM
Bartle, J.

September 15, 2017

The Federal Trade Commission (“FTC”) has filed
this action against defendants AbbVie Inc., Abbott Laboratories, and Unimed Pharmaceuticals LLC (collectively “AbbVie”),1 as well as against Besins Healthcare
Inc. The FTC alleges that the defendants engaged in
monopolistic conduct in violation of Section 5(a) of the
Federal Trade Commission Act, 15 U.S.C. § 45(a). Section 45(a)(1) states that “[u]nfair methods of competition in or affecting commerce, and unfair or deceptive

1

AbbVie came into existence in January 2013 when it separated from Abbott Laboratories. Unimed is a wholly-owned, indirect subsidiary of AbbVie. Solvay is a wholly-owned subsidiary of
AbbVie.

178a
acts or practices in or affecting commerce, are hereby
declared unlawful.”
As part of its claim for relief, the FTC asserts that
the defendants filed sham patent infringement lawsuits
against two competitors, Teva Pharmaceuticals USA,
Inc. and Perrigo Company, which were seeking approval from the U.S. Food and Drug Administration
(“FDA”) for generic versions of AndroGel 1%, the defendants’ brand-name product.2 AndroGel 1% is a
transdermal testosterone replacement therapy gel. It
has been approved by the FDA for the treatment of
conditions in men associated with a deficiency or absence of endogenous testosterone and is protected by
U.S. Patent No. 6,503,894 (“the ’894 patent”). The FTC
further alleges that the defendants possessed monopoly
power with respect to AndroGel 1% at the time of the
filing of the underlying lawsuits.
The court has before it the motions3 of the defendants for summary judgment on Count One of the complaint and the motion of the plaintiff FTC for partial
summary judgment on the objective baselessness element of the sham litigation prong of their illegal monopolization claim.4
2

Those lawsuits were Abbott Products, Inc. v. Teva Pharmaceuticals USA, Inc., Civil Action No. 11-384 (D. Del.), and Abbott
Products, Inc. v. Perrigo Co., Civil Action No. 11-6357 (D.N.J.),
respectively.
3

The defendants originally moved for summary judgment in
February 2015 before discovery had been conducted in this case.
These motions are now ripe for the court’s review.
4

The court previously dismissed Count Two, which was the
only other claim for relief, wherein the FTC asserted that AbbVie
had entered into an anticompetitive settlement with Teva of their
underlying patent infringement litigation against Teva. See FTC

179a
I.
We first turn to the undisputed facts from the
prosecution history record of the ’894 patent, which issued on January 7, 2003 from U.S. Patent Application
Serial No. 09/651,777 (“the ’777 application”).
The patent application process began in August
2000 when AbbVie and Besins filed an application for a
“pharmaceutical composition comprising testosterone
in a gel formulation, and to methods of using the same.”
Claim 1 of the ’777 application read:
A pharmaceutical composition useful for the
percutaneous delivery of an active pharmaceutical ingredient, comprising:
(a) a C1-C4 alcohol;
(b) a penetration enhancer;
(c) the active pharmaceutical ingredient;
and
(d) water.
(Emphasis added). Claim 1 encompassed all penetration enhancers without limitation.5 The ’777 application
explained that “[a] ‘penetration enhancer’ is an agent
known to accelerate the delivery of the drug through
the skin.” The invention description in the ’777 application stated:

v. AbbVie Inc., 107 F. Supp. 3d 428, 438 (E.D. Pa. 2015). Although
Teva was named as a defendant in this action, as result of the dismissal of Count Two, Teva is no longer a party.
5

On page thirty-three of their brief in support of their motion
for summary judgment, the defendants state that there are at
least 30,000,000 penetration enhancers. (Doc. # 241).

180a
Non-limiting examples of penetration enhancers include C8-C22 fatty acids such as isostearic acid, octanoic acid, and oleic acid; C8-C22
fatty alcohols such as oleyl alcohol and lauryl
alcohol; lower alkyl esters of C8-C22 fatty acids
such as ethyl oleate, isopropyl myristate, butyl
stearate, and methyl laurate; di(lower)alkyl esters of C6-C8 diacids such as diisopropyl
adipate; monoglycerides of C8-C22 fatty acids
such as glyceryl monolaurate; tetrahydrofurfuryl alcohol polyethylene glycol ether; polyethylene
glycol,
propylene
glycol;
2-(2ethoxyethoxy)ethanol;
diethylene
glycol
monomethyl ether; alkylaryl ethers of polyethylene oxide; polyethylene oxide monomethyl
ethers; polyethylene oxide dimethyl ethers;
dimethyl sulfoxide; glycerol; ethyl acetate;
acetoacetic ester; N-alkylpyrrolidone; and terpenes.
(Emphasis added). Isopropyl myristate is the penetration enhancer actually used in AndroGel 1%.
In June 2001, the patent examiner at the U.S. Patent and Trademark Office (“PTO”) rejected claims 1-9
and 35-366 of the ’777 application as obvious over prior
art references Mak in view of Allen, among others. Allen is an international patent application published in
September 1996, which discloses the use of isopropyl
myristate, isopropyl palmitate, and three other penetration enhancers in a nitroglycerin cream. Mak is an
international patent application published in May 1999,
which discloses a transdermal testosterone gel that us6

Claims 10-34 already had been withdrawn by the applicants
by the time that the PTO issued its June 2001 office action.

181a
es the penetration enhancer oleic acid. In rejecting the
claims of the ’777 application, the examiner stated
“[s]ince all composition components herein are known
to be useful for the percutaneous delivery of pharmaceuticals, it is considered prima facie obvious to combine them into a single composition useful for the very
same purpose.”
In response to the June 2001 office action rejecting
the claim of all penetration enhancers, AbbVie and Besins submitted their first amendment to their ’777 application in October 2001. Claim 1 of the amended ’777
application now read:
A pharmaceutical composition useful for the
percutaneous delivery of an active pharmaceutical ingredient, consisting essentially of:
(a) at least one penetration enhancer selected from the group consisting of isostearic acid, octanoic acid, lauryl alcohol,
ethyl oleate, isopropyl myristate, butyl
stearate, methyl laurate, diisopropyl
adipate, glyceryl monolaurate, tetrahydrofurfuryl alcohol, polyethylene glycol ether,
polyethylene glycol, propylene glycol, 2-(2ethoxyethoxy) ethanol, diethylene glycol
monomethyl ether, alkylaryl ethers of polyethylene oxide, polyethylene oxide
monomethyl ethers, polyethylene oxide
dimethyl ethers, dimethyl sulfoxide, glycerol, ethyl acetate, acetoacetic ester, Nalkylpyrrolidone, terpene, and combinations of any of the foregoing; and
(b) testosterone.

182a
(Emphasis added). In this amendment, AbbVie and
Besins narrowed their claim from one encompassing all
penetration enhancers to a claim naming only twentyfour penetration enhancers, including isopropyl
myristate. They also added several new claims. In new
claim 47, AbbVie and Besins claimed “a penetration enhancer selected from the group consisting of isopropyl
myristate and lauryl alcohol.” In new claims 61 and 62,
they identified only isopropyl myristate as the penetration enhancer.
In support of the October 2001 amendment, the defendants argued to the examiner that “[a]pplicants’ invention is not obvious because of secondary considerations recognized by the courts as indicia of nonobviousness.” They submitted the declaration of JeanLouis Anspach, the chief executive officer of Unimed
Pharmaceuticals, Inc., stating that “Unimed launched
AndroGel® in June 2000, and it has met with substantial commercial success as shown below.” The AndroGel product used only isopropyl myristate as the penetration enhancer.
On December 6, 2001, attorneys for AbbVie and
Besins met with the patent examiner to discuss the October 2001 amendment. In her interview summary, the
examiner noted that claims 61 and 62, which identified
only isopropyl myristate as the penetration enhancer,
“are seen to be allowable over the prior art.” The interview summary also stated that “applicants argued
claim 47 is novel [and] nonobvious over the prior art
because the prior art does not teach the composition
with particular concentration.” As previously stated,
claim 47 identified isopropyl myristate and lauryl alcohol as penetration enhancers.

183a
Two weeks later, on December 21, 2001, AbbVie
and Besins submitted a supplemental amendment to
their patent application. They cancelled the October
2001 amended claim 1 in its entirety and amended claim
47 to specify only isopropyl myristate as the penetration enhancer. As a result, they reduced the number of
penetration enhancers in the ’777 application from
twenty-four to one. AbbVie and Besins also modified
the concentration ranges for isopropyl myristate in
claim 61. In support of their amended application,
AbbVie and Besins stated:
With entry of the above amendments and in
view of the foregoing remarks, it is respectfully
submitted that claims 47, 48, 51, 52, 54-62, 66-96
are in condition for allowance. … Accordingly,
reconsideration and withdrawal of the outstanding rejections and allowance of the present claim is respectfully solicited.
They further asserted that “[t]he prior art does not
teach the claimed combination; therefore, it is patentable.”
AbbVie and Besins submitted additional amendments in February 2002, July 2002, and August 2002.
The February 2002 amendment narrowed the concentration range for isopropyl myristate in claims 47 and
61 and cancelled claim 62. AbbVie and Besins stated in
the February 2002 that they sought “reconsideration
and withdrawal of the outstanding rejections and allowance of the present claims.” The July 2002 and August 2002 amendments contained additional changes
not relevant here.
The patent examiner finally issued a Notice of Allowability in August 2002 as to claims 47-48, 51-52, 5457, 61, 78-81, 83, 87-89, and 97-121. The examiner wrote

184a
that “[t]he claimed pharmaceutical composition consisting essentially of the particular ingredients herein in
the specific amounts, is not seen to be taught or fairly
suggested by the prior art as discussed below.” The
examiner then distinguished the most recent version of
the ’777 application from the previous versions of the
application and from the prior art references Mak and
Allen, among others, that were the bases for her rejections in her June 2001 office action. The examiner approved the application because “the prior art [including
Allen] does not teach or fairly suggest the instant
claimed pharmaceutical composition consisting essentially of the specific ingredients herein in the particular
amounts.”
In January 2003, the ’894 patent issued. Isopropyl
myristate was now the only claimed penetration enhancer. The ’894 patent expires in 2020.
Thereafter, Perrigo and Teva, two competitors of
AbbVie and Besins, developed generic versions of AndroGel 1%. In order to be able to market their generic
products, Perrigo and Teva sought approval from the
FDA. Perrigo’s product was similar to AndroGel 1% in
most respects, except that it used isostearic acid, rather than isopropyl myristate, as the penetration enhancer. Teva’s product used isopropyl palmitate rather
than isopropyl myristate as its penetration enhancer.
In April 2011 and October 2011, AbbVie and Besins
filed lawsuits against Teva and Perrigo. In those lawsuits, AbbVie and Besins maintained that Teva’s and
Perrigo’s generic products infringed the ’894 patent
under the doctrine of equivalents. They did not allege
literal infringement.
At the time the lawsuits were filed, Teva and Perrigo were still in the process of obtaining approval of

185a
their generic products from the FDA. By filing the
lawsuits, AbbVie and Besins automatically triggered a
thirty-month stay of FDA approval of those generic
products. See 21 U.S.C. § 355(c)(3)(C). This step delayed entry of the Teva and Perrigo generic products
into the market where they would compete with AndroGel 1%. Perrigo began selling its generic product in
December 2014 while Teva has not launched its generic
product.
II.
In Count One, the only remaining claim in this action, the FTC asserts that AbbVie and Besins engaged
in illegal monopolization by filing sham patent litigation
against Perrigo and Teva so as to delay entry of their
generic products into the testosterone gel market
where those generic products would compete with the
defendants’ AndroGel 1%. In order to prove a claim of
illegal monopolization, the FTC must establish both:
“(1) the possession of monopoly power [by the defendants] in the relevant market and (2) the willful acquisition or maintenance [by the defendants] of that power.”7 Broadcom Corp. v. Qualcomm, Inc., 501 F.3d 297,
306-07 (3d Cir. 2007) (quoting United States v. Grinnell
Corp., 384 U.S. 563, 570-71 (1966)).
As noted above, the defendants have filed a motion
for summary judgment, and the FTC has filed a motion
for partial summary judgment. Under Rule 56 of the
7

Although this standard for illegal monopolization comes
from cases interpreting the Sherman Act, 15 U.S.C. § 2, it is wellsettled that § 45(a) of the FTC Act, the relevant statutory provision here, contemplates a range of conduct that includes, but is not
limited to, conduct that violates the Sherman Act. See, e.g., FTC v.
Ind. Fed’n of Dentists, 476 U.S. 447, 454 (1986).

186a
Federal Rules of Civil Procedure, summary judgment
is appropriate “if the movant shows that there is no
genuine dispute as to any material fact and the movant
is entitled to judgment as a matter of law.” Fed. R.
Civ. P. 56(a); see also Celotex Corp. v. Catrett, 477 U.S.
317, 323 (1986). A dispute is genuine if the evidence is
such that a reasonable factfinder could return a verdict
for the nonmoving party. See Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986). Summary judgment
is granted where there is insufficient record evidence
for a reasonable factfinder to find for the nonmovant.
See id. When ruling on a motion for summary judgment, we view the facts and draw all inferences in favor
of the nonmoving party. See In re Flat Glass Antitrust
Litig., 385 F.3d 350, 357 (3d Cir. 2004).
The FTC seeks partial summary judgment as to only the willful acquisition or maintenance of monopoly
power prong of the illegal monopolization claim. In
particular, the FTC alleges that the defendants willfully acquired or maintained monopoly power by filing
sham patent infringement litigation against Teva and
Perrigo. Although parties generally may not be held
liable for violating the antitrust laws for petitioning the
government for redress, this immunity does not extend
to sham litigation. See Prof’l Real Estate Inv’rs, Inc. v.
Columbia Pictures Indus., Inc. (“PRE”), 508 U.S. 49,
57 (1993) (citing United Workers of Am. v. Pennington,
381 U.S. 657, 670 (1965); E. R.R. Presidents Conference
v. Noerr Motor Freight, Inc., 365 U.S. 127, 144 (1961));
In re Wellbutrin XL Antitrust Litig., ___ F.3d ___, 2017
WL 3531069, at *6 (3d Cir. Aug. 9, 2017).
To prove that the infringement actions filed by
AbbVie and Besins against Teva and Perrigo were
shams, the FTC must establish that: (1) those lawsuits
were objectively baseless; and (2) those filing the law-

187a
suits subjectively intended to interfere directly with a
competitor’s business interests using government process as an anticompetitive weapon. See PRE, 508 U.S.
at 60-61. The second element concerning the subjective
intent of the defendants is not now before the court.
The defendants argue that they are entitled to
summary judgment because the FTC cannot make out
as a matter of law either the objective baselessness element of the sham litigation prong or the monopoly
power prong of the illegal monopolization claim.
III.
We begin with the objective baselessness element
of the sham litigation prong of the monopolization
claim. Litigation is objectively baseless if “no reasonable litigant could realistically expect success on the
merits.” See PRE, 508 U.S. at 60. To demonstrate that
litigation is objectively baseless, “the plaintiff [must]
prove that the defendant lacked probable cause” in filing the underlying lawsuit. See id. at 62. Probable
cause “requires no more than a ‘reasonabl[e] belie[f]
that there is a chance that [a] claim may be held valid
upon adjudication.’” Id. at 62-63 (quoting Hubbard v.
Beatty & Hyde, Inc., 178 N.E.2d 485, 488 (Ma. 1961)).
In the two underlying lawsuits at issue here,
AbbVie and Besins alleged that Teva’s use of the isopropyl palmitate as a penetration enhancer and Perrigo’s use of isostearic acid for that same purpose in their
respective generic products infringed the ’894 patent
under the doctrine of equivalents. AbbVie and Besins
did not assert that Teva and Perrigo engaged in literal
infringement since the ’894 patent disclosed the use of
only isopropyl myristate, a different penetration enhancer. Instead, AbbVie and Besins claimed that iso-

188a
propyl palmitate and isostearic acid were the equivalents of isopropyl myristate.
The doctrine of equivalents provides that “[t]he
scope of a patent is not limited to its literal terms but
instead embraces all equivalents to the claims described.” Festo Corp. v. Shoketsu Kinzoku Kogyo Kabushiki Co. (“Festo VIII”), 535 U.S. 722, 732 (2002)8;
see also Warner-Jenkinson Co. v. Hilton Davis Chem.
Co., 520 U.S. 17, 29 (1997). “The doctrine of equivalents
allows the patentee to claim those insubstantial alterations that were not captured in drafting the original patent claim but which could be created through trivial
changes.” Festo VIII, 535 U.S. at 733. An element of
the alleged infringing product is equivalent to an element of the patented invention if the alleged equivalent
is insubstantially different. See Dawn Equip. Co. v. Ky.
Farms, Inc., 140 F.3d 1009, 1015-16 (Fed. Cir. 1998)
(citing Warner-Jenkinson Co., 520 U.S. at 40).
The FTC does not dispute that the penetration enhancers used by Perrigo and Teva are insubstantially
different from the isopropyl myristate penetration enhancer used in AndroGel 1% and disclosed in the ’894
patent. Rather, the FTC maintains that the lawsuits
against Teva and Perrigo were objectively baseless under the doctrine of prosecution history estoppel. This
doctrine with certain exceptions precludes a patentee
from claiming equivalents if the patentee surrendered
8

There were numerous opinions written by the Federal Circuit, Supreme Court, and other federal courts during the course of
litigation between Festo Corporation and Shoketsu Kinzoku
Kogyo Kabushiki Company. Although this Memorandum does not
mention many of the related cases, we will refer to the cases that
are mentioned by their place in the litigation series, as has been
done by other courts.

189a
the equivalents for reasons of patentability during the
patent prosecution process. See Festo VIII, 535 U.S. at
733-34. The FTC argues that the defendants are estopped from claiming that the isostearic acid used in
the Perrigo product or the isopropyl palmitate used in
the Teva product are equivalents of the isopropyl
myristate claimed in the ’894 patent because, in the
FTC’s view, the defendants clearly and affirmatively
surrendered those penetration enhancers during the
patent prosecution.
As the Supreme Court has explained, prosecution
history estoppel balances the rights of patentees with
the interest of the public in understanding the limits of
the patent so that the public may “be encouraged to
pursue innovations, creations, and new ideas beyond
the inventor’s exclusive rights.” See id. at 731-32. It
also “ensures that the doctrine of equivalents remains
tied to its underlying purpose” of acknowledging “language’s inability to capture the essence of innovation.”
Id. at 734. When the prosecution history record
demonstrates that the patentee “turned his attention to
the subject matter in question, knew the words for both
the broader and narrower claim, and affirmatively
chose the latter,” the patentee is not entitled to the
protections of the doctrine of equivalents as to that subject matter. Id. at 734-35. “[T]he purpose of applying
the estoppel in the first place [is] to hold the inventor to
the representations made during the application process and to the inferences that may reasonably be
drawn from the amendment.” Id. at 737-38. For the
patentee to prevail against the defense of prosecution
history estoppel, “[t]he patentee must show that at the
time of the amendment one skilled in the art could not
reasonably be expected to have drafted a claim that
would have literally encompassed the alleged equiva-

190a
lent.” See id. at 741. The Supreme Court has placed
the burden on the patentee to establish that any
amendment is not for the purpose of patentability. Id.
at 739.
The Federal Circuit has set forth a well-established
three-step inquiry for determining whether prosecution
history estoppel bars the defendants from claiming the
doctrine of equivalents. First, estoppel applies only if
the court determines that “an amendment filed in the
Patent and Trademark Office (“PTO”) has narrowed
the literal scope of a claim.” Festo Corp. v. Shoketsu
Kinzoku Kogyo Kabushiki Co. (“Festo IX”), 344 F.3d
1359, 1366 (Fed. Cir. 2003) (citing Festo VIII, 535 U.S.
at 740; Pioneer Magnetics, Inc. v. Micro Linear Corp.,
330 F.3d 1352, 1356 (Fed Cir. 2003)).
This first step requires us to identify the relevant
amendments in the ’777 application. The case law is
clear that we must consider the entire prosecution history in determining whether estoppel applies. See
Wang Labs., Inc. v. Toshiba Corp., 993 F.2d 858, 867
(Fed. Cir. 1993); Tex. Instruments, Inc. v. U.S. Int’l
Trade Comm’n, 988 F.2d 1165, 1174 (Fed. Cir. 1993).
Yet, with respect to the Teva patent infringement litigation, the defendants argue that only the October 2001
amendment is relevant. In the October 2001 amendment, the defendants narrowed their original claim encompassing all penetration enhancers to a claim limited
to twenty-four identified penetration enhancers. This
amendment did not name and thus excluded isopropyl
palmitate, the penetration enhancer in Teva’s generic
product. The amendment, however, specifically included isostearic acid, the penetration enhancer in Perrigo’s
generic product, among the twenty-four penetration
enhancers that the defendants claimed. Thus, for the
patent infringement litigation against Perrigo, the de-

191a
fendants ask us to look only to the December 2001
amendment which eliminated isostearic acid from the
scope of the ’777 application.
While we agree with the defendants that the prosecution history estoppel inquiry takes into account only
the relevant amendments in the prosecution history,
we disagree with the defendants’ characterization of
what is relevant. The examiner, we note, rejected in
June 2001 claim 1 which claimed all penetration enhancers. In light of this rejection, over the course of
their October 2001, December 2001, and February 2002
amendments, the defendants without question narrowed the claimed penetration enhancers in the ’777
application from all penetration enhancers including
those used in the Teva and Perrigo products to only
isopropyl myristate at a particular concentration.9 We
must focus on the above history in its entirety to obtain
an accurate understanding of what occurred.
Having determined that the October 2001, December 2001, and February 2002 amendments narrowed
the relevant claims after the examiner’s rejection in
June 2001, “the second question [for determining prosecution history estoppel] is whether the reason for that
amendment was a substantial one relating to patentability.” See Festo IX, 344 F.3d at 1366-67. Prosecution
history estoppel applies to amendments made for a
substantial reason relating to patentability—whether
to address an earlier rejection or for some other reason
that satisfies a requirement of the Patent Act, 35
U.S.C. §§ 101, et seq. See id. at 1366 (citing Festo VIII,
535 U.S. at 727). As noted above, the patentee “bear[s]
9

In July 2002 and August 2002, the defendants made additional amendments to other aspects of the claimed invention that
are not at issue here.

192a
the burden of showing that the amendment does not
surrender the particular equivalent in question.” Festo
VIII, 535 U.S. at 740; Festo IX, 344 F.3d at 1368. In
doing so, the patentee “is restricted to the evidence in
the prosecution history record.” Festo IX, 344 F.3d at
1367 (citing Warner-Jenkinson Co., 520 U.S. at 33)).
Even if the amendment was for purposes of patentability, the patentee can rebut the presumption of surrender by demonstrating: (1) the alleged equivalent
was “unforeseeable at the time of the application;” (2)
“the rationale underlying the amendment [ ] bear[s] no
more than a tangential relation to the equivalent in
question;” or (3) there is “some other reason suggesting
that the patentee could not reasonably be expected to
have described the insubstantial substitute in question.” See Festo VIII, 535 U.S. at 740-41 (emphasis
added). In this case, the defendants rely only on the
tangential relation exception. “The tangential relation
criterion for overcoming the Festo presumption is very
narrow.”
Honeywell Int’l, Inc. v. Hamilton
Sundstrand Corp., 523 F.3d 1304, 1315 (Fed. Cir. 2008).
It “asks whether the reason for the narrowing amendment was peripheral, or not directly relevant, to the
alleged equivalent.” Festo IX, 344 F.3d at 1369. This
inquiry “focuses on the patentee’s objectively apparent
reason for the narrowing amendment.” See id.
The question whether the patentee demonstrated a
tangential relation is a matter of law for the court to
decide. The court limits its review to “the prosecution
history record without the introduction of additional
evidence, except, when necessary, testimony from
those skilled in the art as to the interpretation of that
record.” Id. at 1370. This analysis “is an objective one
that depends on what a competitor would reasonably
conclude from the patent’s prosecution history.” See

193a
Mark I Mktg. Corp. v. R.R. Donnelley & Sons Co., 66
F.3d 285, 291 (Fed. Cir. 1995).
Turning first to the underlying patent infringement
litigation filed by AbbVie and Besins against Teva, the
defendants concede that they excluded isopropyl palmitate, the penetration enhancer used by Teva, from the
scope of the ’777 application for purposes of patentability. Nevertheless, they argue that it was objectively
reasonable to bring that lawsuit against Teva because
the October 2001 amendment excluding isopropyl palmitate was tangential to isopropyl palmitate. Relying
on expert testimony,10 the defendants contend that the
sole purpose of the October 2001 amendment was to exclude oleic acid, which is the penetration enhancer disclosed in the Mak prior art reference. Oleic acid, like
isopropyl palmitate, was not one of the twenty-four
penetration enhancers claimed in the October 2001
amendment.
It is undisputed that the October 2001 amendment
did not simply eliminate oleic acid or its components.
The examiner, it must be remembered, had rejected
the original claim 1 encompassing all penetration enhancers in June 2001. The October 2001 amendment
sought to overcome the rejection by narrowing the
original claim 1 for all penetration enhancers to only
twenty-four. It thereby excluded not only oleic acid
but also isopropyl palmitate and countless other pene10

Testimony from a person skilled in the art is not necessary
to interpret the prosecution history record in this case. See Festo
IX, 344 F.3d at 1370. Yet, even if we were to take into account the
rationale offered by the expert witness for the October 2001
amendment, the defendants are nevertheless estopped from asserting the doctrine of equivalents with respect to isopropyl palmitate for the reasons explained below.

194a
tration enhancers previously rejected. If AbbVie and
Besins merely sought to relinquish oleic acid and no
other penetration enhancer in October 2001, they easily
could have said so. The defendants’ latter-day explanation for the October 2001 amendment is groundless. It
fails the reasonableness test in light of the examiner’s
June 2001 broad-based rejection to say that the abandonment of isopropyl palmitate and many other penetration enhancers was incidental to abandoning only
oleic acid. See Felix v. Am. Honda Motor Co., 562 F.3d
1167, 1184 (Fed. Cir. 2009); Amgen, Inc. v. Hoechst
Marion Roussel, Inc., 457 F.3d 1293, 1314-15 (Fed. Cir.
2006).
In addition, the Mak prior art, which disclosed the
use of oleic acid, was not the only prior art that AbbVie
and Besins had to address to overcome the examiner’s
rejection. In June 2001, the examiner had found the
’777 application obvious in light of the Allen prior art,
among others. The Allen prior art listed isopropyl palmitate as one of five penetration enhancers and used
isopropyl palmitate in six of its nine composition examples. It cannot be doubted from reading the prosecution history record that the defendants sought to address the examiner’s June 2001 obviousness rejection
based on the Allen prior art when they relinquished the
isopropyl palmitate penetration enhancer in filing their
October 2001 amendment. The surrender of isopropyl
palmitate in the October 2001 amendment to avoid prior art is “the classic basis for the application of prosecution history estoppel.”11 See Pioneer Magnetics, Inc. v.
11

Moreover, as the Federal Circuit has explained:

[T]here is no principle of patent law that the scope of a
surrender of subject matter during prosecution is limited
to what is absolutely necessary to avoid a prior art refer-

195a
Micro Linear Corp., 330 F.3d 1352, 1357 (Fed Cir.
2003); Festo IX, 344 F.3d at 1369.
The defendants further argue that the October
2001 amendment could not have intended to overcome
the Allen prior art with its disclosure of isopropyl palmitate because Allen also disclosed isopropyl myristate,
which was included in the ’894 patent. The defendants’
argument is without any merit.
The defendants, during the patent prosecution, cited to evidence of secondary considerations of nonobviousness to support their inclusion of isopropyl
myristate at a particular concentration in the October
2001 amendment and to overcome Allen. A patent applicant may rely on secondary considerations of commercial success, long felt but unmet needs, and the failure of others, among other factors, to overcome an obviousness rejection. See KSR Int’l Co. v. Teleflex, Inc.,
550 U.S. 398, 399 (2007) (citing Graham v. John Deere
Co. of Kansas City, 383 U.S. 1, 17-18 (1966)). In their
remarks in connection with the October 2001 amendment, the defendants argued to the examiner that
“[a]pplicants’ invention is not obvious because of secondary considerations recognized by the courts as indicia of non-obviousness.” In support of their position,

ence that was the basis for an examiner’s rejection. To
the contrary, it frequently happens that patentees surrender more through amendment than may have been
absolutely necessary to avoid particular prior art. In
such cases, we have held the patentees to the scope of
what they ultimately claim, and we have not allowed
them to assert that claims should be interpreted as if
they had surrendered only what they had to.
Norian Corp. v. Stryker Corp., 432 F.3d 1356, 1361-62 (Fed.
Cir. 2005).

196a
they submitted the declaration of Jean-Louis Anspach,
the chief executive officer of Unimed Pharmaceuticals,
Inc. Anspach stated that “Unimed launched AndroGel® in June 2000, and it has met with substantial
commercial success as shown below.”
Isopropyl
myristate, at a concentration within the range disclosed
in the ‘894 patent, is the sole penetration enhancer in
AndroGel 1%. The defendants singled out isopropyl
myristate on the ground of its commercial success from
the other penetration enhancers disclosed in Allen. The
defendants made no effort based on commercial success
or otherwise to save isopropyl palmitate or the other
penetration enhancers disclosed in the Allen prior art
and found to be obvious by the examiner in June 2001.
In sum, the defendants have cited no evidence in
the prosecution history record to rebut the presumption of surrender of isopropyl palmitate. As the Supreme Court teaches in Festo VIII, to avoid prosecution history estoppel, the patentee must establish that
it could not reasonably be expected to have drafted the
October 2001 amendment to include isopropyl palmitate. See Festo VIII, 535 U.S. at 741. There is no way
that the defendants can avoid prosecution history estoppel by arguing that it was reasonable for them not
to include isopropyl palmitate in the October 2001
amendment. Accordingly, the surrender of isopropyl
palmitate in the October 2001 amendment was not tangential or peripheral to the isopropyl palmitate in
Teva’s generic product. See Festo IX, 344 F.3d at 1369.
We next turn to the isostearic acid penetration enhancer at issue in the Perrigo infringement action. The
defendants contend that it was objectively reasonable
to file infringement litigation against Perrigo because
the December 2001 amendment excluding isostearic
acid was not for purposes of patentability and was tan-

197a
gential to isostearic acid. In the December 2001
amendment, the defendants disavowed twenty-three of
the penetration enhancers listed in the October 2001
amendment, including isostearic acid, when they narrowed the claimed penetration enhancer to isopropyl
myristate.
The defendants contend that their exclusion of isostearic acid in December 2001 was not for a substantial
reason related to patentability because it was not in response to a rejection by the examiner. They note that
the only office action rejecting the ’777 application was
issued by the examiner in June 2001 and that they had
since amended the application in October 2001 to address that office action. According to defendants, none
of their pending claims stood rejected by the examiner
when they voluntarily submitted another amendment
in December 2001. The defendants are incorrect. They
would have the court ignore a significant event in the
prosecution history, that is the examiner’s rejection of
all penetration enhancers including isostearic acid in
June 2001. This we will not do.
Moreover, in the interview summary from the December 6, 2001 interview, the examiner stated that
claim 61, which included only isopropyl myristate as
the penetration enhancer, is “seen to be allowable over
the prior art.” The examiner’s earlier rejection in June
2001 and her position at the December 6, 2001 interview constituted a telling signal to any reasonable person that patentability required the narrowing of any
claim so that it disclosed isopropyl myristate at a particular concentration as the sole penetration enhancer.
The December 2001 amendment also explicitly
aimed to overcome the prior art cited by the examiner
in her June 2001 office action. The defendants argued

198a
in their December 2001 amendment that “reconsideration and withdrawal of the outstanding rejections and
allowance of the present claims is respectfully solicited.” They also asserted that “[t]he prior art does not
teach the claimed combination; therefore, it is patentable.”
The defendants’ statements in their various briefs
are also telling. On page three of their brief in opposition to the motion of the FTC for partial summary
judgment (Doc. # 256), the defendants state that the
December 2001 amendment “simplified the pending
claims to accord with subject matter that the examiner
already indicated was allowable over the prior art at a
time when the objective public facts showed that
prompt issuance of at least some claims was of pressing
concern.” The defendants admit at page thirty-nine of
their brief filed in support of their summary judgment
motion (Doc. # 241) that they dropped their claim to
isostearic acid and the other penetration enhancers
“immediately follow[ing] an interview in which the examiner stated that a claim reciting isopropyl myristate
would be allowable.” Thus, as the defendants argued in
the prosecution history record and reiterated in their
summary judgment briefs, their December 2001
amendment specifically aimed to address in pursuit of
patentability the examiner’s prior art objections in the
June 2001 office action.
The defendants’ reliance on a so-called voluntary
claim-amendment theory is spurious. A voluntary
claim amendment is one that the patent examiner does
not require or that is not made based on a specific rejection by the examiner. Such an amendment does not
preclude prosecution history estoppel. Festo IX, 344
F.3d at 1364, 1366; Pioneer Magnetics, Inc., 330 F.3d at
1357. Otherwise a patent applicant could simply re-

199a
lease its claims to subject matter that it believes the
examiner is unlikely to approve before the examiner
has issued an office action and then recapture that material under the doctrine of equivalents after the patent
issues. If the defendants are correct, they could recapture the twenty-three penetration enhancers that they
surrendered in December 2001 or potentially the more
than 30,000,000 penetration enhancers that were encompassed in the original claim 1 and relinquished in
October 2001.
The defendants further contend that by filing the
December 2001 amendment they simply sought to expedite their patent application in anticipation of the end
of the three-year FDA marketing exclusivity period for
AndroGel 1% in February 2003. An amendment narrowing the scope of the patent application in order to
expedite the patent prosecution process is necessarily
for the purpose of patentability unless it falls in a narrow exception. See Regents of the Univ. of Cal. v.
Dakocytomation Cal., Inc., 517 F.3d 1364, 1378 (Fed.
Cir. 2008); Biogen, Inc. v. Berlex Labs., Inc., 318 F.3d
1132, 1142 (Fed. Cir. 2003). Furthermore, the defendants’ extrinsic reasons for seeking expedited approval
of their application are not contained in the prosecution
history record and therefore are not relevant to vitiate
prosecution history estoppel. See Festo IX, 344 F.3d at
1367 (citing Pioneer Magnetics, 330 F.3d at 1356); Tex.
Instruments, Inc., 988 F.2d at 1174; Wang Labs., Inc.,
993 F.2d at 867.
As with the isopropyl palmitate in the Teva product, the defendants have no credible argument to rebut
the presumption of disavowal of isostearic acid in the
Perrigo product. The December 2001 amendment surrendering isostearic acid was not peripheral or tangential to isostearic acid. See Festo IX, 344 F.3d at 1369.

200a
Again, the defendants cannot overcome prosecution
history estoppel because they cannot establish that it
was reasonable for them not to have been expected to
draft the December 2001 amendment to include isostearic acid. The clear language of the Supreme Court in
Festo VIII is decisive. See Festo VIII, 535 U.S. at 741.
Finally, “the third question in a prosecution history
estoppel analysis addresses the scope of the subject
matter surrendered by the narrowing amendment.”
Festo IX, 344 F.3d at 1367. “A patentee’s decision to
narrow his claims through amendment may be presumed to be a general disclaimer of the territory between the original claim and the amended claim.” Festo
VIII, 535 U.S. at 740. The Supreme Court explained
that when a patentee narrows “a prior application describing the precise element at issue … . the prosecution history has established that the inventor turned
his attention to the subject matter in question, knew
the words for both the broader and narrower claim, and
affirmatively chose the latter.” See id. at 734-35. Consequently, there is a presumption that the patentee has
“surrendered all subject matter between the broader
and the narrower language.” See id. at 740; Pioneer
Magnetics, Inc., 330 F.3d at 1356 (citing WarnerJenkinson, 520 U.S. at 33).
Again, the defendants originally claimed all penetration enhancers in claim 1. The examiner rejected
the claim as obvious. Over the course of the patent application process, they narrowed their claim to isopropyl myristate at a particular concentration. In so doing,
the defendants relinquished their claims to isopropyl
palmitate and isostearic acid. The defendants cannot
now “avoid the PTO’s gatekeeping role and seek to recapture in an infringement action the very subject matter surrendered as a condition of receiving the patent.”

201a
See Festo VIII, 535 U.S. at 740. Prosecution history
estoppel without question prevents the defendants
from claiming that the doctrine of equivalents encompasses the penetration enhancers that they abandoned
during the application process, including isopropyl palmitate and isostearic acid. See id. at 736. The defendants clearly surrendered broader language for narrower language. See id. at 740. There is no plausible argument to overcome the presumption in favor of the
application of prosecution history estoppel.
In sum, the law with respect to sham litigation, the
doctrine of equivalents, and prosecution history estoppel was well-settled at the time that defendants filed
their lawsuits against Teva and Perrigo in 2011.12 See
PRE, 508 U.S. at 60-61; Festo VIII, 535 U.S. at 739;
Festo IX, 344 F.3d at 1369. In the final analysis, it must
not be forgotten that the purpose of prosecution history
estoppel is to protect the patentees’ competitors from
patent infringement litigation based on the doctrine of
equivalents if the prosecution history demonstrates
that an equivalent not specifically disclosed in the patent has been purposefully and not tangentially excluded from its scope. The patentee has the burden to
overcome the presumption of surrender. Here, any
reasonable person who reads the prosecution history of
the ’894 patent can reach no other conclusion than that
the defendants have purposefully and not tangentially
excluded isopropyl palmitate and isostearic acid as penetration enhancers equivalent to isopropyl myristate.
12

The Supreme Court has “made it clear that the doctrine of
equivalents and the rule of prosecution history estoppel are settled
law. The responsibility for changing them rests with Congress.”
See Festo VIII, 535 U.S. at 739 (citing Warner-Jenkinson Co., 520
U.S. at 28).

202a
The patent lawsuits against Teva and Perrigo were
without question objectively baseless. AbbVie and Besins could not realistically have expected success on the
merits of this issue or have had a reasonable belief that
they had a chance to prevail. See PRE, 508 U.S. at 60,
62-63. The FTC is entitled to partial summary judgment on the objective baselessness element of the sham
litigation prong of their illegal monopolization claim.13
To the extent that the defendants move for summary
judgment on objective baselessness, their motion will
be denied.
IV.
The defendants also seek summary judgment on
the monopoly power prong of the FTC’s illegal monopolization claim under Section 5(a) of the FTC Act, 15
U.S.C. § 45(a), which, as previously noted, provides that
“[u]nfair methods of competition in or affecting commerce, and unfair or deceptive acts or practices in or
affecting commerce, are hereby declared unlawful.” In
order to commit illegal monopolization, the defendants
must have had “monopoly power in the relevant market.” Mylan Pharm., Inc. v. Warner Chilcott Pub. Ltd.
Co., 838 F.3d 421, 433 (3d Cir. 2016). “[M]onopoly power is ‘the ability to control prices and exclude competition in a given market.’” Id. at 434 (quoting Broadcom
Corp., 501 F.3d at 307). This is a fact-intensive inquiry.
See Eastman Kodak Co. v. Image Tech. Servs., Inc.,
504 U.S. 451, 482 (1992). The plaintiff has the burden of
13

The defendants raise a number of other arguments in opposition to the FTC’s motion for partial summary judgment and in
support of their own motion for summary judgment on the issue of
objective baselessness. Those arguments are without merit and do
not warrant further discussion.

203a
proof with respect to these questions of fact.
Mylan Pharm., Inc., 838 F.3d at 435.

See

A plaintiff may prove “[t]he existence of monopoly
power … through direct evidence of supracompetitive
prices and restricted output.” See Mylan Pharm., Inc.,
838 F.3d at 434 (quoting Broadcom Corp., 501 F.3d at
307). In demonstrating monopoly power by direct evidence, “a plaintiff must often provide an analysis of the
defendant’s costs, showing both that the defendant had
an ‘abnormally high price-cost margin’ and that the defendant ‘restricted output.’” See id.
In addition, a plaintiff may prove monopoly power
by indirect evidence. “To support a claim of monopoly
power through indirect evidence, [the plaintiff] must
show that (1) Defendants had market power in the relevant market and (2) that there were barriers to entry
into the market.” Id. at 435. Products are in the same
market if there is reasonable interchangeability of use
and cross-elasticity of demand. See id. Cross-elasticity
of demand is “[a] relationship between two products,
usually substitutes for each other, in which a price
change for one product affects the price of the other.”
Id. at 435-36 (quoting Black’s Law Dictionary 458 (10th
ed. 2014)).
Here, there are genuine disputes of material fact
concerning defendants’ monopoly power. At this stage,
the defendants are not entitled to judgment as a matter
of law as to the monopoly power prong of the illegal
monopolization claim. See Fed. R. Civ. P. 56(a). This
complex issue will have to await a trial.
V.
Accordingly, we will grant the motion of the plaintiff Federal Trade Commission for partial summary

204a
judgment on the objective baselessness element of the
sham litigation prong of its monopolization claim and
deny the motions of defendants AbbVie Inc., Abbott
Laboratories, Unimed Pharmaceuticals LLC, and Besins Healthcare Inc. for summary judgment.

205a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
Nos. 18-2621/18-2748/18-2758
FEDERAL TRADE COMMISSION,
Appellant in No. 18-2621
v.
ABBVIE INC; ABBOTT LABORATORIES; UNIMED
PHARMACEUTICALS, LLC; BESINS HEALTHCARE, INC;
*TEVA PHARMACEUTICALS USA INC,
AbbVie Inc; Abbott Laboratories; Unimed
Pharmaceuticals, LLC,
Appellants in No. 18-2748
Besins Healthcare, Inc.,
Appellant No. 18-2758
(*Dismissed Pursuant to Court’s 3/12/19 Order.)
(E.D. Pa. No. 14-cv-05151)
SUR PETITION FOR REHEARING
Present: SMITH, Chief Judge, MCKEE, AMBRO,
CHAGARES,
JORDAN,
HARDIMAN,
SHWARTZ, RESTREPO, BIBAS, PORTER,
MATEY, and PHIPPS, Circuit Judges.
Upon consideration of the petition for rehearing
filed by the Federal Trade Commission and the petition

206a
for rehearing filed by AbbVie Inc., Abbott Laboratories, Unimed Pharmaceuticals LLC, and Besins
Healthcare, Inc. in the above-entitled cases having
been submitted to the judges who participated in the
decision of this Court and to all the other available circuit judges of the circuit in regular active service, and
no judge who concurred in the decision having asked
for rehearing, and a majority of the judges of the circuit
in regular service not having voted for rehearing, the
petition of the Federal Trade Commission and the petition of AbbVie Inc., Abbott Laboratories, Unimed
Pharmaceuticals LLC, and Besins Healthcare, Inc. for
rehearing by the panel and the Court en banc, are denied. Judge Ambro would have granted the Federal
Trade Commission’s petition.
BY THE COURT,
s/ Thomas M. Hardiman
Circuit Judge
Dated: December 4, 2020
CJG/cc:
All Counsel of Record

207a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 18-2621
FEDERAL TRADE COMMISSION,
Appellant,
v.
ABBVIE INC; ABBOTT LABORATORIES; UNIMED
PHARMACEUTICALS, LLC; BESINS HEALTHCARE, INC.;
*TEVA PHARMACEUTICALS USA, INC.
(*Dismissed Pursuant to Court’s 3/12/19 Order.)
No. 18-2748
FEDERAL TRADE COMMISSION
v.
ABBVIE INC; ABBOTT LABORATORIES; UNIMED
PHARMACEUTICALS, LLC; BESINS HEALTHCARE, INC.;
*TEVA PHARMACEUTICALS USA, INC.
Abbvie Inc; Abbott Laboratories; Unimed
Pharmaceuticals, LLC
Appellants
(*Dismissed Pursuant to Court’s 3/12/19 Order.)
No. 18-2758
FEDERAL TRADE COMMISSION

208a
v.
ABBVIE INC; ABBOTT LABORATORIES; UNIMED
PHARMACEUTICALS, LLC; BESINS HEALTHCARE, INC.;
*TEVA PHARMACEUTICALS USA, INC.
Besins Healthcare, Inc.,
Appellant
(*Dismissed Pursuant to Court’s 3/12/19 Order.)
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. No. 2-14-cv-05151)
District Judge: Honorable Harvey Bartle, III
Argued on January 15, 2020
Before: HARDIMAN, PORTER, and PHIPPS,
Circuit Judges.
JUDGMENT
This cause came on to be heard on the record from
the United States District Court for the Eastern District of Pennsylvania and was argued on January 15,
2020. On consideration whereof, it is now hereby
ORDERED and ADJUDGED that the order of the
United States District Court for the Eastern District of
Pennsylvania entered on May 6, 2015 is hereby reversed and the judgment entered on July 18, 2018 is
hereby AFFIRMED in part, REVERSED in part,
VACATED in part and the matter REMANDED to
the District Court. All of the above in accordance with
the Opinion of this Court.

209a
No costs shall be taxed.
ATTEST:
s/ Patricia S. Dodszuweit
Clerk
Dated: September 30, 2020

211a
APPENDIX F
RELEVANT CONSTITUTIONAL
AND STATUTORY PROVISIONS
U.S. CONSTITUTION AMENDMENT I
Amendment I. Establishment of Religion; Free
Exercise of Religion; Freedom of Speech and the
Press; Peaceful Assembly; Petition for Redress of
Grievances
Congress shall make no law respecting an establishment of religion, or prohibiting the free exercise thereof; or abridging the freedom of speech, or of the press;
or the right of the people peaceably to assemble, and to
petition the Government for a redress of grievances.
21 U.S.C. § 355
§ 355. New drugs
(a) Necessity of effective approval of application
No person shall introduce or deliver for introduction
into interstate commerce any new drug, unless an approval of an application filed pursuant to subsection (b)
or (j) is effective with respect to such drug.
(b) Filing application; contents
(1) Any person may file with the Secretary an application with respect to any drug subject to the provisions
of subsection (a). Such person shall submit to the Secretary as a part of the application (A) full reports of investigations which have been made to show whether or
not such drug is safe for use and whether such drug is
effective in use; (B) a full list of the articles used as
components of such drug; (C) a full statement of the

212a
composition of such drug; (D) a full description of the
methods used in, and the facilities and controls used for,
the manufacture, processing, and packing of such drug;
(E) such samples of such drug and of the articles used
as components thereof as the Secretary may require;
(F) specimens of the labeling proposed to be used for
such drug, and (G) any assessments required under section 355c of this title. The applicant shall file with the
application the patent number and the expiration date
of any patent which claims the drug for which the applicant submitted the application or which claims a
method of using such drug and with respect to which a
claim of patent infringement could reasonably be asserted if a person not licensed by the owner engaged in
the manufacture, use, or sale of the drug. If an application is filed under this subsection for a drug and a patent which claims such drug or a method of using such
drug is issued after the filing date but before approval
of the application, the applicant shall amend the application to include the information required by the preceding sentence. Upon approval of the application, the
Secretary shall publish information submitted under
the two preceding sentences. The Secretary shall, in
consultation with the Director of the National Institutes of Health and with representatives of the drug
manufacturing industry, review and develop guidance,
as appropriate, on the inclusion of women and minorities in clinical trials required by clause (A).
(2) An application submitted under paragraph (1) for a
drug for which the investigations described in clause
(A) of such paragraph and relied upon by the applicant
for approval of the application were not conducted by
or for the applicant and for which the applicant has not
obtained a right of reference or use from the person by

213a
or for whom the investigations were conducted shall
also include—
(A) a certification, in the opinion of the applicant
and to the best of his knowledge, with respect to
each patent which claims the drug for which such
investigations were conducted or which claims a
use for such drug for which the applicant is seeking
approval under this subsection and for which information is required to be filed under paragraph
(1) or subsection (c)—
(i) that such patent information has not been
filed,
(ii) that such patent has expired,
(iii) of the date on which such patent will expire, or
(iv) that such patent is invalid or will not be infringed by the manufacture, use, or sale of the
new drug for which the application is submitted; and
(B) if with respect to the drug for which investigations described in paragraph (1)(A) were conducted
information was filed under paragraph (1) or subsection (c) for a method of use patent which does
not claim a use for which the applicant is seeking
approval under this subsection, a statement that
the method of use patent does not claim such a use.
(3) Notice of opinion that patent is invalid or
will not be infringed
(A) Agreement to give notice
An applicant that makes a certification described in paragraph (2)(A)(iv) shall include in

214a
the application a statement that the applicant
will give notice as required by this paragraph.
(B) Timing of notice
An applicant that makes a certification described in paragraph (2)(A)(iv) shall give notice
as required under this paragraph—
(i) if the certification is in the application,
not later than 20 days after the date of the
postmark on the notice with which the Secretary informs the applicant that the application has been filed; or
(ii) if the certification is in an amendment
or supplement to the application, at the
time at which the applicant submits the
amendment or supplement, regardless of
whether the applicant has already given
notice with respect to another such certification contained in the application or in an
amendment or supplement to the application.
(C) Recipients of notice
An applicant required under this paragraph to
give notice shall give notice to—
(i) each owner of the patent that is the
subject of the certification (or a representative of the owner designated to receive such a notice); and
(ii) the holder of the approved application
under this subsection for the drug that is
claimed by the patent or a use of which is
claimed by the patent (or a representative

215a
of the holder designated to receive such a
notice).
(D) Contents of notice
A notice required under this paragraph shall—
(i) state that an application that contains
data from bioavailability or bioequivalence
studies has been submitted under this subsection for the drug with respect to which
the certification is made to obtain approval
to engage in the commercial manufacture,
use, or sale of the drug before the expiration of the patent referred to in the certification; and
(ii) include a detailed statement of the factual and legal basis of the opinion of the applicant that the patent is invalid or will not
be infringed.
(4)(A) An applicant may not amend or supplement an
application referred to in paragraph (2) to seek approval of a drug that is a different drug than the drug identified in the application as submitted to the Secretary.
(B) With respect to the drug for which such an application is submitted, nothing in this subsection or subsection (c)(3) prohibits an applicant from amending or supplementing the application to seek approval of a different strength.
(5)(A) The Secretary shall issue guidance for the individuals who review applications submitted under paragraph (1) or under section 262 of Title 42, which shall
relate to promptness in conducting the review, technical excellence, lack of bias and conflict of interest, and
knowledge of regulatory and scientific standards, and

216a
which shall apply equally to all individuals who review
such applications.
(B) The Secretary shall meet with a sponsor of an investigation or an applicant for approval for a drug under this subsection or section 262 of Title 42 if the sponsor or applicant makes a reasonable written request for
a meeting for the purpose of reaching agreement on the
design and size—
(i)(I) of clinical trials intended to form the primary basis of an effectiveness claim; or
(II) in the case where human efficacy studies are
not ethical or feasible, of animal and any associated
clinical trials which, in combination, are intended to
form the primary basis of an effectiveness claim; or
(ii) with respect to an application for approval of a
biological product under section 262(k) of Title 42,
of any necessary clinical study or studies.
The sponsor or applicant shall provide information necessary for discussion and agreement on the design and
size of the clinical trials. Minutes of any such meeting
shall be prepared by the Secretary and made available
to the sponsor or applicant upon request.
(C) Any agreement regarding the parameters of the
design and size of clinical trials of a new drug under this
paragraph that is reached between the Secretary and a
sponsor or applicant shall be reduced to writing and
made part of the administrative record by the Secretary. Such agreement shall not be changed after the
testing begins, except—
(i) with the written agreement of the sponsor or
applicant; or

217a
(ii) pursuant to a decision, made in accordance
with subparagraph (D) by the director of the reviewing division, that a substantial scientific issue
essential to determining the safety or effectiveness
of the drug has been identified after the testing has
begun.
(D) A decision under subparagraph (C)(ii) by the director shall be in writing and the Secretary shall provide
to the sponsor or applicant an opportunity for a meeting at which the director and the sponsor or applicant
will be present and at which the director will document
the scientific issue involved.
(E) The written decisions of the reviewing division
shall be binding upon, and may not directly or indirectly be changed by, the field or compliance division personnel unless such field or compliance division personnel demonstrate to the reviewing division why such decision should be modified.
(F) No action by the reviewing division may be delayed because of the unavailability of information from
or action by field personnel unless the reviewing division determines that a delay is necessary to assure the
marketing of a safe and effective drug.
(G) For purposes of this paragraph, the reviewing division is the division responsible for the review of an
application for approval of a drug under this subsection
or section 262 of Title 42 (including all scientific and
medical matters, chemistry, manufacturing, and controls).
(6) An application submitted under this subsection
shall be accompanied by the certification required under section 282(j)(5)(B) of Title 42. Such certification
shall not be considered an element of such application.

218a
(c) Period for approval of application; period for, notice, and expedition of hearing; period for issuance of
order
(1) Within one hundred and eighty days after the
filing of an application under subsection (b), or such
additional period as may be agreed upon by the
Secretary and the applicant, the Secretary shall either—
(A) approve the application if he then finds
that none of the grounds for denying approval
specified in subsection (d) applies, or
(B) give the applicant notice of an opportunity
for a hearing before the Secretary under subsection (d) on the question whether such application is approvable. If the applicant elects to
accept the opportunity for hearing by written
request within thirty days after such notice,
such hearing shall commence not more than
ninety days after the expiration of such thirty
days unless the Secretary and the applicant
otherwise agree. Any such hearing shall thereafter be conducted on an expedited basis and
the Secretary's order thereon shall be issued
within ninety days after the date fixed by the
Secretary for filing final briefs.
(2) Not later than 30 days after the date of approval of an application submitted under subsection
(b), the holder of the approved application shall file
with the Secretary the patent number and the expiration date of any patent described in subsection
(b)(1)(A)(viii), except that a patent that is identified
as claiming a method of using such drug shall be
filed only if the patent claims a method of use approved in the application. If a patent described in

219a
subsection (b)(1)(A)(viii) is issued after the date of
approval of an application submitted under subsection (b), the holder of the approved application
shall, not later than 30 days after the date of issuance of the patent, file the patent number and the
expiration date of the patent, except that a patent
that claims a method of using such drug shall be
filed only if approval for such use has been granted
in the application. If the patent information described in subsection (b) could not be filed with the
submission of an application under subsection (b)
because the application was filed before the patent
information was required under subsection (b) or a
patent was issued after the application was approved under such subsection, the holder of an approved application shall file with the Secretary the
patent number and the expiration date of any patent described in subsection (b)(1)(A)(viii). If the
holder of an approved application could not file patent information under subsection (b) because it
was not required at the time the application was
approved, the holder shall file such information under this subsection not later than thirty days after
September 24, 1984, and if the holder of an approved application could not file patent information
under subsection (b) because no patent of the type
for which information is required to be submitted in
subsection (b)(1)(A)(viii) had been issued when an
application was filed or approved, the holder shall
file such information under this subsection not later
than thirty days after the date the patent involved
is issued. Upon the submission of patent information under this subsection, the Secretary shall
publish it. Patent information that is not the type of
patent information required by subsection

220a
(b)(1)(A)(viii) shall not be submitted under this
paragraph.
(3) The approval of an application filed under subsection (b) which contains a certification required
by paragraph (2) of such subsection shall be made
effective on the last applicable date determined by
applying the following to each certification made
under subsection (b)(2)(A):
(A) If the applicant only made a certification
described in clause (i) or (ii) of subsection
(b)(2)(A) or in both such clauses, the approval
may be made effective immediately.
(B) If the applicant made a certification described in clause (iii) of subsection (b)(2)(A), the
approval may be made effective on the date
certified under clause (iii).
(C) If the applicant made a certification described in clause (iv) of subsection (b)(2)(A), the
approval shall be made effective immediately
unless, before the expiration of 45 days after
the date on which the notice described in subsection (b)(3) is received, an action is brought
for infringement of the patent that is the subject of the certification and for which information was submitted to the Secretary under
paragraph (2) or subsection (b)(1) before the
date on which the application (excluding an
amendment or supplement to the application)
was submitted. If such an action is brought before the expiration of such days, the approval
may be made effective upon the expiration of
the thirty-month period beginning on the date
of the receipt of the notice provided under subsection (b)(3) or such shorter or longer period

221a
as the court may order because either party to
the action failed to reasonably cooperate in expediting the action, except that—
(i) if before the expiration of such period
the district court decides that the patent is
invalid or not infringed (including any substantive determination that there is no
cause of action for patent infringement or
invalidity), the approval shall be made effective on—
(I) the date on which the court enters
judgment reflecting the decision; or
(II) the date of a settlement order or
consent decree signed and entered by
the court stating that the patent that is
the subject of the certification is invalid
or not infringed;
(ii) if before the expiration of such period
the district court decides that the patent
has been infringed—
(I) if the judgment of the district court
is appealed, the approval shall be made
effective on—
(aa) the date on which the court of
appeals decides that the patent is
invalid or not infringed (including
any substantive determination that
there is no cause of action for patent infringement or invalidity); or
(bb) the date of a settlement order
or consent decree signed and entered by the court of appeals stat-

222a
ing that the patent that is the subject of the certification is invalid or
not infringed; or
(II) if the judgment of the district
court is not appealed or is affirmed, the
approval shall be made effective on the
date specified by the district court in a
court order under section 271(e)(4)(A)
of title 35;
(iii) if before the expiration of such period
the court grants a preliminary injunction
prohibiting the applicant from engaging in
the commercial manufacture or sale of the
drug until the court decides the issues of
patent validity and infringement and if the
court decides that such patent is invalid or
not infringed, the approval shall be made
effective as provided in clause (i); or
(iv) if before the expiration of such period
the court grants a preliminary injunction
prohibiting the applicant from engaging in
the commercial manufacture or sale of the
drug until the court decides the issues of
patent validity and infringement and if the
court decides that such patent has been infringed, the approval shall be made effective as provided in clause (ii).
In such an action, each of the parties shall reasonably cooperate in expediting the action.
(D) CIVIL
TAINTY.—

ACTION TO OBTAIN PATENT CER-

(i) DECLARATORY

JUDGMENT ABSENT IN-

FRINGEMENT ACTION.—

223a
(I) IN GENERAL.—No action may be
brought under section 2201 of title
28 by an applicant referred to in subsection (b)(2) for a declaratory judgment with respect to a patent which is
the subject of the certification referred
to in subparagraph (C) unless—
(aa) the 45-day period referred to
in such subparagraph has expired;
(bb) neither the owner of such patent nor the holder of the approved
application under subsection (b) for
the drug that is claimed by the patent or a use of which is claimed by
the patent brought a civil action
against the applicant for infringement of the patent before the expiration of such period; and
(cc) in any case in which the notice
provided under paragraph (2)(B)
relates to noninfringement, the notice was accompanied by a document described in subclause (III).
(II) FILING OF CIVIL ACTION.—If the
conditions described in items (aa), (bb),
and as applicable, (cc) of subclause (I)
have been met, the applicant referred
to in such subclause may, in accordance
with section 2201 of title 28, bring a civil action under such section against the
owner or holder referred to in such
subclause (but not against any owner
or holder that has brought such a civil
action against the applicant, unless that

224a
civil action was dismissed without
prejudice) for a declaratory judgment
that the patent is invalid or will not be
infringed by the drug for which the applicant seeks approval, except that
such civil action may be brought for a
declaratory judgment that the patent
will not be infringed only in a case in
which the condition described in subclause (I)(cc) is applicable. A civil action referred to in this subclause shall
be brought in the judicial district
where the defendant has its principal
place of business or a regular and established place of business.
(III) OFFER OF CONFIDENTIAL ACCESS
TO APPLICATION.—For purposes of
subclause (I)(cc), the document described in this subclause is a document
providing an offer of confidential access
to the application that is in the custody
of the applicant referred to in subsection (b)(2) for the purpose of determining whether an action referred to in
subparagraph (C) should be brought.
The document providing the offer of
confidential access shall contain such
restrictions as to persons entitled to
access, and on the use and disposition
of any information accessed, as would
apply had a protective order been entered for the purpose of protecting
trade secrets and other confidential
business information. A request for
access to an application under an offer

225a
of confidential access shall be considered acceptance of the offer of confidential access with the restrictions as
to persons entitled to access, and on
the use and disposition of any information accessed, contained in the offer
of confidential access, and those restrictions and other terms of the offer
of confidential access shall be considered terms of an enforceable contract.
Any person provided an offer of confidential access shall review the application for the sole and limited purpose of
evaluating possible infringement of the
patent that is the subject of the certification under subsection (b)(2)(A)(iv)
and for no other purpose, and may not
disclose information of no relevance to
any issue of patent infringement to any
person other than a person provided an
offer of confidential access. Further,
the application may be redacted by the
applicant to remove any information of
no relevance to any issue of patent infringement.
(ii) COUNTERCLAIM
ACTION.—

TO

INFRINGEMENT

(I) IN GENERAL.—If an owner of the
patent or the holder of the approved
application under subsection (b) for the
drug that is claimed by the patent or a
use of which is claimed by the patent
brings a patent infringement action
against the applicant, the applicant
may assert a counterclaim seeking an

226a
order requiring the holder to correct or
delete the patent information submitted by the holder under subsection (b)
or this subsection on the ground that
the patent does not claim either—
(aa) the drug for which the application was approved; or
(bb) an approved method of using
the drug.
(II) NO INDEPENDENT CAUSE OF ACTION.—Subclause (I) does not authorize the assertion of a claim described in
subclause (I) in any civil action or proceeding other than a counterclaim described in subclause (I).
(iii) NO DAMAGES.—An applicant shall not
be entitled to damages in a civil action under clause (i) or a counterclaim under
clause (ii).
(E)(i) If an application (other than an abbreviated new drug application) submitted under
subsection (b) for a drug, no active ingredient
(including any ester or salt of the active ingredient) of which has been approved in any other
application under subsection (b), was approved
during the period beginning January 1, 1982,
and ending on September 24, 1984, the Secretary may not make the approval of another application for a drug for which the investigations
described in subsection (b)(1)(A)(i) and relied
upon by the applicant for approval of the application were not conducted by or for the applicant and for which the applicant has not ob-

227a
tained a right of reference or use from the person by or for whom the investigations were
conducted effective before the expiration of ten
years from the date of the approval of the application previously approved under subsection
(b).
(ii) If an application submitted under subsection (b) for a drug, no active ingredient (including any ester or salt of the active ingredient) of
which has been approved in any other application under subsection (b), is approved after
September 24, 1984, no application which refers
to the drug for which the subsection (b) application was submitted and for which the investigations described in subsection (b)(1)(A)(i)
and relied upon by the applicant for approval of
the application were not conducted by or for
the applicant and for which the applicant has
not obtained a right of reference or use from
the person by or for whom the investigations
were conducted may be submitted under subsection (b) before the expiration of five years
from the date of the approval of the application
under subsection (b), except that such an application may be submitted under subsection (b)
after the expiration of four years from the date
of the approval of the subsection (b) application
if it contains a certification of patent invalidity
or noninfringement described in clause (iv) of
subsection (b)(2)(A). The approval of such an
application shall be made effective in accordance with this paragraph except that, if an action for patent infringement is commenced during the one-year period beginning forty-eight
months after the date of the approval of the

228a
subsection (b) application, the thirty-month period referred to in subparagraph (C) shall be
extended by such amount of time (if any) which
is required for seven and one-half years to have
elapsed from the date of approval of the subsection (b) application.
(iii) If an application submitted under subsection (b) for a drug, which includes an active ingredient (including any ester or salt of the active ingredient) that has been approved in another application approved under subsection
(b), is approved after September 24, 1984, and
if such application contains reports of new clinical investigations (other than bioavailability
studies) essential to the approval of the application and conducted or sponsored by the applicant, the Secretary may not make the approval of an application submitted under subsection (b) for the conditions of approval of such
drug in the approved subsection (b) application
effective before the expiration of three years
from the date of the approval of the application
under subsection (b) if the investigations described in subsection (b)(1)(A)(i) and relied upon by the applicant for approval of the application were not conducted by or for the applicant
and if the applicant has not obtained a right of
reference or use from the person by or for
whom the investigations were conducted.
(iv) If a supplement to an application approved
under subsection (b) is approved after September 24, 1984, and the supplement contains reports of new clinical investigations (other than
bioavailabilty 1 studies) essential to the approval of the supplement and conducted or spon-

229a
sored by the person submitting the supplement, the Secretary may not make the approval of an application submitted under subsection
(b) for a change approved in the supplement effective before the expiration of three years
from the date of the approval of the supplement
under subsection (b) if the investigations described in subsection (b)(1)(A)(i) and relied upon by the applicant for approval of the application were not conducted by or for the applicant
and if the applicant has not obtained a right of
reference or use from the person by or for
whom the investigations were conducted.
(v) If an application (or supplement to an application) submitted under subsection (b) for a
drug, which includes an active ingredient (including any ester or salt of the active ingredient) that has been approved in another application under subsection (b), was approved during
the period beginning January 1, 1982, and ending on September 24, 1984, the Secretary may
not make the approval of an application submitted under this subsection and for which the investigations described in subsection (b)(1)(A)(i)
and relied upon by the applicant for approval of
the application were not conducted by or for
the applicant and for which the applicant has
not obtained a right of reference or use from
the person by or for whom the investigations
were conducted and which refers to the drug
for which the subsection (b) application was
submitted effective before the expiration of
two years from September 24, 1984.
(4) A drug manufactured in a pilot or other small
facility may be used to demonstrate the safety and

230a
effectiveness of the drug and to obtain approval for
the drug prior to manufacture of the drug in a larger facility, unless the Secretary makes a determination that a full scale production facility is necessary
to ensure the safety or effectiveness of the drug.
(5)(A) The Secretary may rely upon qualified data
summaries to support the approval of a supplemental application, with respect to a qualified indication for a drug, submitted under subsection (b), if
such supplemental application complies with subparagraph (B).
(B) A supplemental application is eligible for review as described in subparagraph (A) only if—
(i) there is existing data available and acceptable to the Secretary demonstrating the
safety of the drug; and
(ii) all data used to develop the qualified data
summaries are submitted to the Secretary as
part of the supplemental application.
(C) The Secretary shall post on the Internet website of the Food and Drug Administration and update annually—
(i) the number of applications reviewed solely
under subparagraph (A) or section 262(a)(2)(E)
of title 42;
(ii) the average time for completion of review
under subparagraph (A) or section 262(a)(2)(E)
of title 42;
(iii) the average time for review of supplemental applications where the Secretary did
not use review flexibility under subparagraph
(A) or section 262(a)(2)(E) of title 42; and

231a
(iv) the number of applications reviewed under
subparagraph (A) or section 262(a)(2)(E) of title
42 for which the Secretary made use of full data
sets in addition to the qualified data summary.
(D) In this paragraph—
(i) the term “qualified indication” means an indication for a drug that the Secretary determines to be appropriate for summary level review under this paragraph; and
(ii) the term "qualified data summary" means a
summary of clinical data that demonstrates the
safety and effectiveness of a drug with respect
to a qualified indication.
*

*

*

(j) Abbreviated new drug applications
(1) Any person may file with the Secretary an abbreviated application for the approval of a new drug.
(2)(A) An abbreviated application for a new drug shall
contain—
(i) information to show that the conditions of use
prescribed, recommended, or suggested in the labeling proposed for the new drug have been previously approved for a drug listed under paragraph
(7) (hereinafter in this subsection referred to as a
“listed drug”);
(ii)(I) if the listed drug referred to in clause (i) has
only one active ingredient, information to show that
the active ingredient of the new drug is the same as
that of the listed drug;
(II) if the listed drug referred to in clause (i) has
more than one active ingredient, information to

232a
show that the active ingredients of the new drug
are the same as those of the listed drug, or
(III) if the listed drug referred to in clause (i) has
more than one active ingredient and if one of the
active ingredients of the new drug is different and
the application is filed pursuant to the approval of a
petition filed under subparagraph (C), information
to show that the other active ingredients of the
new drug are the same as the active ingredients of
the listed drug, information to show that the different active ingredient is an active ingredient of a
listed drug or of a drug which does not meet the
requirements of section 321(p) of this title, and such
other information respecting the different active
ingredient with respect to which the petition was
filed as the Secretary may require;
(iii) information to show that the route of administration, the dosage form, and the strength of the
new drug are the same as those of the listed drug
referred to in clause (i) or, if the route of administration, the dosage form, or the strength of the
new drug is different and the application is filed
pursuant to the approval of a petition filed under
subparagraph (C), such information respecting the
route of administration, dosage form, or strength
with respect to which the petition was filed as the
Secretary may require;
(iv) information to show that the new drug is bioequivalent to the listed drug referred to in clause (i),
except that if the application is filed pursuant to
the approval of a petition filed under subparagraph
(C), information to show that the active ingredients
of the new drug are of the same pharmacological or
therapeutic class as those of the listed drug re-

233a
ferred to in clause (i) and the new drug can be expected to have the same therapeutic effect as the
listed drug when administered to patients for a
condition of use referred to in clause (i);
(v) information to show that the labeling proposed
for the new drug is the same as the labeling approved for the listed drug referred to in clause (i)
except for changes required because of differences
approved under a petition filed under subparagraph (C) or because the new drug and the listed
drug are produced or distributed by different manufacturers;
(vi) the items specified in clauses (B) through (F)
of subsection (b)(1);
(vii) a certification, in the opinion of the applicant
and to the best of his knowledge, with respect to
each patent which claims the listed drug referred to
in clause (i) or which claims a use for such listed
drug for which the applicant is seeking approval
under this subsection and for which information is
required to be filed under subsection (b) or (c)—
(I) that such patent information has not been
filed,
(II) that such patent has expired,
(III) of the date on which such patent will expire, or
(IV) that such patent is invalid or will not be
infringed by the manufacture, use, or sale of
the new drug for which the application is submitted; and
(viii) if with respect to the listed drug referred to
in clause (i) information was filed under subsection

234a
(b) or (c) for a method of use patent which does not
claim a use for which the applicant is seeking approval under this subsection, a statement that the
method of use patent does not claim such a use.
The Secretary may not require that an abbreviated application contain information in addition to that required by clauses (i) through (viii).
(B) Notice of opinion that patent is invalid or
will not be infringed
(i) Agreement to give notice
An applicant that makes a certification described in subparagraph (A)(vii)(IV) shall include in the application a statement that the
applicant will give notice as required by this
subparagraph.
(ii) Timing of notice
An applicant that makes a certification described in subparagraph (A)(vii)(IV) shall give
notice as required under this subparagraph—
(I) if the certification is in the application,
not later than 20 days after the date of the
postmark on the notice with which the Secretary informs the applicant that the application has been filed; or
(II) if the certification is in an amendment
or supplement to the application, at the
time at which the applicant submits the
amendment or supplement, regardless of
whether the applicant has already given
notice with respect to another such certification contained in the application or in an

235a
amendment or supplement to the application.
(iii) Recipients of notice
An applicant required under this subparagraph
to give notice shall give notice to—
(I) each owner of the patent that is the
subject of the certification (or a representative of the owner designated to receive such a notice); and
(II) the holder of the approved application
under subsection (b) for the drug that is
claimed by the patent or a use of which is
claimed by the patent (or a representative
of the holder designated to receive such a
notice).
(iv) Contents of notice
A notice required under this subparagraph
shall—
(I) state that an application that contains
data from bioavailability or bioequivalence
studies has been submitted under this subsection for the drug with respect to which
the certification is made to obtain approval
to engage in the commercial manufacture,
use, or sale of the drug before the expiration of the patent referred to in the certification; and
(II) include a detailed statement of the factual and legal basis of the opinion of the applicant that the patent is invalid or will not
be infringed.

236a
(C) If a person wants to submit an abbreviated application for a new drug which has a different active ingredient or whose route of administration, dosage form,
or strength differ from that of a listed drug, such person shall submit a petition to the Secretary seeking
permission to file such an application. The Secretary
shall approve or disapprove a petition submitted under
this subparagraph within ninety days of the date the
petition is submitted. The Secretary shall approve such
a petition unless the Secretary finds—
(i) that investigations must be conducted to show
the safety and effectiveness of the drug or of any of
its active ingredients, the route of administration,
the dosage form, or strength which differ from the
listed drug; or
(ii) that any drug with a different active ingredient
may not be adequately evaluated for approval as
safe and effective on the basis of the information
required to be submitted in an abbreviated application.
(D)(i) An applicant may not amend or supplement an
application to seek approval of a drug referring to a different listed drug from the listed drug identified in the
application as submitted to the Secretary.
(ii) With respect to the drug for which an application is
submitted, nothing in this subsection prohibits an applicant from amending or supplementing the application to seek approval of a different strength.
(iii) Within 60 days after December 8, 2003, the Secretary shall issue guidance defining the term “listed
drug” for purposes of this subparagraph.
*

*

*

237a
(5)(A) Within one hundred and eighty days of the initial receipt of an application under paragraph (2) or
within such additional period as may be agreed upon by
the Secretary and the applicant, the Secretary shall approve or disapprove the application.
(B) The approval of an application submitted under
paragraph (2) shall be made effective on the last applicable date determined by applying the following to each
certification made under paragraph (2)(A)(vii):
(i) If the applicant only made a certification described in subclause (I) or (II) of paragraph
(2)(A)(vii) or in both such subclauses, the approval
may be made effective immediately.
(ii) If the applicant made a certification described
in subclause (III) of paragraph (2)(A)(vii), the approval may be made effective on the date certified
under subclause (III).
(iii) If the applicant made a certification described
in subclause (IV) of paragraph (2)(A)(vii), the approval shall be made effective immediately unless,
before the expiration of 45 days after the date on
which the notice described in paragraph (2)(B) is
received, an action is brought for infringement of
the patent that is the subject of the certification
and for which information was submitted to the
Secretary under subsection (b)(1) or (c)(2) before
the date on which the application (excluding an
amendment or supplement to the application),
which the Secretary later determines to be substantially complete, was submitted. If such an action is brought before the expiration of such days,
the approval shall be made effective upon the expiration of the thirty-month period beginning on the
date of the receipt of the notice provided under

238a
paragraph (2)(B)(i) or such shorter or longer period
as the court may order because either party to the
action failed to reasonably cooperate in expediting
the action, except that—
(I) if before the expiration of such period the
district court decides that the patent is invalid
or not infringed (including any substantive determination that there is no cause of action for
patent infringement or invalidity), the approval
shall be made effective on—
(aa) the date on which the court enters
judgment reflecting the decision; or
(bb) the date of a settlement order or consent decree signed and entered by the
court stating that the patent that is the
subject of the certification is invalid or not
infringed;
(II) if before the expiration of such period the
district court decides that the patent has been
infringed—
(aa) if the judgment of the district court is
appealed, the approval shall be made effective on—
(AA) the date on which the court of
appeals decides that the patent is invalid or not infringed (including any substantive determination that there is no
cause of action for patent infringement
or invalidity); or
(BB) the date of a settlement order or
consent decree signed and entered by
the court of appeals stating that the

239a
patent that is the subject of the certification is invalid or not infringed; or
(bb) if the judgment of the district court is
not appealed or is affirmed, the approval
shall be made effective on the date specified by the district court in a court order
under section 271(e)(4)(A) of Title 35;
(III) if before the expiration of such period the
court grants a preliminary injunction prohibiting the applicant from engaging in the commercial manufacture or sale of the drug until the
court decides the issues of patent validity and
infringement and if the court decides that such
patent is invalid or not infringed, the approval
shall be made effective as provided in subclause
(I); or
(IV) if before the expiration of such period the
court grants a preliminary injunction prohibiting the applicant from engaging in the commercial manufacture or sale of the drug until the
court decides the issues of patent validity and
infringement and if the court decides that such
patent has been infringed, the approval shall be
made effective as provided in subclause (II).
In such an action, each of the parties shall
reasonably cooperate in expediting the action.
(iv) 180-day exclusivity period
(I) Effectiveness of application
Subject to subparagraph (D), if the application contains a certification described in
paragraph (2)(A)(vii)(IV) and is for a drug

240a
for which a first applicant has submitted an
application containing such a certification,
the application shall be made effective on
the date that is 180 days after the date of
the first commercial marketing of the drug
(including the commercial marketing of the
listed drug) by any first applicant.
(II) Definitions
In this paragraph:
(aa) 180-day exclusivity period
The term “180-day exclusivity period”
means the 180-day period ending on
the day before the date on which an
application submitted by an applicant
other than a first applicant could become effective under this clause.
(bb) First applicant
As used in this subsection, the term
“first applicant” means an applicant
that, on the first day on which a substantially complete application containing a certification described in paragraph (2)(A)(vii)(IV) is submitted for
approval of a drug, submits a substantially complete application that contains and lawfully maintains a certification
described
in
paragraph
(2)(A)(vii)(IV) for the drug.
(cc) Substantially complete application
As used in this subsection, the term
“substantially complete application”

241a
means an application under this subsection that on its face is sufficiently
complete to permit a substantive review and contains all the information
required by paragraph (2)(A).
(dd) Tentative approval
(AA) In general
The term “tentative approval”
means notification to an applicant
by the Secretary that an application under this subsection meets
the requirements of paragraph
(2)(A), but cannot receive effective
approval because the application
does not meet the requirements of
this subparagraph, there is a period of exclusivity for the listed drug
under subparagraph (F) or section
355a of this title, or there is a 7year period of exclusivity for the
listed drug under section 360cc of
this title.
(BB) Limitation
A drug that is granted tentative
approval by the Secretary is not an
approved drug and shall not have
an effective approval until the Secretary issues an approval after any
necessary additional review of the
application.
(v) 180-day exclusivity period for competitive generic therapies

242a
(I) Effectiveness of application
Subject to subparagraph (D)(iv), if the application is for a drug that is the same as a
competitive generic therapy for which any
first approved applicant has commenced
commercial marketing, the application shall
be made effective on the date that is 180
days after the date of the first commercial
marketing of the competitive generic therapy (including the commercial marketing of
the listed drug) by any first approved applicant.
(II) Limitation
The exclusivity period under subclause (I)
shall not apply with respect to a competitive generic therapy that has previously
received an exclusivity period under subclause (I).
(III) Definitions
In this clause and subparagraph (D)(iv):
(aa) The term “competitive generic
therapy” means a drug—
(AA) that is designated as a competitive generic therapy under section 356h of this title; and
(BB) for which there are no unexpired patents or exclusivities on
the list of products described in
section 355(j)(7)(A) of this title at
the time of submission.

243a
(bb) The term “first approved applicant” means any applicant that has
submitted an application that—
(AA) is for a competitive generic
therapy that is approved on the
first day on which any application
for such competitive generic therapy is approved;
(BB) is not eligible for a 180-day
exclusivity period under clause (iv)
for the drug that is the subject of
the application for the competitive
generic therapy; and
(CC) is not for a drug for which all
drug versions have forfeited eligibility for a 180-day exclusivity period under clause (iv) pursuant to
subparagraph (D).
*

*

*

